APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion, Supreme Court of the State
of Rhode Island, No. 2017-36-Appeal
(June 3, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Decision in the State of Rhode Island
and Providence Plantations Kent, Sc.
Superior Court, C.A. No. KC-13-1059
(July 22, 2016). . . . . . . . . . . . . . . App. 70
Appendix C Transcript
Heard
Before the
Honorable Justice Sarah Taft-Carter
in the State of Rhode Island and
Providence Plantations Kent, Sc.
Superior Court, No. KC-13-1059
(November 2, 2015). . . . . . . . . . App. 136
Appendix D Constitution:
U.S. Const. Art. 1, § 10, cl. 1 Section
10 . . . . . . . . . . . . . . . . . . . . . . . . App. 207
U.S. Const. amend. V . . . . . . . . App. 207
Appendix E The City of Cranston, Ordinance of the
City Counsel No. 2013-5
(April 23, 2013) . . . . . . . . . . . . . App. 208
Appendix F The City of Cranston, Ordinance of the
City Counsel No. 2013-6
(April 23, 2013) . . . . . . . . . . . . . App. 232

App. 1

APPENDIX A
State of Rhode Island
Supreme Court
No. 2017-36-Appeal.
(KC 13-1059)
(formerly PC 13-3212)
[Filed June, 3 2019]
__________________________
Cranston Police Retirees
)
Action Committee
)
)
v.
)
)
The City of Cranston, by
)
and through its Finance
)
Director Robert Strom and )
its City Treasurer David
)
Capuano, et al.
)
__________________________ )
Present: Suttell, C.J., Goldberg, Flaherty, Robinson,
and Indeglia, JJ.
OPINION
Chief Justice Suttell, for the Court. This appeal
concerns two 2013 Cranston city ordinances that
promulgated a ten-year suspension of the
cost-of-living-adjustment (COLA) benefit for retirees of
the Cranston Police Department and Cranston Fire
Department who were enrolled in the City of

App. 2
Cranston’s pension plan. The plaintiff, Cranston Police
Retirees Action Committee (CPRAC or plaintiff),
initiated this litigation against the City of Cranston
(the City), Mayor Allan Fung, and the members of the
Cranston City Council (collectively, defendants),
alleging a litany of claims ranging from constitutional
violations to statutory infringements. A Superior Court
justice, sitting without a jury in a trial held over six
days in November 2015, found in favor of the
defendants on all counts. The plaintiff now raises
several issues for our consideration related to the trial
justice’s rulings on an assortment of motions and her
findings of fact and conclusions of law. For the reasons
set forth in this opinion, we affirm the judgment of the
Superior Court.
I
Facts
In 1937, the City established a pension fund for
members of its police and fire departments. By the
mid-1980s, the pension fund had become a significant
financial concern. In the early1990s, Mayor Michael
Traficante met with police and firefighter union leaders
in an attempt to address the problem. Ultimately, in
1996, the City passed two ordinances based on an
agreement reached with the unions, creating a
two-tiered pension system (the 1996 ordinances). The
1996 ordinances, No. 96-54 for firefighters and No.
96-56 for police officers, provided that all members of
the police and fire departments hired after July 1,
1995, would be enrolled in the state’s pension system.
Additionally, those members with five or fewer years of
service could elect to stay in the City’s pension plan or

App. 3
enroll in the state’s pension system. For the members
remaining in the City’s pension plan, the 1996
ordinances provided for a minimum 3 percent
compounded COLA, or, alternatively, a percentage
equal to that of a contractual increase for active
members. The unions bargained for this COLA to
match the benefits that were being offered under the
state’s pension plan.
The fiscal issues related to the City’s pension plan
did not subside with the passage of the 1996
ordinances. By July 1, 1999, the unfunded accrued
liability of the City’s pension plan exceeded more than
$169 million. The City’s pension liability remained an
issue throughout the early 2000s. Mayor John O’Leary,
who succeeded Mayor Traficante, borrowed against the
pension fund in his final year in office to pay the
then-retirees’ health care costs and base pensions.1
When Mayor Fung took office in 2009, the City was
in “dire” fiscal condition. At that time, Cranston faced
a severe economic recession that was affecting all parts
of the country. As such, the City experienced high
unemployment rates and over $1 billion in decreased
property values. Moreover, state aid decreased
substantially between 2007 and 2011, and two
devastating floods in the spring of 2010 also inflicted a
financial toll on the City. In order to improve its
financial situation, the City made cuts to personnel,
eliminated city vehicles, and increased health care
co-shares for its employees.

1

Those amounts were repaid to the pension fund the following
year.

App. 4
In 2011, the General Assembly passed the Rhode
Island Retirement Security Act (RIRSA), G.L. 1956
chapter 65 of title 45, legislation focused on promoting
the sustainability of municipal pension systems.
See § 45-65-2. Pursuant to § 45-65-4, a municipality’s
pension plan would be in “critical status” if “as
determined by its actuary, as of the beginning of the
plan year, a plan’s funded percentage for such plan
year is less than sixty percent (60%).” A municipality
administering a plan in “critical status” is required,
under RIRSA, (1) to give notice of such status to plan
participants and other listed individuals and entities
and (2) to submit a funding improvement plan detailing
the municipality’s strategy for emerging from that
status. Section 45-65-6. A commission within the
Department of Revenue that had been set up under the
statute established guidelines for the funding
improvement plans, suggesting that, “[g]enerally, the
funding improvement period should not exceed 20
years with the plan emerging from critical status
within that timeframe.” Municipalities not in
compliance with the statute faced a reduction in state
aid. Section 45-65-7.
Mayor Fung’s administration analyzed the health of
the City’s pension system during his first term. By
June 30, 2011, the unfunded accrued liability of the
pension plans had risen to $256 million.2 In 2012, the

2

One of the biggest factors contributing to this unfunded liability
of the plan was historic underfunding of the plan due to the City’s
failure to pay 100 percent of its annual required contribution
(ARC). Mayor Fung testified that the ARC is the amount that the
City is supposed to contribute to the pension plan as determined

App. 5
pension system was funded at only 16.9 percent,
meeting the definition for “critical status” pursuant to
§ 45-65-4. In accordance with § 45-65-6, Mayor Fung
sent a letter to all pensioners enrolled in the City’s
pension system informing them of the “critical status.”
The City next put together an “alternative funding
improvement plan consistent with the [requirements of
§ 45-65-6].” In doing so, the City considered a number
of options, including raising taxes, cutting more
personnel, and eliminating city services. Additionally,
in September 2012, Mayor Fung met with City
pensioners to keep them apprised of the pension
situation and also to propose a ten-year COLA
suspension as the preferred method of raising the plan
from critical status. Thereafter, Mayor Fung presented
the COLA suspension plan to the City Council in two
proposed ordinances in October 2012.
Shortly after, Mayor Fung withdrew the proposed
ordinances in favor of negotiations with the plan
participants, and, in the months that followed, he met
with the police and firefighter unions and persons who
represented the City’s police and firefighter retirees.
After meeting with the unions and retirees, the City’s
actuaries ran twenty to thirty additional scenarios for
plans to lift the pension system from critical status.
Ultimately, however, the City enacted two ordinances
on April 23, 2013 (the 2013 ordinances)—No. 2013-5,
governing police retirees, and No. 2013-6, governing
fire retirees—suspending the minimum 3 percent
COLA for ten years, beginning July 1, 2013.
by City actuaries “after reviewing the plan, all the plan
participants, the funding of the plan, [and] the investments[.]”

App. 6
Following the passage of the 2013 ordinances, The
Cranston Police Department Retirees Association, Inc.,
and Local 1363 Retirees Association filed suit against
the City on behalf of retirees enrolled in the City’s
pension plan, alleging that the 2013 ordinances
violated the United States and Rhode Island
Constitutions. The parties reached a settlement
agreement, and a final consent judgment was entered
in December 2013. The agreement provided for a COLA
suspension in alternating years for ten years, and a 1.5
percent COLA payment in years eleven and twelve.
Each retiree was given the opportunity to opt out of the
settlement agreement and to retain the right to pursue
civil claims against the City. The members of CPRAC
are retirees enrolled in the City’s pension system who
opted out of the settlement agreement.
II
Procedural History
A
Pretrial Motions
On June 28, 2013, plaintiff filed an eight-count
complaint in Superior Court against the City, Mayor
Fung, and the members of the Cranston City Council.3
The complaint included allegations of violations of the

3

The complaint named John Lanni, Jr., Donald Botts, Jr., Mario
Aceto, Michael J. Farina, Michael W. Favicchio, Paul H. Archetto,
Richard D. Santamaria, Jr., Sarah Kales Lee, and Steven A.
Stycos, in their capacity as members of the Cranston City Council.
The named members of the city council, along with Mayor Fung,
will be referred to hereafter as the “Non-City” defendants.

App. 7
United States and Rhode Island Constitutions, a state
statute, and breach of contract.4 The defendants filed a
motion to dismiss six of the eight counts, as well as an
answer to the complaint. The trial justice granted
defendants’ motion to dismiss in part, dismissing
counts VI and VIII of the complaint. During the course
of discovery, defendants filed a motion for a protective
order to prevent plaintiff from deposing city
councilmember John Lanni, Jr. On September 15,
2015, the trial justice granted defendants’ motion on
the basis that Lanni enjoyed the privilege of legislative
immunity, and that the topics about which plaintiff
sought to question Lanni were related to his position as
a legislator.
In the month prior to trial, the parties filed several
motions for summary judgment. On October 9, 2015,
the Non-City defendants filed a motion for summary
judgment on all remaining counts. One week later, the

4

In count I, plaintiff sought a declaration that the 2013 ordinances
violated the Contract Clauses of the United States and Rhode
Island Constitutions. The plaintiff alleged a breach of contract
claim and constitutional violation of the Takings Clauses of the
United States and Rhode Island Constitutions in count II. In count
III, plaintiff alleged that the enactment of the 2013 ordinances by
the mayor and city council members was facially unconstitutional,
and sought a declaratory judgment to that effect. Count IV of the
complaint alleged that the enactment of the 2013 ordinances was
barred by the doctrine of res judicata and that the ordinances were
thus void ab initio. Count V of the complaint asked for equitable or
injunctive relief. In counts VI and VII, plaintiff alleged a violation
of civil rights pursuant to 42 U.S.C. §§ 1983 and 1988, and the
Open Meetings Act, G.L. 1956 chapter 46 of title 42, respectively.
Finally, in count VIII, plaintiff alleged that defendants violated the
fiduciary duty owed to retirees.

App. 8
City filed a motion for summary judgment as to
plaintiff’s Takings Clause claim. The plaintiff filed its
own motion for summary judgment on October 19,
2015, seeking summary judgment on its claims based
on res judicata and on the violation of the Rhode Island
Open Meetings Act, G.L. 1956 chapter 46 of title 42
(the OMA). The City also filed a cross-motion for
summary judgment as to the res judicata and OMA
counts.
The trial justice heard arguments on all four
summary judgment motions at a hearing held on
November 2, 2015. On that same day, the trial justice
issued a decision from the bench, granting summary
judgment in favor of the Non-City defendants on all
counts, and in favor of the City as to res judicata and
the Takings Clause claim. The trial justice reserved
judgment on the OMA claim until November 6, 2015,
when she rendered a bench decision granting summary
judgment in favor of the City.
The City had also filed a motion in limine to
determine the appropriate burden of proof for the
Contract Clause claim. The trial justice heard
arguments on this motion at the November 2, 2015
hearing, and rendered a bench decision on November 6,
2015. The trial justice relayed that she would employ
a burden-shifting analysis on part of the Contract
Clause analysis, with specific burdens of production on
each party at each stage of the analysis.
Three days before trial, the City sought leave to
amend its answer to the complaint to specifically deny
some of plaintiff’s allegations and to formally add an
affirmative defense. The City contended that these

App. 9
amendments would simply ensure that its pleading
conformed to the positions that it had taken throughout
the litigation and to evidence the City intended to
introduce during the upcoming trial. The trial justice
granted the City’s motion to amend on the morning the
trial began, over plaintiff’s objection.
B
Trial
On November 9, 2015, the first day of trial, three
counts of plaintiff’s complaint remained: violation of
the Contract Clause, breach of contract, and injunctive
relief. Sixteen witnesses testified over the course of five
days. Their testimony is summarized below.
The plaintiff presented testimony from nine
members of CPRAC, two former Cranston mayors, and
an actuary, who provided expert testimony. The City
presented testimony from the current mayor, the City’s
finance director, an actuary, and a current Cranston
firefighter.
Glenn Gilkenson, president of CPRAC, testified
first. Gilkenson retired from the Cranston Police
Department in 2008 after twenty-five years of service.
Gilkenson testified that, according to the collective
bargaining agreement under which he retired, he
received a pension and COLA adjustments. According
to Gilkenson, after the 2013 ordinances passed, he
spoke to a few retired police officers and firefighters
who werein the same situation, and they decided to
form a nonprofit organization, CPRAC, to fight the
suspension of their COLA benefits. Gilkenson testified
that CPRAC started with seventy-five members, and,

App. 10
at the time of trial, had seventy-one members.
Gilkenson testified that it was CPRAC’s policy and
strategy to not negotiate with the City with respect to
a reduction of the COLA, and he also stated that the
COLA freeze had impacted his personal finances.
Following Gilkenson’s testimony, plaintiff presented
eight other members of CPRAC as witnesses over the
course of the first two days of trial: retired firefighter
Vincent Matrumalo and retired police officers Edward
Walsh, William Lynch, David Greene, Robert Davies,
Charles Galligan, Edward Evans, and Vincent
Maccarone. Similar to Gilkenson’s testimony, these
CPRAC members consistently testified that they had
believed they would receive COLA benefits for life, and
that the suspension of the COLA benefit had a
significant financial impact on their lives. Each of the
CPRAC members’ collective bargaining agreements
(CBAs) were admitted as trial exhibits. Each CBA,
beginning in 1997, provided for COLAs to the pension
benefits at a rate of at least 3 percent, compounded on
July 1 of each year.
The plaintiff then called Michael Traficante, mayor
of Cranston from 1985-1999, to the stand. Mayor
Traficante testified that he became aware of the City’s
pension crisis as early as 1984, when he served as city
council president. He further testified about
negotiations with the police and firefighter unions in
the mid-1990s to address the pension crisis. According
to Mayor Traficante, the City explored many
alternatives to address the pension liability aside from
moving the pensioners into the state system, including
a pension bond or supplemental tax, but ultimately

App. 11
decided that moving the pensioners into the state
system was the best course of action. The plaintiff also
called Mayor Traficante’s successor, John O’Leary, to
testify. Mayor O’Leary served as mayor from 1999 until
2003. Mayor O’Leary testified that, in his final year as
mayor, he borrowed money from the fire and police
pension fund as a one-time allocation to pay for
retirees’ health care costs, and that the debt was repaid
the following year.
The City’s current mayor, Allan Fung, took the
stand next, having been called by defendants. Mayor
Fung testified that, just after he took office in 2009, he
examined the City’s fiscal condition and discovered that
it was “very dire.” According to Mayor Fung, the
economic recession of the late 2000s had taken a toll on
the City, as it had on other cities across the country,
and made it difficult for the City to raise revenue.
Additionally, Mayor Fung testified, the City
experienced two devastating floods in 2010, and state
aid decreased dramatically in the first few years of his
administration—by $18 million between 2007 and
2011. Mayor Fung testified that he felt that if the City
did not address the financial crisis, Chapter 9
bankruptcy “could be a very real possibility[.]”
Mayor Fung further testified about the critical
status of the City’s pension system as of 2011, stating
that, at its lowest point, the system was funded at
only16.9 percent, with $256 million of unfunded
accrued liability. He testified that a combination of
factors led to this situation, including the compounded
COLAs for municipal retirees and historic
underfunding of the entire municipal pension system.

App. 12
Mayor Fung testified that his administration
considered many alternatives to determine the best
solution for emerging from “critical status” within the
twenty-year guideline. In addition to a ten-year
suspension of the COLA, Mayor Fung testified, the City
implemented wage freezes, layoffs of City employees,
tax increases, health care co-share increases, and
expense reduction, in order to raise revenue during its
financial crisis.
Robert Strom, finance director for the City, testified
next for defendants. Strom reiterated Mayor Fung’s
statements that the City had suffered a financial crisis
during the first few years of the Fung administration.
Strom further testified that he believed that the City
would face serious consequences if the twenty-year
guideline for emerging from “critical status” was not
met, including reduced or eliminated state funds,
which were instrumental to the City’s budget. Strom
also testified that raising taxes on the City’s residents
would not resolve the pension system’s problems
because the City would need to raise taxes so
substantially that it would have been unfair and
unsustainable, considering the fact that the City
already had one of the highest tax rates in the state.
The plaintiffs called their retained expert, William
Fornia, to the stand on the penultimate day of trial.5
Fornia testified that he is an actuary by profession and
had been a pension consultant for several large

5

The day before Fornia testified, the City moved to prevent him
from testifying as to certain subjects, a motion that the trial justice
denied.

App. 13
consulting firms for many years prior to starting his
own company. Fornia testified that, based on his expert
analysis of the actuarial reports commissioned by the
City, the COLA suspension caused an average loss of
$210,000 per retiree. Fornia further testified that the
City’s pension problems were foreseeable and
predictable, and that the City had not chosen the least
drastic remedy available when it chose to suspend the
COLAs.
After the plaintiff rested, the City called two more
witnesses to conclude the testimony at trial: expert
witness Daniel Sherman, an actuary, and Paul
Valletta, Jr., a current Cranston firefighter and
president of the firefighters’ union. Sherman rebutted
some of plaintiff’s expert’s conclusions, particularly
with respect to the pension system’s shortfall
calculation and the COLA change alternatives. Valletta
testified about the negotiations between Mayor Fung
and the unions and retirees prior to the passage of the
ordinances. The trial ended on November 17, 2015.
On July 22, 2016, the trial justice issued a written
decision resolving, in favor of the City, the claims for
violation of the Contract Clauses of the United States
and Rhode Island Constitutions, breach of contract,
and injunctive relief. The details of her decision that
are salient to the issues plaintiff raises on appeal will
be discussed infra. Final judgment in favor of all
defendants was entered on August 4, 2016.

App. 14
C
Posttrial Motions
Following entry of final judgment, the City filed a
motion for costs. The plaintiff objected and filed a
motion to stay consideration of the bill of costs until
plaintiff’s appeal was decided by this Court. The trial
justice heard argument on the motions on October 13,
2016, when she summarily denied plaintiff’s motion to
stay and awarded costs to the City in the amount of
$9,717.85.
III
Issues on Appeal
Before this Court, plaintiff challenges several
pretrial decisions, some of the trial justice’s findings
and conclusions after trial, and the posttrial award of
costs in favor of the City.6 Specifically, plaintiff argues
that the trial justice erred by: (1) finding that the 2013
ordinances did not violate the Contract Clauses of the
United States and Rhode Island Constitutions;
(2) misapplying the burden of proof in the Contract
Clause analysis; (3) misconceiving and misapplying
expert testimony; (4) granting summary judgment in
favor of the City as to the Takings Clause, res judicata,
and OMA claims; (5) granting defendants’ motion for a
protective order as to Councilmember Lanni;
(6) granting summary judgment in favor of the
Non-City defendants on all counts; (7) granting the
6

The plaintiff does not challenge the trial justice’s decision
following trial with respect to the claims for breach of contract or
injunctive relief.

App. 15
City’s motion to amend its answer shortly before trial;
and (8) summarily dismissing plaintiff’s motion to stay
and granting, in part, the City’s motion for costs. We
will take each issue in turn.
A
Contract Clause
The trial justice concluded that the 2013 ordinances
suspending plaintiff’s members’ COLAs did not violate
the Contract Clauses of the United States or Rhode
Island Constitutions. Before this Court, plaintiff claims
two errors as to the trial justice’s Contract Clause
analysis. First, plaintiff argues that the trial justice
erred in the determination and application of the
burden of proof at trial. Second, plaintiff argues that
the trial justice erred in ultimately finding in favor of
the City on this issue.
This Court has held that we “will apply a de novo
standard of review to questions of law that may
implicate a constitutional right.” Goetz v. LUVRAJ,
LLC, 986 A.2d 1012, 1016 (R.I. 2010). However, we will
not disturb the factual findings made by a trial justice
sitting without a jury “unless such findings are clearly
erroneous or unless the trial justice misconceived or
overlooked material evidence.” Gregoire v. Baird
Properties, LLC, 138 A.3d 182, 191 (R.I. 2016) (deletion
omitted) (quoting South County Post & Beam, Inc. v.
McMahon, 116 A.3d 204, 210 (R.I. 2015)). “When the
record indicates that competent evidence supports the
trial justice’s findings, we shall not substitute our view
of the evidence for his or hers even though a contrary
conclusion could have been reached.” Id. (brackets

App. 16
omitted) (quoting South County Post & Beam, Inc., 116
A.3d at 210).
The Contract Clauses of the United States and the
Rhode Island Constitutions prevent the state from
enacting laws “impairing the obligation of contracts[.]”
U.S. Const. Art. I, § 10, cl. 1; R.I. Const. art. 1, § 12.
“Although the Contract Clause appears literally to
proscribe ‘any’ impairment, * * * ‘the prohibition is not
an absolute one and is not to be read with literal
exactness like a mathematical formula.’” United States
Trust Company of New York v. New Jersey, 431 U.S. 1,
21 (1977) (quoting Home Building & Loan Ass’n v.
Blaisdell, 290 U.S. 398, 428 (1934)). Moreover,
“[t]hough the Framers apparently had in mind only
purely private contracts (particularly debt obligations)
the Clause routinely has been applied to contracts
between states and private parties.” Nonnenmacher v.
City of Warwick, 722 A.2d 1199, 1202 (R.I. 1999)
(deletion omitted) (quoting McGrath v. Rhode Island
Retirement Board, Etc., 88 F.3d 12, 16 (1st Cir. 1996)).
The Contract Clause “has been interpreted to apply to
municipalities as well.” Id.
We have previously adopted the United States
Supreme Court’s three-part analysis for Contract
Clause issues. Nonnenmacher, 722 A.2d at 1202 (citing
General Motors Corporation v. Romein, 503 U.S. 181,
186 (1992)). “A court first must determine whether a
contract exists.” Id. (citing McGrath, 88 F.3d at 16).
Second, “[i]f a contract exists, the court then must
determine whether the modification results in an
impairment of that contract and, if so, whether this
impairment can be characterized as substantial.” Id.

App. 17
(citing Energy Reserves Group, Inc. v. Kansas Power &
Light Co., 459 U.S. 400, 411-12 (1983)). “Finally, if it is
determined that the impairment is substantial, the
court then must inquire whether the impairment,
nonetheless, is reasonable and necessary to fulfill an
important public purpose.” Id. (citing Energy Reserves
Group, Inc., 459 U.S. at 412).
1
Burden of Production
Before addressing the merits of plaintiff’s Contract
Clause argument, we turn to whether the trial justice
erred in her conclusions about the burden of production
at each stage of the analysis. When the trial justice
ruled on the City’s motion in limine regarding the
burden of proof for plaintiff’s Contract Clause claim,
she set out the following rubric: (1) “[p]laintiff bears the
burden of production in establishing [whether the state
law has substantially impaired a contract] beyond a
reasonable doubt”; (2) if plaintiff meets that burden,
“the burden of production shifts to the defendant to
prove” that the 2013 ordinances were reasonable and
necessary to fulfill a significant and legitimate public
purpose; and (3) “[t]hereafter, a plaintiff may, of course,
rebut with evidence that the legislation was not
reasonable and necessary * * * beyond a reasonable
doubt.” The trial justice further stated that the City’s
burden with respect to demonstrating a reasonable and
necessary legitimate public purpose would be satisfied
by credible evidence. The trial justice also stated that
she would use a “less deference” standard in evaluating
the City’s argument whether the legislation was
reasonable or necessary.

App. 18
On appeal, plaintiff asserts that, despite her
articulated rubric, the trial justice gave “nearly
complete deference” to the City regarding the degree
and necessity of the contractual impairment. The
plaintiff argues that the City should have been
required to demonstrate, at the very least, a
preponderance of the evidence, rather than “credible
evidence,” regarding its justification for the
impairment; and plaintiff contends that the correct
standard in this case should actually be clear and
convincing evidence. For its part, the City argues that
the trial justice should not have shifted the burden of
production at all, but that she ultimately reached the
correct conclusion. We review the trial justice’s
determination and application of the burden-shifting
analysis de novo. See Panarello v. State Department of
Corrections, 88 A.3d 350, 366 (R.I. 2014). We note that
“it would be reversible error for a trial justice to apply
the wrong burden of proof.” Id.
“[T]he term ‘burden of proof’ embraces two different
concepts”—the burden of production and the burden of
persuasion. Murphy v. O’Neill, 454 A.2d 248, 250 (R.I.
1983). “The ‘burden of persuasion’ refers to the
litigants’ burden of establishing the truth of a given
proposition in a case by such quantum of evidence as
the law may require[,]” and it “never shifts.” Id.
(punctuation omitted). The burden of production, also
referred to as the “burden of going forward with the
evidence,” DeBlois v. Clark, 764 A.2d 727, 732 n.3 (R.I.
2001), “shifts from party to party as the case
progresses.” Murphy, 454 A.2d at 250.

App. 19
We must first resolve whether the trial justice
properly determined that a burden-shifting analysis
applies in this case. Courts have not been uniform in
shifting the burden of production to the state in the
Contract Clause context following a finding of
substantial impairment. For example, in Toledo Area
AFL-CIO Council v. Pizza, 154 F.3d 307 (6th Cir.
1998), the Sixth Circuit required that a “state must
proffer a ‘significant and legitimate’ public purpose for
the regulation warranting the extent of the impairment
caused by the measure.” Pizza, 154 F.3d at 323
(quoting Energy Reserves Group Inc., 459 U.S. at 411)
(emphasis added). However, in United Automobile,
Aerospace, Agricultural Implement Workers of America
International Union v. Fortuño, 633 F.3d 37 (1st Cir.
2011), the First Circuit held that “the plaintiffs bear
the burden on the reasonable/necessary prong of the
Contract Clause analysis[,]” and that “neither [the
First Circuit] nor the Supreme Court has ever held”
that the state must prove reasonableness and necessity
of the regulation. Fortuño, 633 F.3d at 42, 44 (emphasis
added). The First Circuit has also acknowledged,
however, that “many courts have concluded that this
burden rests with the state, and others, including this
court and the Supreme Court, have used language that
arguably supports such a conclusion.” Id. at 43
(footnotes omitted). Indeed, in Energy Reserves Group,
Inc., the United States Supreme Court held that, “[i]f
the state regulation constitutes a substantial
impairment, the State, in justification, must have a
significant and legitimate public purpose behind the
regulation[.]” Energy Reserves Group, Inc., 459 U.S. at
411 (emphasis added); see also United States Trust
Company of New York, 431 U.S. at 31 (“In the instant

App. 20
case the State has failed to demonstrate that repeal of
the 1962 covenant was similarly necessary.”) (emphasis
added).
This Court has not yet expressly adopted a
burden-shifting analysis regarding the Contract
Clause, but we have alluded to it: “if the law
constitutes a substantial impairment, can the state
show a legitimate public purpose behind the regulation
* * *?” Rhode Island Depositors Economic Protection
Corporation v. Brown, 659 A.2d 95, 106 (R.I. 1995)
(citing Energy Reserves Group, Inc., 459 U.S. at 411-12)
(emphasis added). In that case we held, however, that
no contractual right was implicated, and therefore we
did not reach this factor of the Contract Clause
analysis. Id. Given the language of the standard set out
in the United States Supreme Court cases and the
general logic that the City would have access to the
information and motivation to demonstrate its
justification for the contractual impairment, we find no
fault in the trial justice’s conclusion that the City bore
the burden of production as to the reasonableand-necessary element of the analysis.
We proceed now to plaintiff’s argument that the
trial justice erred in requiring the City to proffer only
credible evidence of its justifications, and that she
erred in her application of the burden of proof because
she gave the City “nearly complete deference,” which
effectively failed to shift the burden of production to the
City at all. We have previously held that “a duly
enacted ordinance carries with it a presumption of
constitutionality which will disappear only on a
contrary showing beyond a reasonable doubt.” Town of

App. 21
Glocester v. Olivo’s Mobile Home Court, Inc., 111 R.I.
120, 124, 300 A.2d 465, 468 (1973). “[H]owever,
complete deference to a legislative assessment of
reasonableness and necessity is not appropriate
because the State’s self-interest is at stake.” United
States Trust Company of New York, 431 U.S. at 25-26.
Thus, as the trial justice in the present case noted, a
“less deference” standard was appropriate to analyze
the City’s proffered evidence for the reasonableness
and necessity of the 2013 ordinances. See Baltimore
Teachers Union, American Federation of Teachers Local
340, AFL-CIO v. Mayor and City Council of Baltimore,
6 F.3d 1012, 1019 (4th Cir. 1993) (“While complete
deference is inappropriate, however, at least some
deference to legislative policy decisions to modify these
contracts in the public interest must be accorded.”).
The specific quantum of proof the City must meet
has not been clearly set forth either by this Court or
the United States Supreme Court. However, the
Supreme Court has said that, if substantial
impairment is found, “the State, in justification, must
have a significant and legitimate public purpose behind
the regulation,” and that the government actor is
afforded a limited amount of deference as to that
showing. Energy Reserves Group, Inc., 459 U.S. at 412.
Thus, we find no error in the trial justice’s
determination of the burden of proof in this case.
With respect to her application of the burden of
proof, a review of the record and the trial justice’s
decision demonstrates that the trial justice did not fail
to shift the burden of production to the City. It is clear
that the trial justice required the City to put forth

App. 22
evidence demonstrating a significant and legitimate
public purpose for the 2013 ordinances, and that the
2013 ordinances were reasonable and necessary.
Moreover, we disagree with plaintiff that the trial
justice afforded the City complete deference. In fact,
the trial justice set forth a credible evidence standard
to be sure that the City was not afforded complete
deference as to its justifications.7 The trial justice, as
required of a factfinder at trial, weighed the evidence
and made credibility determinations. The fact that she
gave “great weight” to testimony at trial by Strom,
Sherman, and Mayor Fung does not equate to
“complete deference.” Thus, we also find no error in the
trial justice’s application of the burden of proof.
2
Substantive Claim
We will next examine plaintiff’s arguments as to the
merits of its Contract Clause claim. In her decision
following trial, the trial justice concluded that plaintiff
had met its burden of establishing that the 2013
ordinances substantially impaired the contractual
rights of plaintiff’s members beyond a reasonable
doubt. The trial justice specifically found that the 3
percent COLA was a vested right under the contract,

7

Before trial, the trial justice rejected the City’s request for an
“any admissible evidence” standard, noting that “[a]n any
admissible evidence standard does not allow for any level of
judicial scrutiny.” The trial justice instead determined that she
would employ the higher standard of credible evidence in order to
balance the interests between the “constitutional context here and
the utilization of less deference scrutiny.”

App. 23
and that the “cumulative impact [of the 2013
ordinances] to the individual was substantial.”
Moreover, the trial justice found that the City had
demonstrated a significant legitimate public purpose:
“to remedy the fiscal emergency and keep at bay
threatened cuts in state aid which would inexorably
worsen the fiscal situation.” The trial justice also
concluded that the 2013 ordinances were reasonable
and necessary, finding that the City presented
sufficient evidence that it had considered alternatives,
a more moderate course was not available, and the
2013 ordinances were reasonable in light of the
surrounding circumstances because they were
“circumscribed, temporary, precipitated by a fiscal
emergency, and prospective.”
The City argues that the trial justice erred in
concluding that plaintiff proved the existence of a
contractual right and that, therefore, the 2013
ordinances could not have substantially impaired a
contractual obligation. Although we recognize the
significance of this argument, because the City did not
file a cross-appeal, this argument is not properly before
us. Miller v. Metropolitan Property and Casualty
Insurance Company, 88 A.3d 1157, 1162 n.8 (R.I. 2014)
(“[I]f the prevailing party in the trial court wishes to
overturn one of the lower court’s rulings below, a cross
appeal must be filed.”) (quoting David A. Wollin, Rhode
Island Appellate Procedure § 4:5, 4-11 (West 2004)).
Thus, we assume, without deciding, the correctness of
the trial justice’s conclusion in that regard, and instead
move to the third part of the Contract Clause analysis,
which requires an inquiry as to “whether the
[contractual] impairment [was] reasonable and

App. 24
necessary to fulfill an important public purpose.”
Nonnenmacher, 722 A.2d at 1202. The plaintiff
challenges the trial justice’s findings as to both
whether a legitimate public purpose existed and
whether the 2013 ordinances were reasonable and
necessary. We will take each argument in turn.
a
Significant and Legitimate Public Purpose
First, plaintiff contends that the trial justice erred
in finding that a significant and legitimate public
purpose existed because the factors she relied on to
reach this conclusion, according to plaintiff, “neither
individually nor combined, constitute[d] a ‘fiscal
emergency’ as a matter of law to trigger forgiveness
under the Contracts Clause.” Specifically, plaintiff
avers that the financial problems faced by the City
were common to many other municipalities, no
immediate action was necessary to remedy the issues,
the crisis was not created by the enactment of the
pension statute, and a crisis of the City’s own making
cannot allow for a finding of a legitimate public
purpose.
As we have stated, the United States Supreme
Court has held that, “[i]f the state regulation
constitutes a substantial impairment, the State, in
justification, must have a significant and legitimate
public purpose behind the regulation, * * * such as the
remedying of a broad and general social or economic
problem.” Energy Reserves Group, Inc., 459 U.S. at
411-12. The Supreme Court has further instructed that
“the public purpose need not be addressed to an

App. 25
emergency or temporary situation.” Id. at 412. We are
mindful, however, that a legitimate public purpose is
not to be found in all circumstances, particularly when
related to economic issues. “If a State could reduce its
financial obligations whenever it wanted to spend the
money for what it regarded as an important public
purpose, the Contract Clause would provide no
protection at all.” United States Trust Company of New
York, 431 U.S. at 26; see also Allied Structural Steel
Company v. Spannaus, 438 U.S. 234, 242 (1978) (“If the
Contract Clause is to retain any meaning at all,
however, it must be understood to impose some limits
upon the power of a State * * *.”) (emphasis in
original). Thus, “the purpose may not be simply the
financial benefit of the sovereign.” Buffalo Teachers
Federation v. Tobe, 464 F.3d 362, 368 (2d Cir. 2006).
This Court has previously discussed public purposes
for challenged legislative actions in the context of the
Contract Clause. For example, in Nonnenmacher,
although we found that an ordinance requiring a setoff
of disability payments under a city’s pension plan did
not result in a substantial impairment of a contractual
right, we stated that, assuming it did, there would be
no violation of the Contract Clause because the
ordinances in question “serve[d] to protect the solvency
of the pension system and thereby serve[d] an
important public purpose.” Nonnenmacher, 722 A.2d at
1201, 1203, 1204; see Retired Adjunct Professors of
State of Rhode Island v. Almond, 690 A.2d 1342, 1347
(R.I. 1997) (holding that, assuming a statute limiting
the amount of part-time work in which a state
employee could engage while receiving state pension
benefits substantially impaired the contract, it was

App. 26
“both reasonable and necessary to advance the
legitimate public purpose of fostering public confidence
in the State’s retirement system by restricting the
proclivity of some public pensioners to indulge in what
is colloquially referred to as ‘double dipping’”).
Furthermore, in In re Advisory Opinion to the Governor
(DEPCO), 593 A.2d 943 (R.I. 1991), this Court stated
that “[t]he concept of public purpose * * * is not static
but must be sufficiently flexible to meet the
ever-changing needs of our complex society[,]” and,
further, that “[t]he modern trend of authority is to
expand and to construe liberally the meaning of public
purpose, especially in the area of economic welfare.” In
re Advisory Opinion to the Governor (DEPCO), 593
A.2d at 948.
Here, the trial justice found that “the 2013
[o]rdinances were passed for a significant and
legitimate public purpose[,]” reasoning, in part, that
“the City has produced sufficient credible evidence
through the testimony of Mayor Fung, Mr. Strom, and
Mr. Sherman that the Great Recession, the decline in
state aid, and RIRSA’s requirements created an
unprecedented fiscal emergency neither created nor
anticipated by the City.” The trial justice further
concluded that “there is no indication that the 2013
[o]rdinances sought to benefit one particular group or
individual over others.”
We, too, are of the opinion that the City has
demonstrated a significant and legitimate public
purpose for the passage of the 2013 ordinances. These
ordinances were not intended merely for the “financial
benefit of the sovereign[,]” Buffalo Teachers Federation,

App. 27
464 F.3d at 368, but, rather, were designed to address
the City’s serious fiscal crisis, one that was brought
about by several factors, many not within the City’s
control. One of the most critical factors precipitating
the 2013 ordinances was a severe and historic recession
in the years just prior to the passage of the ordinances,
which the trial justice found “had far reaching and
devastating economic and general social consequences”
for the City. Moreover, as noted, we have previously
opined that “protect[ing] the solvency of [a] pension
system” could be a legitimate public purpose—one that,
here, is critically important to plaintiff’s members, who
derive income from the system. Nonnenmacher, 722
A.2d at 1204. Thus, we find no error in the trial
justice’s conclusion that the 2013 ordinances served a
“significant and legitimate public purpose[.]” See
Energy Reserves Group, Inc., 459 U.S. at 411.
b
Reasonable and Necessary
The plaintiff also argues that “the City’s suspension
of the COLA was neither reasonable nor necessary.”
The plaintiff specifically contends that the trial justice
erred as to her determination of reasonableness
because: (1) the underfunding of the pension plans
existed when the City’s contractual obligation to the
pensioners began; (2) the trial justice misconstrued the
ordinances as “prospective” and “temporary”; and
(3) the City did not adequately consider other policy
alternatives, but instead chose a drastic impairment
which was politically expedient. For its part, the City
counters that, as to the “prospective” and “temporary”
argument, the proper focus should be on the

App. 28
government action, rather than the effect. The City
further asserts that plaintiff’s argument regarding the
policy alternatives “completely ignores the record
testimony.”
Although courts typically “defer to legislative
judgment as to the necessity and reasonableness of a
particular measure[,]” a municipality will be afforded
less deference “[w]hen [it] impairs the obligation of its
own contract[.]” United States Trust Company of New
York, 431 U.S. at 23. The Second Circuit Court of
Appeals has summarized this principle as follows:
“Ultimately, for impairment to be
reasonable and necessary under less
deference scrutiny, it must be shown that
the state did not (1) ‘consider impairing
the contracts on par with other policy
alternatives’ or (2) ‘impose a drastic
impairment when an evident and more
moderate course would serve its purpose
equally well,’ nor (3) act unreasonably ‘in
light of the surrounding circumstances[.]’”
Buffalo Teachers Federation, 464 F.3d at
371 (emphasis in original) (deletion
omitted) (quoting United States Trust
Company of New York, 431 U.S. at 30-31).
Furthermore, “the extent of the impairment is ‘a
relevant factor in determining its reasonableness.’” Id.
(quoting United States Trust Company of New York,
431 U.S. at 27).
Here, the trial justice found the ordinances to be
reasonable and necessary because the City presented

App. 29
credible evidence that “it adequately considered and
tried other policy alternatives”; “a more moderate
course was not available”; and “the 2013 [o]rdinances
were circumscribed, temporary, precipitated by a fiscal
emergency, and prospective.” The trial justice further
held that plaintiff did not rebut the City’s evidence
beyond a reasonable doubt.
Although the plaintiff correctly points out that the
underfunding of the pension system existed well before
the passage of the 2013 ordinances, it is significant
that, quite apart from the historic underfunding, the
financial condition of the City and its pension system
was greatly impacted by a number of circumstances in
the years leading up to the passage of the 2013
ordinances. We appreciate plaintiff’s emphasis on a
holding from our neighboring commonwealth that “[i]f
the foreseen problem has changed between the time of
the contracting and the time of the attempted
impairment, but has changed only in degree and not in
kind, the impairment is not reasonable.” Massachusetts
Community College Council v. Commonwealth, 649
N.E.2d 708, 713 (Mass. 1995). However, the evidence at
trial demonstrates that the City’s predicament grew
out of more than its continued contractual obligations
under CBAs and its failure to adequately fund the
pension system. Rather, the difficult economic climate,
a ruinous flooding situation, and the reduction in state
aid compounded the initial underfunding issue. See
Baltimore Teachers Union, 6 F.3d at 1021 n.13 (“To the
extent the City was aware of its precarious financial
condition and of possible reductions in state aid when
it enacted its budget, however, we believe that the
magnitude of the reductions in state aid rendered the

App. 30
budgetary shortfall that gave rise to the salary
reductions tantamount to a difference in kind from one
the City might otherwise have anticipated.”). We are of
the opinion that the trial justice did not misconceive or
misconstrue evidence in this regard, and thus we afford
significant deference to her factual determinations
regarding the City’s financial condition.
Furthermore, after reviewing the evidence, we do
not discern error in the trial justice’s determination
that the City adequately considered other policy
alternatives. The trial justice listened to the testimony
of several witnesses—whom she deemed credible—who
testified to that effect. Indeed, Mayor Fung testified
that the City considered raising taxes, making more
cuts to city personnel, and drastically reducing city
services. Mayor Fung also testified that, in order to
meet the City’s obligations under the funding
improvement plan with these alternative measures, the
budget cuts or tax raise would need to be significant.
Moreover, we agree with the trial justice’s conclusions
that the 2013 ordinances were narrowly tailored to the
problem and that the impairment was temporary and
prospective in nature because the 2013 ordinances
suspended a future benefit for a finite period of time.
The 2013 ordinances did not eliminate the COLA
benefit altogether, and only affected COLAs not yet
made available to retirees. Thus, granting the trial
justice due deference, we find no reversible error in her
determination that a more moderate course was not
available and that the impairment was reasonable in
light of the circumstances.

App. 31
Accordingly, we agree with the trial justice’s
conclusion that the 2013 ordinances did not violate the
Contract Clauses of the United States or Rhode Island
Constitutions.
B
Expert Testimony
The plaintiff argues that the trial justice
misconceived and misapplied the testimony of
plaintiff’s expert at trial. The plaintiff first avers that,
because the trial justice disposed of several pretrial
motions regarding plaintiff’s expert, she, “as
fact-finder, repeatedly reviewed the matters analyzed
by the expert and the facts underpinning [Fornia’s]
anticipated testimony before he ever had a chance to
testify[,]” and thus she “essentially pre-judged
CPRAC’s expert’s opinion before the expert was given
a chance to offer it.” The plaintiff also argues that the
trial justice “effectively disqualified” Fornia’s expert
opinion because she actively disregarded evidence that
was undisputed. The plaintiff further contends that the
trial justice promoted form over substance during the
trial because “the hoops that [Fornia] was required to
jump through to impart his testimony effectively
neutered any opinion or guidance he attempted to give
the court as factfinder * * *.”8 Finally, plaintiff argues
that the trial justice, in error, effectively shifted the
burden of production back to plaintiff to prove, through
Fornia’s testimony, that the COLA suspension was the
least drastic alternative.
8

At trial, Fornia’s testimony was frequently interrupted by
objections as to the form of questions posed to him.

App. 32
Conversely, the City contends that, ultimately,
Fornia was not prevented from testifying as to any of
his opinions. The City also argues that, because this
was a bench trial, plaintiff was not harmed if, in fact,
the trial justice elevated form over substance, because
she ultimately weighed the testimony. Finally, the City
asserts that it proved that the COLA suspension was
the least drastic alternative, and that asking Fornia to
provide calculations to support his opinion that it was
not the least drastic alternative was not impermissible.
“On review, we accord great weight to a trial
justice’s determinations of credibility, which,
inherently, are the functions of the trial court and not
the functions of the appellate court.” Gregoire, 138 A.3d
at 191 (brackets omitted) (quoting South County Post
& Beam, Inc., 116 A.3d at 210). As we have stated, this
Court will not interfere with the trial justice’s findings
unless the trial justice “misconceived or overlooked
material evidence.” Id. (deletion omitted).
“It is the duty of the triers of fact to examine and
consider the testimony of every witness regardless of
his qualifications, and to grant to particular testimony
only such weight as the evidence considered as a whole
and the proper inferences therefrom reasonably
warrant.” Kyle v. Pawtucket Redevelopment Agency,
106 R.I. 670, 673, 262 A.2d 636, 638 (1970). Moreover,
“[i]t is the duty of a trial justice who is passing upon an
issue of fact to determine such issue according to his
own judgment, upon all the evidence, enlightened but
not controlled by the opinion of experts.” Ashton v. Tax
Assessors of Town of Jamestown, 60 R.I. 388, 396, 198
A. 786, 790 (1938).

App. 33
We begin our discussion by noting that, after
reviewing the trial justice’s commentary as to the
motion seeking to exclude Fornia’s testimony, as well
as Fornia’s actual testimony at trial, we are not
persuaded by plaintiff’s claim that the trial justice was
“pre-disposed to constrain” the expert’s testimony. The
trial justice ultimately denied the City’s motion in
limine to exclude Fornia’s testimony and, significantly,
at trial, allowed him to testify about his opinions set
forth in a disputed expert report, which was admitted
as a full exhibit during his testimony.
Furthermore, we perceive no reversible error in the
trial justice’s handling of the witness and reliance—or
lack thereof—on his testimony. In her decision, the
trial justice clearly articulated the parts of Fornia’s
testimony that she considered to be significant. The
trial justice first indicated that she gave weight to
Fornia’s opinion that the loss caused by the ordinance
was material.9 As to his opinion about the significant
and legitimate public purpose of the 2013 ordinances,
the trial justice gave Fornia’s testimony “little weight”
and clearly articulated the problems she saw in his
calculations relating to his testimony on this issue.
Finally, the trial justice gave no weight to Fornia’s
opinion that the City did not choose the least drastic
alternative, stating: “Mr. Fornia’s opinion did not
consider the feasibility of raising taxes, the decline in
state aid, or RIRSA’s requirements. * * * As such, this
opinion is unsupported.” The trial justice, sitting
9

While the trial justice gave weight to portions of Fornia’s opinion,
she did not rely on Fornia’s specific calculation regarding the
average loss incurred by individual retirees.

App. 34
without a jury, was entitled to make credibility
determinations and weigh the evidence. See Gregoire,
138 A.3d at 191. It is clear that the trial justice
carefully considered all of Fornia’s testimony.
Moreover, we do not see how plaintiff was
prejudiced by the trial justice exalting form over
substance during Fornia’s testimony. While we note
that there were many objections as to the form of
questions and as to evidentiary foundation during trial,
it did not appear that Fornia’s testimony was
substantively limited in any significant way. Thus, we
find no abuse of discretion in the trial justice’s handling
of the plaintiff’s expert at trial, or in her analysis of his
testimony.
C
Takings Clause
One month prior to trial, defendants filed a motion
for summary judgment on plaintiff’s Takings Clause
claim. In support of their motion, defendants argued
that plaintiff’s members did not have a
“constitutionally protected property interest in a
lifetime, uninterrupted three-percent COLA.” The
defendants further argued that, even if plaintiff’s
members had a constitutionally-protected interest, the
2013 ordinances temporarily suspending their annual
COLA did not constitute a taking. In its objection to the
motion, plaintiff asserted that issues of material fact
precluded summary disposition as to this particular
claim. The trial justice issued a decision from the bench
following a hearing, concluding that “a COLA is a
vested benefit” and therefore was a property right for

App. 35
the purpose of the Takings Clause. Ultimately,
however, the trial justice found that “the changes to the
plaintiff’s COLA benefits do not constitute an illegal
taking[,]” and she granted defendants’ motion for
summary judgment.10
On appeal, plaintiff contends that the trial justice
erred in ruling that no unconstitutional taking
occurred. The plaintiff argues that the trial justice
improperly treated the COLA benefits as “unearned
future compensation, or some type of state-created
entitlement” and further incorrectly analyzed the issue
as a regulatory taking as opposed to a physical taking.
The plaintiff also argues that genuine issues of
material fact as to the City’s subjective intent and the
ordinances’ impact, necessity, and superfluity should
have precluded the entry of summary judgment.
The defendants counter that there was no genuine
issue of material fact that the 2013 ordinances “were
prospective, temporary, impaired only a portion of the
benefits provided under the collective bargaining
agreements, and were part of a larger public program
seeking to stabilize the City’s finances,” and thus the
trial justice did not err in granting summary judgment.
Additionally, defendants argue that plaintiff did not
demonstrate a disputed material fact with respect to
10

In its brief to this Court, plaintiff asserts that the trial justice
decided defendants’ motion for summary judgment without having
received plaintiff’s objection to the motion. However, we find this
contention meritless. Immediately after stating that the court did
not have the objection, the trial justice went on to say: “Wait a
minute. I do have it. Yes. It was filed on Friday. Yes. We do have
that.”

App. 36
the City’s
ordinances.

legislative

findings

supporting

the

It is well settled that “[t]his Court will review the
grant of a motion for summary judgment de novo,
employing the same standards and rules used by the
hearing justice.” Cancel v. City of Providence, 187 A.3d
347, 349 (R.I. 2018) (quoting Newstone Development,
LLC v. East Pacific, LLC, 140A.3d 100, 103 (R.I. 2016)).
Furthermore, the trial court’s decision will be affirmed
“only if, after reviewing the admissible evidence in the
light most favorable to the nonmoving party, we
conclude that no genuine issue of material fact exists
and that the moving party is entitled to judgment as a
matter of law.” Id. at 350 (quoting Newstone
Development, LLC, 140 A.3d at 103). In a motion for
summary judgment, “the nonmoving party bears the
burden of proving by competent evidence the existence
of a disputed issue of material fact and cannot rest
upon mere allegations or denials in the pleadings, mere
conclusions or mere legal opinions.” Id. (quoting
Newstone Development, LLC, 140 A.3d at 103).
The Takings Clauses of the United States and
Rhode Island Constitutions provide that a government
may not take private property for public use “without
just compensation.”11 U.S. Const. Amend. V; R.I. Const.
art. 1, § 16. The first step in the analysis of a takings
claim is to determine whether a recognizable property
11

The Fifth Amendment to the United States Constitution reads,
in part: “[N]or shall private property be taken for public use,
without just compensation.” Similarly, article 1, section 16 of the
Rhode Island Constitution states, in part: “Private property shall
not be taken for public uses, without just compensation.”

App. 37
right is at stake. See Parella v. Retirement Board of
Rhode Island Employees’ Retirement System, 173 F.3d
46, 58 (1st Cir. 1999). “Because the Constitution
protects rather than creates property interests, the
existence of a property interest is determined by
reference to ‘existing rules or understandings that stem
from an independent source such as state law.’”
Phillips v. Washington Legal Foundation, 524 U.S. 156,
164 (1998) (quoting Board of Regents of State Colleges
v. Roth, 408 U.S. 564, 577 (1972)).
To answer this threshold question, the trial justice
looked to this Court’s decision in Arena v. City of
Providence, 919 A.2d 379 (R.I. 2007), which analyzed
whether a COLA benefit for pensioners in the City of
Providence was gratuitous or vested. Arena, 919 A.2d
at 393. We held that, “in Rhode Island, pension benefits
vest once an employee honorably and faithfully meets
the applicable pension statute’s requirements.” Id. For
this determination, a court “must look to the applicable
pension ordinance.” Id. In the case at bar, the trial
justice found that the “pervasive” and specific “lifetime
language” in the 2013 ordinances supported the
conclusion that the COLA was a vested benefit for
plaintiff’s members. Neither party challenges the trial
justice’s decision in this respect. Thus, for the purposes
of our Takings Clause analysis, we assume, without
deciding, that plaintiff’s members have a protected
property interest in future COLA payments.
According to plaintiff, the trial justice erred in
analyzing the COLA suspension as a regulatory taking
as opposed to a physical taking. Both this Court and
the United States Supreme Court have distinguished

App. 38
between physical and regulatory takings. See
Tahoe-Sierra Preservation Council, Inc. v. Tahoe
Regional Planning Agency, 535 U.S. 302, 321 (2002);
Brunelle v. Town of South Kingstown, 700 A.2d 1075,
1081-82 (R.I. 1997). “Physical takings (or physical
invasion or appropriation cases) occur when the
government physically takes possession of an interest
in property for some public purpose.” Buffalo Teachers
Federation, 464 F.3d at 374. Physical takings “are
takings per se and always necessitate compensation.”
Brunelle, 700 A.2d at 1081.
In contrast, “[a] regulatory taking transpires when
some significant restriction is placed upon an owner’s
use of his property for which ‘justice and fairness’
require that compensation be given.”12 Philip Morris,
Incorporated v. Reilly, 312 F.3d 24, 33 (1st Cir. 2002).
“Regulatory takings are further subdivided into
categorical and non-categorical takings.” Sherman v.
Town of Chester, 752 F.3d 554, 564 (2d Cir. 2014)
(quoting Huntleigh USA Corp. v. United States, 525
F.3d 1370, 1378 n.2 (Fed. Cir. 2008)). “‘Anything less
than a complete elimination of value, or a total loss,’ is
a non-categorical taking, which is analyzed under the
framework created in” Penn Central Transportation
Company v. City of New York, 438 U.S. 104 (1978). Id.
12

While we have not addressed a regulatory taking in the context
of contract rights, this Court has defined a “regulatory taking” in
the context of land use as that which “result[s] from ‘a radical
curtailment of a landowner’s freedom to make use of his or her
land; that is, by regulatory action which is neither a physical
invasion nor a physical restraint.’” Alegria v. Keeney, 687 A.2d
1249, 1252 (R.I. 1997) (quoting 26 Am. Jur. 2d Eminent Domain
§ 10 at 453 (1996)).

App. 39
(quoting Tahoe-Sierra Preservation Council, Inc., 535
U.S. at 330). In Penn Central, the United States
Supreme Court listed three factors it considered of
“particular significance”in the regulatory taking
analysis: “[t]he economic impact of the regulation on
the claimant”; (2) “the extent to which the regulation
has interfered with distinct investment-backed
expectations”; and (3) “the character of the
governmental action.” Penn Central, 438 U.S. at 124.
As a threshold matter, we agree with the trial
justice that the 2013 ordinances fall under the
regulatory takings framework. The trial justice aptly
reasoned that “the City’s ordinances do not present the
classic taking in which a government directly
appropriates private property for its own use. * * *
Rather, the interference with the plaintiffs’ COLA
benefits ‘arises from a public program adjusting the
benefits and burdens of economic life to promote the
common good.’” (Quoting Buffalo Teachers Federation,
484 F.3d at 374.) See Connolly v. Pension Benefit
Guaranty Corporation, 475 U.S. 211, 225 (1986)
(analyzing a takings claim involving contract rights
under the Penn Central framework). Because the 2013
ordinances apply only temporarily and prospectively to
contract rights, the City did not physically take back a
payment already made to retirees to appropriate the
money for its own use. Thus, we will proceed to
consider this Takings Clause claim under the Penn
Central regulatory takings framework.
The crux of the regulatory analysis focuses on
whether a regulation of a property right “goes too far[.]”
Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 537 (2005)

App. 40
(quoting Pennsylvania Coal Co. v. Mahon, 260 U.S.
393, 415 (1922)). The United States Supreme Court
cautioned, however, that “we must remain cognizant
that ‘government regulation—by definition—involves
the adjustment of rights for the public good,’” id. at 538
(quoting Andrus v. Allard, 444 U.S. 51, 65 (1979)), and
that: “Government hardly could go on if to some extent
values incident to property could not be diminished
without paying for every such change in the general
law[.]” Id. (quoting Mahon, 260 U.S. at 413); see also
Connolly, 475 U.S. at 223 (“Given the propriety of the
governmental power to regulate, it cannot be said that
the Takings Clause is violated whenever legislation
requires one person to use his or her assets for the
benefit of another.”).
First, as to the economic impact and interference
with investment-backed expectations, we recognize
that the 2013 ordinances had a financial impact on
plaintiff’s members. Indeed, the trial justice found, as
part of her Contract Clause analysis, and we agree,
that the cumulative impact of the COLA suspension on
CPRAC’s members was significant. However, critical to
this analysis is that the suspension of COLA benefits
is “temporary and operates only during a control
period.” Buffalo Teachers Federation, 464 F.3d at 375.
Furthermore, the COLA suspension impacts only part
of the total pension benefits received; it does not take
away the base pension payments or any other
retirement benefits. See id. (“[T]his is not a case in
which a law abrogates an entire contract.”). We agree
with the trial justice that these facts are not disputed.

App. 41
Additionally, the government action was focused on
future benefits and did not affect any COLA payments
made prior to its enactment. The City did not
“physically invade or permanently appropriate any of
the [retirees’] assets for its own use.” Connolly, 475
U.S. at 225. Moreover, the government action was
motivated by a critical need to improve the health of
the City’s pension system. Indeed, the legislative
findings codified in the 2013 ordinances state that:
“It is in the best interests of residents,
individual employees, retirees and
beneficiaries of the City of Cranston to
maintain a viable and sustainable local
police and fire pension plan and to
develop a reasonable alternative funding
improvement plan to emerge from ‘critical
status’ as required by Rhode Island
General Laws section 45-65-6.”
Providence Code of Ordinances § 2013-6
(Apr. 23, 2013).
Thus, given that it is undisputed that the 2013
ordinances effectuate only a limited suspension of a
small part of the overall pension retirement benefits,
and that the 2013 ordinances were prospective, we
agree with the trial justice that defendants were
entitled to summary judgment on plaintiff’s Takings
Clause claim.13
13

We further note that we find no fault in the trial justice’s use of
the legislative findings to support her decision. Legislative findings
as to the purpose of legislation are “entitled to great deference by
the judiciary.” In re Advisory Opinion to Governor, 113 R.I. 586,
593, 324 A.2d 641, 646 (1974). Therefore, we are of the opinion that

App. 42
D
Res Judicata & Estoppel
Prior to trial, plaintiff moved for summary
judgment on the count of its complaint seeking a
declaratory judgment that the 2013 ordinances were
void ab initio because prior litigation challenging
changes made to retiree pension benefits through
ordinances enacted by the City in 2003 precluded
future legislative changes to pensions made outside the
collective bargaining process.14 The plaintiff in the
instant case alleged in its complaint—and argued in its
summary judgment motion—that the Superior Court’s
decision in the prior litigation (the 2005 decision)
meant that the 2013 ordinances were void from their
inception based on the doctrine of res judicata. The
defendants filed a cross-motion for summary judgment,
arguing that the 2005 decision was not binding on the
the trial justice did not err by according these findings some
deference.
14

In 2003, the City repealed ordinances that had provided pension
benefits for retired police officers and retired fire fighters. City of
Cranston v. International Brotherhood of Police Officers, Local 301,
Nos. P.M. 04-1043, P.M. 04-1646, 2005 WL 375087, at *1 (R.I.
Super. Ct. Feb. 11, 2005). The two unions to which the retirees had
belonged challenged the repeal of the ordinances as a breach of the
respective CBAs. Id. Arbitration resulted in decisions favorable to
the unions, and the City sought to vacate the arbitration awards
on the basis that the arbitrators had strayed from the relevant
language in the CBAs and that the unions did not have standing
to negotiate on behalf of the retirees after they had retired. Id. at
*6, *7. The Superior Court upheld the arbitration awards, deciding
that “any modification of retirees’ benefits must be accomplished
through collective bargaining.” Id. at *10.

App. 43
trial justice and that res judicata did not apply to the
present dispute. After the hearing on these
cross-motions, the trial justice concluded that res
judicata did not apply to the enactment of the 2013
ordinances, denied plaintiff’s motion, and granted
defendants’ cross-motion for summary judgment.
Before us, plaintiff switches the focus of its
preclusion claim, arguing that collateral estoppel bars
defendants from defending the 2013 ordinances
because the 2005 decision clearly stated that
defendants could modify retirees’ benefits only through
a collective bargaining process. The plaintiff contends
that the trial justice erred by allowing defendants to
relitigate the issue of whether pension benefits could be
changed through ordinances rather than through a
collective bargaining process. The plaintiff also asserts
that there are no meaningful distinctions between the
instant litigation and the prior litigation. The
defendants, for their part, argue that the issues are
different in the instant litigation as compared to the
prior litigation because the two sets of ordinances do
not change the pension benefits in the same way and
the cases were litigated on different legal principles.
The defendants also assert that the 2005 decision
cannot be applied to prospectively restrain the City
from exercising its police powers.
As we have stated earlier in this opinion, we review
an appeal from cross-motions for summary judgment
de novo. See Cancel, 187 A.3d at 349. We begin and end
our discussion of this issue by concluding that
plaintiff’s collateral estoppel argument is not properly
before us. The plaintiff’s claim in its complaint, as well

App. 44
as its argument in connection with its motion for
summary judgment, focused exclusively on res judicata,
and the trial justice resolved the parties’ cross-motions
after considering the arguments set forth regarding res
judicata. There is no indication that the trial justice
also considered the doctrine of collateral estoppel. The
plaintiff mentions collateral estoppel for the first time
before us, on appeal. “[A]n issue that has not been
raised and articulated previously at [the] trial [court]
is not properly preserved for appellate review[.]”
Pineda v. Chase Bank USA, N.A., 186 A.3d 1054, 1060
(R.I. 2018) (quoting In re Shy C., 126 A.3d 433, 435
(R.I. 2015)).
Collateral estoppel, or issue preclusion, is, of course,
related to res judicata, or claim preclusion, but its focus
is different. As we have previously described, “[t]he
doctrine of res judicata relates to the effect of a final
judgment between the parties to an action and those in
privity with those parties.” E.W. Audet & Sons, Inc. v.
Fireman’s Fund Insurance Company of Newark, New
Jersey, 635 A.2d 1181, 1186 (R.I. 1994). “Usually
asserted in a subsequent action based upon the same
claim or demand, the doctrine precludes the relitigation
of all the issues that were tried or might have been
tried in the original suit.” Id. Related, but
distinguishable, “[t]he doctrine of collateral estoppel
makes conclusive in a later action on a different claim
the determination of issues that were actually litigated
in a prior action.” Id. “[C]ollateral estoppel ‘means
simply that when an issue of ultimate fact has once
been determined by a valid and final judgment, that
issue cannot again be litigated between the same

App. 45
parties in any future lawsuit.’” Id. (quoting Ashe v.
Swenson, 397 U.S. 436, 443 (1970)).
While the elements of the two doctrines are
basically the same, the differing focuses of each means
that the consideration of arguments related to one does
not mean that both doctrines have been considered.
Because plaintiff did not raise the doctrine of collateral
estoppel before the trial justice and does not argue the
principles of res judicata before us on appeal, plaintiff’s
arguments challenging the trial justice’s decision on
the parties’ cross-motions for summary judgment on
this claim are not properly before us. Accordingly,
judgment as a matter of law in favor of defendants on
plaintiff’s res judicata claim is affirmed.15
15

Even if collateral estoppel had been alleged in plaintiff’s
complaint and argued in plaintiff’s motion for summary judgment,
defendants would still be entitled to judgment as a matter of law
on this claim because they did not have an opportunity to actually
litigate their ability to change their contractual obligations to
police and firefighter retirees through the legislative process. See
Allen v. McCurry, 449 U.S. 90, 94-95 (1980) (recognizing that “a
litigant who was not a party to a * * * case [may] use collateral
estoppel ‘offensively’ in a new * * * suit against the party who lost
on the decided issue in the first case” (quoting Parklane Hosiery
Co. v. Shore, 439 U.S. 322, 326 (1979)), and stating: “But one
general limitation the [United States Supreme] Court has
repeatedly recognized is that the concept of collateral estoppel
cannot apply when the party against whom the earlier decision is
asserted did not have a ‘full and fair opportunity’ to litigate that
issue in the earlier case” (quoting Montana v. United States, 440
U.S. 147, 153 (1979))).
As mentioned supra, the procedural posture of the prior
litigation and the 2005 decision was a motion to vacate an
arbitrator’s awards. International Brotherhood of Police Officers,
Local 301, 2005 WL 375087, at *1. The Superior Court’s standard

App. 46
E
Open Meetings Act
Prior to trial, plaintiff also sought summary
judgment on its claim that the Cranston City Council
violated the OMA when it introduced what would
become the 2013 ordinances at its March 25, 2013
meeting and referred the proposed legislative changes
to the finance committee without first placing the
proposed changes to the ordinances on the agenda that
had been posted prior to that meeting. The plaintiff
alleged—and provided uncontroverted evidence—that
the Attorney General’s office had concluded that the
Cranston City Council had indeed violated the OMA by
entertaining new business during the March 25, 2013
meeting, when the agenda had not listed any items
under the “new business” heading. The defendants filed
a cross-motion for summary judgment, arguing that

of review on a motion to vacate an arbitration award is extremely
deferential; indeed, the 2005 decision is clear that the court was
“constrained to find that the arbitrators’ decisions * * * [we]re
rational and dr[e]w their essence from the agreements between the
parties.” Id. at *10 (emphasis added). Moreover, the earlier
litigation focused on the union-plaintiffs’ standing to negotiate on
behalf of the retirees as well as the defendants’ obligation to honor
their contractual obligations to the retirees and the union
members under the CBAs. Id. at *8-10. While the City and its
officials were defendants in both causes of action, they did not have
an opportunity to defend their legislative actions through the
litigation process and most certainly did not have an opportunity
to defend against constitutional claims such as those asserted by
plaintiff in the instant litigation. The 2005 decision indicates that
the grievances at issue in that prior litigation concerned claims for
breach of contract only. Id. at *3, *5.

App. 47
plaintiff did not have statutory standing to bring the
OMA violation claim in Superior Court. The defendants
also argued that the proposed changes to the
ordinances were not discussed or enacted at the
March 25 meeting, and therefore there was no harm
from failing to include this item on the printed agenda.
The trial justice heard oral argument on this issue
at the summary judgment hearing on November 2,
2015, and rendered a decision from the bench on
November 6, 2015. The trial justice found that plaintiff
lacked statutory standing to file a complaint in
Superior Court alleging a violation of OMA because the
statute explicitly limits the right to file a complaint in
Superior Court to “individuals,” and plaintiff is a
group. Accordingly, the trial justice denied plaintiff’s
motion for summary judgment and granted defendants’
cross-motion for summary judgment.
Before us, plaintiff argues that the trial justice
erred because the language of § 42-46-8 and this
Court’s previous interpretation of the statute provides
plaintiff, as an organization, with the requisite
statutory standing to file a complaint in Superior Court
alleging an OMA violation.16 The defendants argue that

16

The plaintiff also argues that defendants waived the standing
argument because they failed to timely raise the issue of standing
before the trial justice in that they did not include lack of standing
to claim an OMA violation in their initial motion to dismiss. A
review of the cross-motions for summary judgment, the
memoranda submitted in support thereof, the transcript of the
hearing on the cross-motions, and the trial justice’s bench decision
reveals that it is, in fact, plaintiff that has waived its argument:
plaintiff did not raise this particular waiver argument before the

App. 48
§ 42-46-8 unambiguously provides exclusive statutory
standing to file an OMA violation claim in Superior
Court to individuals.
“This Court reviews questions of statutory
construction and interpretation de novo.” South County
Post & Beam, Inc., 116 A.3d at 214-15. “When
construing a statute, our ultimate goal is to give effect
to the purpose of the act as intended by the
Legislature.” Id. at 215 (quoting Mendes v. Factor, 41
A.3d 994, 1002 (R.I. 2012)). “When the statutory
language is clear and unambiguous, we give the words
their plain and ordinary meaning.” Id. (quoting
National Refrigeration, Inc. v. Capital Properties, Inc.,
88 A.3d 1150, 1156 (R.I. 2014)).
We have previously noted that “[a] party acquires
standing either by suffering an injury in fact or as the
beneficiary of express statutory authority granting
standing.” Tanner v. Town Council of Town of East
Greenwich, 880 A.2d 784, 792 (R.I. 2005). “In statutory
standing cases, such as this, the analysis consists of a
straight statutory construction of the relevant statute
to determine upon whom the Legislature conferred
standing and whether the claimant in question falls in
that category.” Id. at 792 n.6 (citing Linda R.S. v.
Richard D., 410 U.S. 614, 617 n.3 (1973)). “In
conducting this analysis, we do not look at the
trial justice, and therefore we will not consider it in the first
instance. See Pineda v. Chase Bank USA, N.A., 186 A.3d 1054,
1060 (R.I. 2018) (“[A]n issue that has not been raised and
articulated previously at [the] trial [court] is not properly
preserved for appellate review.”) (quoting In re Shy C., 126 A.3d
433, 435 (R.I. 2015)).

App. 49
eventuality of success on the merits but, rather, at
whether a party is arguably within the zone of
interests to be protected or regulated by the statute in
question.” Id. (citing Association of Data Processing
Service Organizations, Inc. Camp, 397 U.S. 150, 153-54
(1970)).
We have noted on more than one occasion that the
OMA bestows broad statutory standing. See Tanner,
880 A.2d at 792; Solas v. Emergency Hiring Council of
State, 774 A.2d 820, 823 (R.I. 2001). The OMA is in
place because “[i]t is essential to the maintenance of a
democratic society that public business be performed in
an open and public manner and that the citizens be
advised of and aware of the performance of public
officials and the deliberations and decisions that go
into the making of public policy.” Section 42-46-1.
Indeed, we have stated:
“[T]he purpose of the OMA is to protect
the public’s right to participate in the
political process, and not an individual’s
property or contract rights. Thus, the
statutory requirement that an individual
be ‘aggrieved’ by a violation of the OMA
does not require that a plaintiff allege
some harm to his or her economic or
property interests, but rather that his or
her right to be ‘advised of and aware of’
the performance, deliberations, and
decisions of government entities was, or
may be, violated.” Tanner, 880 A.2d at
793 (quoting §§ 42-46-1 and 42-46-8).

App. 50
The OMA provides in § 42-46-8 for the “[r]emedies
available to aggrieved persons or entities.” To
determine who has standing to pursue these remedies,
we need to consider two paragraphs within § 42-46-8.
Paragraph (a) provides that:
“Any citizen or entity of the state who is
aggrieved as a result of violations of the
provisions of this chapter may file a
complaint with the attorney general. The
attorney general shall investigate the
complaint and if the attorney general
determines that the allegations of the
complaint are meritorious he or she may
file a complaint on behalf of the
complainant in the superior court against
the public body.” Section 42-46-8(a).
Paragraph (c) provides that:
“Nothing within this section shall prohibit
any individual from retaining private
counsel for the purpose of filing a
complaint in the superior court within the
time specified by this section against the
public body which has allegedly violated
the provisions of this chapter; provided,
however, that if the individual has first
filed a complaint with the attorney
general pursuant to this section, and the
attorney general declines to take legal
action, the individual may file suit in
superior court within ninety (90) days of
the attorney general’s closing of the
complaint or within one hundred eighty

App. 51
days of the alleged violation, whichever
occurs later.” Section 42-46-8(c).
In our view, § 42-46-8 is clear and unambiguous.
Individuals and entities have standing to file a
complaint with the Attorney General, and the Attorney
General has the discretion to file a complaint on behalf
of the complainant (individual or entity) in the
Superior Court. Section 42-46-8(a). Individuals have
the additional option to skip the Attorney General’s
office and file a complaint directly in Superior Court.
Section 42-46-8(c). The trial justice read paragraph (c)
as limiting the grant of statutory standing to
individuals; according to the trial justice, entities such
as plaintiff, a nonprofit corporation, do not have
standing to file a claim in Superior Court. We agree.
The plain language of § 42-46-8(c) includes “the
individual” only and is silent as to entities of the state.
We therefore conclude that plaintiff, as a nonprofit
corporation, does not have standing to pursue a claim
in Superior Court for violation of the OMA.
Accordingly, judgment as a matter of law in favor of
defendants on plaintiff’s OMA violation claim is
affirmed.
F
Legislative Immunity
The plaintiff also challenges both of the trial
justice’s pretrial rulings that were based on the
doctrine of legislative immunity: (1) the grant of
defendants’ motion for a protective order concerning
the deposition of defendant Lanni, a member of the
Cranston City Council; and (2) the grant of defendants’

App. 52
motion for summary judgment as to the Non-City
defendants.
The doctrine of legislative immunity extends from
the Speech or Debate Clause of the United States
Constitution and the similar “speech in debate” clause
of the Rhode Island Constitution. See U.S. Const., art.
I, § 6, cl. 1; R.I. Const., art. 6, § 5; see also United States
v. Brewster, 408 U.S. 501, 507 (1972); Holmes v.
Farmer, 475 A.2d 976, 983 (R.I. 1984). We have
previously held that “[t]he speech in debate clause
contained in Rhode Island’s Constitution confers a
privilege on legislators from inquiry into their
legislative acts or into the motivation for actual
performance of legislative acts that are clearly part of
the legislative process.” Holmes, 475 A.2d at 983.
Further, “[i]n order fully to effectuate the purpose and
design of the speech in debate clause, it must be
construed as an immunity from suit as well as a
testimonial privilege.” Id. at 984. This Court has made
clear that the privilege extends to municipal officials.
Maynard v. Beck, 741 A.2d 866, 872 (R.I. 1999).
However, while the privilege protects legislators from
being “questioned by any other branch of government
for their acts in carrying out their legislative duties
relating to the legislative process[,]” its scope “does not
extend to actions by legislators outside the legislative
process.” Holmes, 475 A.2d at 983.
1
Lanni Protective Order
In the course of discovery, defendants filed a motion
for a protective order to prevent plaintiff from deposing

App. 53
defendant Lanni. The defendants argued that Lanni
was protected from deposition by the privilege of
legislative immunity, and that his testimony would not
be relevant to the central issue of the case. The plaintiff
objected to defendants’ motion, arguing that the topics
plaintiff sought to cover in Lanni’s deposition were
outside the scope of legislative immunity, including
“information concerning the various police and
firefighter Collective Bargaining Agreements, the
general financial condition of the City, the actions of
actuarial consultants, City spending, and budget * * *.”
The plaintiff also argued that it was entitled to ask
Lanni about subjects listed as accomplishments and
future goals on his campaign website.17
The trial justice granted defendants’ motion on the
basis that Lanni enjoyed the privilege of legislative
immunity, and that the topics plaintiff sought to
question Lanni about were related to his position as a
legislator. Specifically, the trial justice held that:
“Much of what [CPRAC] requests—information
relating to police and firefighter Collective Bargaining
Agreements, financial conditions and spending of the
City, and actuarial reports—can be easily obtained.”
The trial justice also found that the subjects related to
17

The subjects found on Lanni’s website, as outlined in plaintiff’s
objection to defendants’ motion, were: “Tax Freeze 2005-2006”;
“Tax Decrease 2006-2007”; “Tax Freeze 2008-2009”; “Reduce the
City’s $300,000,000 unfunded pension liability”; “Improve the
City’s Bond Rating”; “Protect the ‘Rainy Day Fund’”; “Achieve Tax
Stability”; and “Control ‘Runaway’ city spending.” Lanni’s website,
formerly located at http://www.johnlanniforcranston.com, is no
longer active. Accordingly, we rely on plaintiff’s filings and the
Superior Court’s September 15, 2015 decision for this information.

App. 54
statements on Lanni’s campaign website were “less
clearly within legislative immunity[,]” but that the
privilege applied because “the information from that
website is, in substance, material relating to Mr.
Lanni’s legislative duties.”
On appeal, plaintiff argues that the trial justice
erred in granting defendants’ motion because the
protective order was excessive in scope and prevented
plaintiff from deposing Lanni on subjects that should
be considered outside the protection of legislative
immunity. The defendants counter that plaintiff has
failed to identify a subject of inquiry that would not
implicate legislative immunity, and therefore the trial
justice did not err.
It is well settled that, “‘in granting or denying
discovery motions, a Superior Court justice has broad
discretion,’ which ‘this Court will not disturb save for
an abuse of that discretion.’” State v. Lead Industries
Association, Inc., 64 A.3d 1183, 1191 (R.I. 2013)
(brackets and deletion omitted) (quoting Colvin v.
Lekas, 731 A.2d 718, 720 (R.I. 1999)).
We see no abuse of discretion in the trial justice’s
analysis. We recognize that legislative immunity “does
not protect the political activities of the legislators”;
however, “[i]nquiry by the court into the actions or
motivations of the legislators in proposing, passing, or
voting upon a particular piece of legislation * * * falls
clearly within the most basic elements of legislative
privilege.” Holmes, 475 A.2d at 983, 984. The
information which plaintiff sought to obtain would
have been disclosed to Lanni by virtue of his position as
city council member and president; and, more

App. 55
importantly, it formed part of the consideration and
approval of the 2013 ordinances. Thus, we are of the
opinion that the trial justice did not abuse her
discretion in granting defendants’ motion for protective
order on the basis of legislative immunity.
2
Non-City Defendants
One month before trial, the Non-City defendants
filed a motion for summary judgment, arguing that the
allegations in the complaint against them were
“premised on their legislative acts,” and thus they
enjoyed the privilege of legislative immunity related to
those acts. The plaintiff objected to the motion, arguing
that the Non-City defendants’ acts were administrative
in nature, and not legislative. The trial justice rejected
plaintiff’s argument that the acts were administrative
in nature; instead, she found that “[i]t is hard for this
[c]ourt to imagine something more clearly legislative in
nature than the passage of an ordinance.” Moreover,
the trial justice ultimately found that there was “no
genuine issue of material fact that the very core of the
plaintiff’s claims against the [N]on-City defendants is
premised on their performance of legislative acts[,]”
and thus, based on the doctrine of legislative immunity,
the trial justice held that the Non-City defendants were
entitled to summary judgment in their favor.
Before us, plaintiff reiterates the argument that the
Non-City defendants’ roles in the enactment of the
2013 ordinances were “administrative rather than
legislative” in nature, and, thus, they did not enjoy the

App. 56
privilege of legislative immunity.18 As we have stated,
we review the grant of a motion for summary judgment
de novo. Cancel, 187 A.3d at 349.
“To determine whether challenged conduct is
legislative * * * a court must consider the nature of the
acts in question, rather than the motive or intent of the
official performing them.” Maynard, 741 A.2d at 870.
According to the United States Supreme Court, some
“quintessentially legislative” actions include the
“introduction of a budget and signing into law an
ordinance[,]” as well as other “integral steps in the
legislative process.” Bogan v. Scott-Harris, 523 U.S. 44,
55 (1998). While not all actions entitle a government
official to the protection of legislative immunity, it is
our opinion that the actions by the Non-City
defendants here were certainly “legislative in
character[.]” See Maynard, 741 A.2d at 870. It is clear
that plaintiff’s claims stem from the Non-City

18

The plaintiff also argues that the motion for summary judgment
“should have been captioned as a Rule 12 motion [because] no
matters were in consideration other than those that were in the
pleadings[,]” and, if considered under that rule, defendants’
assertion of legislative immunity for the Non-City defendants
should have been deemed to have been waived because it was
raised “on the eve of trial[.]” As defendants contend, plaintiff’s
argument as to Rule 12 is waived because it was not raised below.
“[I]n accordance with this Court’s longstanding ‘raise-or-waive’
rule, if an issue was not properly asserted, and thereby preserved,
in the lower tribunals, this Court will not consider the issue on
appeal.” Adams v. Santander Bank, N.A., 183 A.3d 544, 548 (R.I.
2018) (quoting Miller v. Wells Fargo Bank, N.A., 160 A.3d 975, 980
(R.I. 2017)). The plaintiff failed to assert this contention in its
papers or at the hearing below. Thus, we decline to address this
argument.

App. 57
defendants’ participation in the legislative process, as
plaintiff does not allege wrongful actions of the
Non-City defendants beyond the enactment of the 2013
ordinances. Thus, the Non-City defendants were
entitled to summary judgment.
G
Amendment to Answer
In November 2015, three days before the trial
started, the City filed a motion to amend its answer to
clarify its denial of certain allegations in the complaint
and to conform the pleading to the evidence. The
proposed amended answer included an additional
affirmative defense: that the City exercised its police
power when it enacted the 2013 ordinances. The
plaintiff objected to the amendment on the basis that
it was untimely and prejudicial because plaintiff would
not have time to conduct additional discovery about the
new affirmative defense prior to trial. The trial justice
held a brief hearing on the City’s motion on the
morning of the first day of trial. At the hearing, the
City argued that the exercise of its police power had
been a dominant theme throughout the pretrial
proceedings and that formally adding this affirmative
defense to its answer merely ensured that the pleading
conformed to the evidence. The trial justice granted the
motion to amend, concluding that plaintiff had not
demonstrated any prejudice that would be caused by
the proposed amendments to the answer because the
issue of the City’s police power had been at the
forefront since the beginning of the case.

App. 58
Before us, plaintiff argues that the trial justice
abused her discretion when she allowed the City to
amend its answer on the first day of trial because
plaintiff was “extreme[ly] prejudice[d]” by the surprise
of the additional affirmative defense and had no time
to conduct discovery on this new defense. The plaintiff
also faults the trial justice for not asking the City why
the amendment was requested so close to the beginning
of the trial. The City responds that plaintiff has not
adequately explained how it was prejudiced, and
therefore, if there was any error in granting the motion
to amend, the error was harmless. The City also
reasserts that the exercise of police power is
inextricably linked to plaintiff’s Contract Clause claim,
and therefore there was no surprise that the City
added this to its answer.
Rule 15 of the Superior Court Rules of Civil
Procedure allows litigants to request permission from
the trial court to file an amended pleading and provides
that such permission “shall be freely given when justice
so requires.” This Court “accord[s] great deference to
the decision by a hearing justice to grant or deny a
motion to amend and will not disturb his [or her]
decision unless he [or she] abused his [or her]
discretion.” CACH, LLC v. Potter, 154 A.3d 939, 942
(R.I. 2017). We have previously held that amendments
to pleadings should be allowed unless the nonmoving
party can show the amendment will result in “extreme
prejudice” to them, and that “mere delay is not enough
to deny the amendment[,]” id. (internal citations
omitted), unless the trial justice “find[s] that such
delay creates substantial prejudice to the opposing
party.” Lomastro v. Iacovelli, 56 A.3d 92, 96 (R.I. 2012)

App. 59
(quoting Wachsberger v. Pepper, 583 A.2d 77, 79 (R.I.
1990)).
The plaintiff was given an opportunity to explain to
the trial justice how it would be prejudiced by the
addition of the affirmative defense. Other than stating
that it had no time to conduct additional discovery,
plaintiff did not explain how it was prejudiced or what
additional discovery it would have conducted had the
amended answer been filed sooner. In our opinion,
plaintiff did not demonstrate either substantial
prejudice by the City’s delay in requesting permission
to amend the answer or extreme prejudice by allowing
the amendment. We conclude, therefore, that the trial
justice did not abuse her discretion when she granted
the City’s motion to amend its answer, and we affirm
this order.
H
Bill of Costs/Motion to Stay Consideration of
Bill of Costs
On August 5, 2016, one day after the final judgment
entered, the City filed a bill of costs, requesting
$14,708.01. These costs included fees for acquiring
deposition and trial transcripts, printing exhibits, and
scanning and making copies of documents. The plaintiff
objected to the bill of costs, arguing that the request
was excessive because some of the transcripts were
generated from witness depositions that were not used
during the trial. The plaintiff also filed a motion to stay
consideration of the bill of costs until after the appeal
was decided by this Court, arguing that the City would
not be entitled to these costs if plaintiff prevailed on

App. 60
any of the issues raised in its appeal. The City objected
to the motion to stay, arguing that plaintiff had not
established that it was entitled to the stay pending
appeal. The City also argued that, because an award of
costs generates an appealable order, principles of
judicial economy dictated that the bill of costs should
be decided immediately.
The trial justice held a hearing on October 13, 2016.
She summarily denied plaintiff’s motion to stay and
granted the City’s bill of costs, in part, awarding
$9,717.85. The award excluded the trial transcript
costs and half of the printing fees requested by the
City.
On appeal, plaintiff argues that the trial justice
erred by not considering its motion to stay prior to
considering the bill of costs and denying the motion to
stay without providing any reasoning to support her
decision. The plaintiff asserts, without any legal
support or discussion, that the trial justice “should
have heard CPRAC’s [m]otion to [s]tay and decided on
the merits of that motion before passing on a bill of
costs.” The plaintiff also contends that the trial justice’s
ruling deprived plaintiff of its ability to seek a stay
from this Court because the trial justice proceeded to
immediately consider and rule on the City’s request for
costs after she denied the motion to stay. With respect
to plaintiff’s motion to stay consideration of the City’s
request for costs, we hold that plaintiff has waived its
argument for failure to adequately develop it for our

App. 61
review.19 See State v. Florez, 138 A.3d 789, 798 n.10
(R.I. 2016) (“[T]his Court ‘considers an issue to be
waived when a party simply states an issue for
appellate review, without a meaningful discussion
thereof or legal briefing of the issues.’”) (brackets and
deletion omitted) (quoting Bucci v. Hurd Buick Pontiac
GMC Truck, LLC, 85 A.3d 1160, 1170 (R.I. 2014)).
With respect to the order granting in part the City’s
request for costs, plaintiff argues that the trial justice
abused her discretion by effectively penalizing plaintiff
for bringing this litigation and by awarding costs for
printing exhibits and deposition transcripts that the
City did not prove were necessary to the litigation. The
prevailing party in a civil action is entitled to recover
costs, “except where otherwise specially provided, or as
justice may require, in the discretion of the court.”
General Laws 1956 § 9-22-5; see also Super. R. Civ. P.
54(d) (“Costs (including costs on depositions as
provided for in Rule 54(e)) shall be allowed as of course
to the prevailing party as provided by statute and by
these rules unless the court otherwise specifically
directs.”). Both the statute and the court rule “endow
the trial justice with discretion in conducting a
cost-distribution analysis. ‘Discretion is not exercised
by merely granting or denying a party’s request.’” State
v. Lead Industries Association, Inc., 69 A.3d 1304, 1309
(R.I. 2013) (brackets omitted) (quoting DiRaimo v. City
of Providence, 714 A.2d 554, 557 (R.I. 1998)). “The term

19

We do, however, take the opportunity to remind plaintiff that it
could have sought a stay of the enforcement of the order granting
the costs, pursuant to Article I, Rule 8 of the Supreme Court Rules
of Appellate Procedure.

App. 62
‘discretion,’ rather, denotes action taken ‘in the light of
reason as applied to all the facts and with a view to the
rights of all the parties to the action while having
regard for what is right and equitable under the
circumstances and the law.’” Id. (quoting DiRaimo, 714
A.2d at 557).
The transcript of the hearing on the plaintiff’s
motion to stay and the City’s bill of costs shows that
the plaintiff had a full and fair opportunity to argue its
objection to the City’s request for costs. Moreover, the
trial justice asked the City several questions about the
items on the bill of costs and ultimately awarded some
of the costs requested. In our opinion, the trial justice
did not abuse her discretion in awarding the portion of
the costs requested. The order granting in part the bill
of costs and denying the plaintiff’s motion to stay is,
therefore, affirmed.
IV
Conclusion
For the foregoing reasons, we affirm the judgment
of the Superior Court in favor of the defendants as to
all counts. We also affirm the order granting the
motion for a protective order, the order granting the
City’s motion to amend the answer to the complaint,
and the order granting the City’s motion for costs and
denying the plaintiff’s motion to stay. The record shall
be remanded to the Superior Court.
Justice Robinson, concurring. It is with a
decided lack of enthusiasm and only after prolonged
research and reflection and hesitation that I concur in

App. 63
the result reached in the opinion of the Court in this
case; and I do so in a decidedly dubitante frame of
mind. While my principal hesitation about concurring
in the result in this case stems from my grave concern
with the Contracts Clause aspect of the case, I am also
deeply troubled by the Open Meetings Act issue in this
case. With respect to the Open Meetings Act, I am
particularly troubled about the result which controlling
principles of statutory interpretation require us to
reach with respect to the reach of that statutory
scheme. For the sake of clarity, I shall address those
two areas of concern separately, and I shall do so with
relative brevity.20

20

It was only after reading over and over again the trial justice’s
meticulous fact-finding and credibility assessments and after
poring over the often opaque and difficult-to-reconcile principles
set forth in the controlling precedents that I concluded that I
would be able in good conscience (albeit with much hesitation and
many reservations) to concur with the result reached by the
majority with respect to both the Contracts Clause and Open
Meetings Act issues.
As for the other issues addressed by the majority (expert
testimony; the Takings Clause; res judicata and collateral estoppel;
legislative immunity; the amendment to the answer; and the bill
of costs), I join in the opinion of the Court—although I view the bill
of costs issue to be exceedingly close.

App. 64
A
Impairing the Obligation of Contracts under
the Contracts Clause 21
I readily acknowledge the scholarly nature of the
Court’s opinion; it represents an impressively
Herculean effort to summarize the complex factual
background that the case involves.22 It also represents
an impressive effort to apply to those facts the subtle
and very nuanced principles of law that presently
prevail and by which one is required to abide in
analyzing a claim that a particular enactment is
violative of the Contracts Clause.
21

The relevant constitutional language should be borne in mind.
The stark and straightforward Contracts Clause in the United
States Constitution provides that “[n]o state shall * * * pass any
* * * Law impairing the Obligation of Contracts.” U.S. Const. Art.
I, § 10, cl. 1. The parallel Rhode Island constitutional provision is
similarly stark and straightforward: “No * * * law impairing the
obligation of contracts shall be passed.” R.I. Const. art. 1, § 12
(punctuation omitted).
22

I also acknowledge the scholarly and detail-oriented nature of
the trial justice’s rescript decision. Her careful fact-finding and
credibility assessments have made the task of this Court less
onerous—especially in view of the deferential standard of review
that is applicable with respect to same. See Lamarque v.
Centreville Savings Bank, 22 A.3d 1136, 1140 (R.I. 2011) (“When
we review the factual findings of a trial justice sitting without a
jury, we accord those findings great deference.”); see also JPL
Livery Services, Inc. v. Rhode Island Department of
Administration, 88 A.3d 1134, 1142 (R.I. 2014) (“[W]e accord great
weight to a trial justice’s determinations of credibility, which,
inherently, are the functions of the trial court and not the
functions of the appellate court.”) (internal quotation marks
omitted).

App. 65
I have concluded that the relevant precedent
compels me to concur when due weight is accorded to
the collection of unanticipated occurrences (e.g., events
such as what the trial justice refers to as “the Great
Recession” and as “two natural disasters in March of
2010”) as well as the very crucial fact that the
contractual impairment at issue is temporally limited.
But for me this case is extremely close. To my mind,
the Court’s ruling in this case is the equivalent of
standing on the banks of the Rubicon. In my heart of
hearts, I think that we, as a nation and as a state, have
strayed far from what the Contracts Clauses were
clearly meant to prohibit: i.e., any law impairing the
obligation of contracts.
My own thinking in this regard is in accord with the
historically-based approach to constitutional issues
that Justice Neil Gorsuch of the United States
Supreme Court has demonstrated in his perceptive and
eloquent dissent in the quite recent case of Sveen v.
Melin, 138 S.Ct. 1815 (2018). Sveen, 138 S.Ct. at 1826
(Gorsuch, J., dissenting); see generally Douglas W.
Kmiec & John O. McGinnis, The Contract Clause: A
Return to the Original Understanding, 14 Hastings
Const. L.Q. 525 (1987). In the portion of his dissent in
Sveen where he reminds the reader of the unequivocal
wording of the Contracts Clause in the United States
Constitution, Justice Gorsuch writes as follows in
language that I find to be particularly powerful and
thought provoking:
“The Contracts Clause categorically
prohibits states from passing ‘any * * *
Law impairing the Obligation of

App. 66
Contracts.’ Art. I, § 10, cl. 1 (emphasis
added). Of course, the framers knew how
to impose more nuanced limits on state
power. The very section of the
Constitution where the Contracts Clause
is found permits states to take otherwise
unconstitutional action when ‘absolutely
necessary,’ if ‘actually invaded,’ or ‘wit[h]
the Consent of Congress.’ Cls. 2 and 3.
But in the Contracts Clause the framers
were absolute. They took the view that
treating existing contracts as ‘inviolable’
would benefit society by ensuring that all
persons could count on the ability to
enforce promises lawfully made to
them * * *.” Sveen, 138 S.Ct. at 1826-27
(Gorsuch, J., dissenting) (emphasis in
original).
I for one yearn for the day when the courts will revert
to something substantially closer to an “absolutist”
understanding of the Contracts Clause. In the
meantime, however, I bow obediently, but
discontentedly, to the result that prevailing precedent
dictates.
B
The Open Meetings Act
I also very reluctantly concur in that portion of the
Court’s opinion that deals with the Open Meetings Act
issue. See G.L. 1956 chapter 46 of title 42. After
correctly noting that § 42-46-8(a) authorizes “[a]ny
citizen or entity of the state” to file an Open Meetings

App. 67
Act complaint with the Attorney General, the Court
goes on to point out that § 42-46-8(c) speaks exclusively
of the right of an individual (without any mention of
entities) to retain private counsel for the purpose of
filing a complaint in the Superior Court under the
Open Meetings Act. (Emphasis added.) Pursuant to our
statutory interpretation jurisprudence, the statute at
issue, which is undeniably clear and unambiguous,
must be applied as written—i.e., as not authorizing
entities to file suit under the Act. State v. Diamante, 83
A.3d 546, 548 (R.I. 2014); In re Harrison, 992 A.2d 990,
994 (R.I. 2010) (“[W]hen we examine an unambiguous
statute, there is no room for statutory construction and
we must apply the statute as written.”) (internal
quotation marks omitted); see Zambarano v. Retirement
Board of the Employees’ Retirement System of State, 61
A.3d 432, 436 (R.I. 2013) (“It is well settled that ‘the
plain statutory language’ is ‘the best indicator’ of the
General Assembly’s intent.”) (quoting McCain v. Town
of North Providence, 41 A.3d 239, 243 (R.I. 2012)); see
also Little v. Conflict of Interest Commission, 121 R.I.
232, 237, 397 A.2d 884, 887 (1979) (“It is a primary
canon of statutory construction that statutory intent is
to be found in the words of a statute, if they are free
from ambiguity and express a reasonable meaning.”).
In the end, I have reluctantly concluded that the
statutory language as it presently exists represents a
deliberate legislative choice. See Powers v. Warwick
Public Schools, 204 A.3d 1078, 1088 (R.I. 2019) (“[I]t is
not the function of this Court to act as a super
legislative body and rewrite or amend statutes already
enacted by the General Assembly.”) (internal quotation
marks omitted); Olamuyiwa v. Zebra Atlantek, Inc., 45

App. 68
A.3d 527, 536 (R.I. 2012) (“It is not our role to contort
the language of an unambiguous statute in order to
include within its reach a situation which it plainly
does not encompass.”); Little, 121 R.I. at 237, 397 A.2d
at 887 (“[W]e may not alter the meaning to make [a
statute] applicable and promote what we think a more
desirable result.”). I must respectfully state, however,
that I have great difficulty in conceiving of a sound
public policy reason to allow individuals to bring suit
while not giving entities23 the same right—especially
when one keeps in mind the crucially important
concept that is the basis for the Open Meetings Act: the
need for intense scrutiny of and critical comment about
the doings of government. See, e.g., Louis D. Brandeis,
Other People’s Money and How the Bankers Use It 92
(Frederick A. Stokes Company (“Publicity is justly
commended as a remedy for social and industrial
diseases. Sunlight is said to be the best of disinfectants
* * *.”); see also Rosanova v. Playboy Enterprises, Inc.,
580 F.2d 859, 861 (5th Cir. 1978) (“Comment upon
people and activities of legitimate public concern often
illuminates that which yearns for shadow.”). And it
should go without saying that the General Assembly
remains free to amend the Open Meetings Act so as to
give entities of this state the same statutory right to
sue under the Act as individuals already possess. See
Pizza Hut of America, Inc. v. Pastore, 519 A.2d 592, 594
(R.I. 1987).

23

It is worth bearing in mind the self-evident point that, after all,
entities are made up of individuals.

App. 69
C
Conclusion
For the above-discussed reasons, I reluctantly, and
only in view of the relevant judicial precedent and
statutory provisions, concur in the result reached by
the majority.

App. 70

APPENDIX B
STATE OF RHODE ISLAND AND
PROVIDENCE PLANTATIONS KENT, SC.
SUPERIOR COURT
No. KC-13-1059
(formerly PC-13-3212)
[Filed July 22, 2016]
___________________________________
CRANSTON POLICE RETIREES
)
ACTION COMMITTEE,
)
)
Plaintiff,
)
)
v.
)
)
THE CITY OF CRANSTON, by and )
through its Finance Director
)
ROBERT STROM and its City
)
Treasurer DAVID CAPUANO,
)
ALLAN FUNG, in his capacity as
)
Mayor of the City of Cranston,
)
Members of the Cranston City
)
Council JOHN LANNI, JR., DONALD )
BOTTS, JR., MARIO ACETO,
)
MICHAEL J. FARINA, MICHAEL W. )
FAVICCHIO, PAUL H. ARCHETTO, )
RICHARD D. SANTAMARIA, JR.,
)
SARAH KALES LEE, and STEVEN )
A. STYCOAS, in their capacity as
)

App. 71
members of the Cranston City
Council,
Defendants.
___________________________________

)
)
)
)

DECISION
TAFT-CARTER, J. This case is before the Court for
decision following a non-jury trial on a Complaint filed
by the Plaintiff, Cranston Police Retirees Action
Committee (CPRAC), against Defendant, the City of
Cranston (City). CPRAC is a non-profit corporation
formed in 2012 whose membership is comprised of
seventy-five retired members of the Cranston Police
Department and the Cranston Fire Department who
retained their right to sue the City by opting out of a
class action settlement.1 The Court is called upon to
decide whether certain ordinances passed by the City
violated the contract clauses of the Rhode Island and
United States Constitutions.2,3 In its Complaint, the
Plaintiff asserts that the 3% compounded cost of living
adjustment (COLA) was a vested contractual right for
its members, the suspension of which amounts to a
1

Although the Complaint lists sixty-five members of the CPRAC,
testimony from the CPRAC’s President, Mr. Glenn Gilkenson, lists
the number at seventy-five original members. Four members have
since passed away, leaving seventy-one remaining members. See
Trial Tr. 11:5–6, Nov. 9, 2015.
2

3

See U.S. Const. art. I, § 10; R.I. Const. art I, § 12.

CPRAC also alleges breach of contract and requests declaratory
and injunctive relief. See Compl. at Counts I, III, V; see also Pl.’s
Post-Trial Mem. at 2 and Def.’s Post-Trial Br. at 3 (indicating that
only three Counts remain of CPRAC’s Compl.).

App. 72
violation of the contract clause. The City maintains
that its actions do not violate the contract clause, that
CPRAC has not met its burden to show that the City’s
actions amounted to a substantial impairment, and
that it has presented sufficient credible evidence that
the City’s actions were reasonable and necessary to
achieve a significant and legitimate public purpose. In
November of 2015, the matter proceeded to a non-jury
trial. The Court exercises jurisdiction pursuant to G.L.
1956 §§ 8-2-13 and 9-30-1.
I
Findings of Fact
The Court has reviewed the evidence presented at
trial by both parties and makes the following findings
of fact.
The City established the Cranston Police Pension
fund for permanent members of the Cranston Police
Department and the Cranston Fire Pension fund for
permanent members of the City Fire Department in
1937. Compl. at ¶¶ 6, 7. Throughout the years, the
International Brotherhood of Police Officers, Local 301
(IBPO) on behalf of the police, and International
Association of Fire Fighters, Local 1363 (IAFF) on
behalf of the firefighters, engaged in mandatory and
binding collective bargaining with respect to all terms
and conditions of employment. Id. at ¶¶ 9, 10; see also
Municipal Police Arbitration Act, G.L. 1956 § 28-9.2-1,
Municipal Fire Fighters Arbitration Act, G.L. 1956
§ 28-9.1-1. As a result, collective bargaining
agreements (CBAs) were routinely negotiated between

App. 73
the IBPO and the City and the IAFF and the City. Id.
at ¶¶ 9, 10.
The health of the City pension fund was examined
yearly through actuarial studies and reports. Trial Tr.
61:19–22, Nov. 10, 2015 (Mayor Traficante). By the
early 1990s, the actuarial reports indicated that the
“appropriations [to the pension] were not keeping up
with that growth.” Id. at 60:16–17. As a result, Mayor
Traficante prudently addressed the issue of the
expanding unfunded pension liability. Id. at
61:23–62:14. To achieve the goal, he sought the
assistance of the police and fire unions. Id. at 62:3–14.
The first step was to ask the unions to reopen their
contracts with the potential of moving the employees
from the City pension system into the state pension
system. Id. Initially, this notion was dismissed by the
unions; however, after discussions, an agreement was
reached in 1996. Id. at 62:24–63:11.
This agreement transformed the City pension
system by creating a two-tier pension system. Id. at
64:13–15, 70:18–71:1. Members of the police and fire
departments hired after July 1, 1995 would enroll in
the state pension system. Id. at 64:13–15, 70:18–71:1;
see also Exs. 88A, Sec. 2-24-23(C)(1); 89A, Sec. 1-1011(C)(1). Employees with less than five years of service
on July 1, 1995 could elect to transfer into the state
pension system or remain in the City pension system.
Trial Tr. 70:7–11, Nov. 10, 2015; see also Exs. 88A,
Secs. 2-24-23(B)(1), 2-24-23(A)(1); 89A, Secs. 1-1011(B)(1), 1-10-11(A)(1). The agreement also provided,
for the first time, a minimum 3% compounded COLA

App. 74
upon retirement with an escalator clause.4 Trial Tr.
72:12–23, 88:12–90:6, 101:21–25, Nov. 10, 2015; see
also Exs. 88A, Sec 2-24-23(A)(20); 89A, Sec. 1-1011(A)(3). The escalator clause ensured that there would
be an increase in the compounded COLA equivalent to
any raise active employees received. Trial Tr. 72:12–23,
88:12–90:6, 101:21–25, Nov. 10, 2015; see also Exs.
88A, Sec. 2-24-23(A)(20); 89A, Sec. 1-10-11(A)(3). The
COLA was implemented by the City at the insistence
of the unions to achieve parity with the state pension
system. Trial Tr. 64:8–12, Nov. 10, 2015. This
agreement was ratified by the unions and codified into
law by the passage of two ordinances on November 25,
1996 (1996 Ordinances). Id. at 63:1–11, 68:24–69:22,
72:10–11; see also Exs. 88A, 89A.
CBAs5 negotiated between the City and the IBPO
after the 1996 Ordinances incorporated the provisions

4

5

The agreement provided, in pertinent part:
“Retired members pension payments will automatically
escalate in an amount equal to all contractual increases
received by active duty members of similar rank or
position and similar credited years with regard to annual
salary. In any contractual year in which the annual salary
for active members with over three (3) years of service
does not increase by three (3%) percent, then said retired
members shall receive a three (3%) percent escalation of
said pension payment on June 30 of that year.” Ex. 88A,
Sec. 2-24-23(A)(20); see also Ex. 89A, Sec. 1-10-11(A)(3)
(containing nearly identical language); see also Trial Tr.
88:12–90:6, Nov. 10, 2015 (Mayor Traficante).

All CBAs, unless otherwise noted, are effective for the duration
of the fiscal year, beginning on July 1 of the starting year and
ending on June 30 of the ending year.

App. 75
of the 1996 Ordinances, including the 3% compounded
COLA with an escalator clause.6 In addition, CBAs
negotiated between the City and the IAFF subsequent
to the 1996 Ordinances specifically included a
minimum 3% compounded COLA with an escalator
clause.7

6

Section 24-1 of the 1997–1999 CBA, 1999–2002 CBA, 2002–2005
CBA and Section 23-1 of the 2006–2008 CBA and the 2009–2012
CBA provides that:
“All City ordinances, state statutes and current benefits
now in existence as evidenced by a memorandum of
understanding signed by [the] city and IBPO, providing
the various forms of retirement benefits in existence upon
the execution of the Agreement for members of the
bargaining unit are hereby incorporated by reference as if
fully stated herein and shall inure to all members of the
bargaining unit for the duration of this Agreement. No
changes shall be made to said benefits without the written
agreement between the City and the I.B.P.O.” Exs. 34, 35,
36, 37, 38.
Section 23-1 of the 2006–2008 CBA and 2009–2012 CBA
additionally removed the escalator clause and fixed the
compounded COLA at 3% per annum: “Notwithstanding the above,
for all existing employees who retire after the execution of this
collective bargaining agreement, the pension cost-of-living
adjustments (COLAs) will be fixed at 3.0% per annum,
compounded, without any escalation based on raises granted to
active employees.” Exs. 37, 38.

7

Section 24(A)(3) of the 1997–1998 CBA, 1998–2001 CBA,
2001–2004 CBA, 2006–2007 CBA, 2007–2010 CBA, 2008–2011
CBA, and 2011–2013 CBA provides:
“All retired employees’ pension payments will
automatically escalate based on any and all contractual
increases received by active duty employees of similar
rank or position and similar credited years of service with
regard to weekly salary, longevity pay, and holiday pay. In

App. 76
Prior to instituting these changes, Mayor Traficante
considered many options such as accessing the rainy
day fund. Trial Tr. 102:9–25, 107:24–108:10, Nov. 10,
2015 (Mayor Traficante). All alternatives were
dismissed. Id. at 102:9–25, 107:24–108:10. For
instance, the suggestion to secure a pension obligation
bond was dismissed because it would have increased
the debt service of the City. Id. at 104:21–105:7. A
supplemental tax was also rejected. Id. at
108:14–109:14. Mayor Traficante felt that another tax
increase would be harmful to City taxpayers who had
faced no fewer than six tax increases since 1985. Id.
Additionally, the privatization of the wastewater
treatment plant was explored. Id. at 110:1–25. The
option was deemed imprudent. Id.
Despite these crucial changes to the City pension
system, the unfunded accrued liability continued to
grow. By 1999, the unfunded accrued liability reached
a total of $169 million for police officers and
firefighters. Id. at 100:13–15; see also Ex. 60. One of
the biggest factors that drove the growth of the
unfunded accrued liability was the newly-implemented
compounded COLA. Trial Tr. 100:22–101:4, Nov. 10,

any contractual year in which the active employee’s over
three (3) years of service weekly salary does not increase
by a gross of three (3%) percent, the retired employee’s
escalation of pension payments will automatically increase
by three (3%) percent compounded on July 1 of that year.
All active duty employees when retired shall have their
pension payments adjusted, if necessary, to pension
payments received by retired employees of similar rank or
position and similar credited years of service at the time of
their retirement.” Exs. 14, 15, 16, 17, 18, 19, 22.

App. 77
2015. Although the growth of the unfunded accrued
liability was recognized as an issue, this administration
was unable to achieve additional modifications due to
the significant achievements accomplished in 1996. Id.
at 101:11–25.
The structural deficit continued to grow in the years
following the Traficante administration. Id. at 116:8–16
(Mayor O’Leary). Mayor John R. O’Leary was elected
and assumed office in 1999. Id. at 115:1–6, 116:1–3.
During his tenure, there remained a structural deficit
as well as challenges with respect to the unfunded
pension liability. Id. at 116:18–117:5. In an effort to
meet the City’s obligations to pay retirees’ pension and
healthcare obligations, Mayor O’Leary, during his
fourth and final year as mayor, borrowed against the
pension fund which was repaid the following year. Id.
at 120:8–21, 122:24–123:12.
The issue of the expanding unfunded pension
liability was confronted in 2008, when Allan Fung was
elected Mayor. Trial Tr. 2:20–21, 9:19–23, Nov. 12,
2015 (Mayor Fung). As with his predecessors, Mayor
Fung was responsible for overseeing the City’s budget,
including the City’s pension plan. Id. at 2:22–4:1. The
major sources of revenue for the City continued to be
the tax levy, state aid, and grant money. Trial Tr.
3:19–23, Nov. 13, 2015 (Mr. Strom). These sources were
substantially reduced because of the negative economic
conditions developing during the initial days of the
Fung administration. Among the many economic
challenges encountered were the Great Recession,
rising unemployment, and the devaluation of the City
property assessment. Trial Tr. 13:9–17, 17:10–20, Nov.

App. 78
12, 2015 (Mayor Fung). It was estimated that the
property assessments decreased by one billion dollars
between 2008 and 2009. Id. at 13:9–17, 17:10–20; see
also Exs. YYY, ZZZ. This resulted in lower tax revenue
for the City. Trial Tr. 17:10–20, Nov. 12, 2015. To
compound matters, the City was challenged by two
natural disasters in March of 2010 that cost the City in
excess of $1.4 million. Id. at 24:17–25:5.
Colliding with these events came a substantial
decrease in state aid due to the state budgetary crisis.
Id. at 19:25–20:3. State aid decreased from twenty-two
million dollars in fiscal year 2007 to less than six
million dollars in fiscal year 2011. Trial Tr. 11:5–12:7,
Nov. 13, 2015 (Mr. Strom); see also Exs. H, I, J, K, L.
The reduction in aid created a nearly five percent gap
in the budget. Trial Tr. 14:5–12, Nov. 13, 2015. The
overall fiscal health of the City was disabled. Trial Tr.
22:18–23:19, Nov. 12, 2015 (Mayor Fung); see also Ex.
R. As a consequence, Moody’s Investors Services
downgraded the City’s bond rating. Trial Tr.
23:20–24:14, 27:25–28:25, Nov. 12, 2015; see also Exs.
R, X. There were several reasons listed to support the
downgrade, including the continued underfunding of
the annual required contribution and the anticipated
increase in the unfunded pension liability, among
others. Id.; see also Exs. R, X.
Faced with these financial difficulties, the City
undertook significant expenditure cuts and many
attempts to increase City revenue. Trial Tr. 16:11–17:3,
Nov. 13, 2015; see also Ex. MM. Mayor Fung began to
tackle the problem through the implementation of a
series of steps that included cost cutting measures.

App. 79
Trial Tr. 12:8–19, Nov. 12, 2015 (Mayor Fung). The
administration explored cuts that included a reduction
in staff and an increase in the healthcare co-pays for
City employees. Id. A multi-year pay freeze was
instituted to further reduce costs. Id. at 71:12–72:17;
see also Ex. JJ. Public motor vehicles and buildings
were sold for revenue. Trial Tr. 70:20–71:3, 144:7–16,
Nov. 12, 2015; see also Ex. JJ.
The Fung administration also reviewed the City’s
pension system. Trial Tr. 29:1–6, Nov. 12, 2015. The
City pension system’s large, unfunded liability was a
result of historical underfunding as well as the high
cost of the compounded COLAs. Id. at 31:4–17. By
2011, the unfunded liability totaled $256 million, with
$35 million in assets. Id. at 30:6–15, 39:5–21; see also
Exs. U, Y. There were approximately 480 participants
and beneficiaries in the City pension system. Trial Tr.
29:7–12, Nov. 12, 2015. Of those, an estimated fiftyseven were active employees. Id. at 29:13–18. A 2011
report estimated that—with demographic and economic
assumption changes—the unfunded and accrued
liability actually would increase to approximately $271
million. Id. at 46:11–21; see also Ex. Y. Additionally,
the City made less than the 100% annual required
contribution (ARC)8 to the pension for fiscal years 2009,
8

There is some disagreement as to the meaning of the acronym
“ARC.” Mayor Fung testified that ARC stood for “annual []
required contribution.” Trial Tr. 41:15–42:16, Nov. 12, 2015 (Mayor
Fung). The Government Accounting Standards Board uses this
same definition. See, e.g., “Protecting Pension and Retiree Health
Care Benefits: A Glossary of Actuarial and Accounting Terms and
Concepts for Retirement Plans.” National Education Association,
Jan. 2015, 4 (http://www.nasra.org/Files/Topical%20Reports/

App. 80
2010, and 2012. Trial Tr. 41:15–42:16, Nov. 12, 2015;
see also Ex. U. With demographic and economic
assumption changes taken into account, the ARC
increased by several million dollars a year in fiscal year
2010. Trial Tr. 47:13–21, Nov. 12, 2015; see also Ex. U.
The decision to act was based on a real fear of
bankruptcy. Trial Tr. 81:11–19, 82:1–15, 121:18–122:2,
126:11–23, Nov. 12, 2015 (Mayor Fung). Mayor Fung
had witnessed the Central Falls bankruptcy in 2011,
and he recognized that bankruptcy was also a
possibility for Cranston. Id. Mayor Fung noted that the
Auditor General’s report from 2011 detailed Cranston’s
pension problem and that all three ratings agencies
indicated pension issues in Cranston. Id. at
82:19–83:11. Although it was conceded that the Auditor
General had sounded the alarm in its 2002 report on
the City’s pension system, there was a firm testified
belief that the total context of budgetary crises,
inherited deficits, unanticipated cuts in state aid, and
the 2010 natural disasters constituted an unexpected
fiscal emergency in 2009. Trial Tr. 13:3–14:24, Nov. 13,
2015 (Mayor Fung); see also Exs. HHHH, IIII, 57.
Also occurring during this timeframe was the state’s
undertaking to address the status of locally
administered pension plans. Trial Tr. 33:21–25, Nov.
12, 2015. Mayor Fung was a member of the Pension
Study Commission charged with analyzing pension
Actuarial/Glossary%20of%20Actuarial%20Terms.pdf). However,
CPRAC’s expert, Mr. Fornia, defined ARC as the “actuarial
required contribution.” Trial Tr. 27:18–20, Nov. 13, 2015 (Mr.
Fornia). For purposes of clarity and consistency, the Court will use
ARC to mean “annual required contribution.”

App. 81
issues and formulating recommendations to the
Governor and the General Treasurer. Id. at 34:1–6.
Ultimately, the Rhode Island Retirement Security
Act (RIRSA) was passed in 2011. G.L. 1956 §§ 45-65-1
et seq.; see also Ex. VVV. Under RIRSA, any municipal
pension plan that was less than sixty percent funded
was defined to be in “critical status.” Trial Tr. 5:22–6:5,
35:1–36:19, Nov. 12, 2015 (Mayor Fung); see also Ex.
VVV. A municipality that was deemed to be in critical
status was tasked with two responsibilities:
(1) submitting a notice of critical status to plan
participants and beneficiaries and to the general
assembly, governor, general treasurer, director of
revenue, and auditor general within thirty days; and
(2) submitting a reasonable alternative funding
improvement plan to emerge from critical status to the
Pension Study Commission within 180 days of sending
the critical status notice. Trial Tr. 36:7–19, Nov. 12,
2015; see also Ex. VVV. If a critical status municipality
failed to comply, it faced reductions in state aid. Trial
Tr. 36:12–19, 37:6–14, Nov. 12, 2015; see also Ex. VVV.
If deemed to be in critical status, the City had twenty
years to achieve sixty percent funding status—and thus
emerge from critical status—or it would face significant
further reductions in state aid. Trial Tr. 85:16–86:8,
95:4–6, 102:17–25, Nov. 12, 2015.
The City met the rubric for critical status. Id. at
48:1–11. As a result, on April 1, 2012, the City’s
actuary sent a letter to the Cranston Finance Director
indicating that the City was in critical status as
defined in RIRSA. Id. at 48:6–11; see also Ex. Z. A
notice of critical status designation was sent to all of

App. 82
the City pension system participants and beneficiaries
as well as to the various state officials required by
RIRSA on April 6, 2012. Trial Tr. 48:23–49:19, Nov. 12,
2015; see also Exs. AA, BB, CC, DD, EE, FF. The City
had 180 days to submit a reasonable alternative
funding improvement plan to the Pension Study
Commission. Trial Tr. 87:19–25, Nov. 12, 2015; see also
Ex. VVV. At the time, Cranston’s pension was 16.9%
funded and one of the worst in the state. Trial Tr.
61:16–20, Nov. 12, 2015; see also Ex. GG. For fiscal
year 2012, the City was required to increase its ARC to
pension payments by $14 million to 100% fund the
plan. Trial Tr. 53:15–54:6, Nov. 12, 2015; see also Ex.
GGGG. It was concluded that obtaining $14 million
through spending cuts would decimate city services,
eliminate parks and recreation services, and shutter
libraries. Trial Tr. 57:3–20, Nov. 12, 2015; see also Ex.
GGGG.
Ultimately, it was decided that the solution involved
the suspension of the 3% compounded COLA. The
suspension of the 3% compounded COLA, however, was
not the only option considered by the Fung
administration. Trial Tr. 89:1–11, 94:9–15, 112:6–11,
Nov. 12, 2015 (Mayor Fung); see also Trial Tr.
9:19–11:7, Nov. 13, 2015 (Mayor Fung). Over twentyfive different alternatives were researched and
considered with City actuaries, and it was only after a
long process that the ten-year suspension of the 3%
compounded COLA was chosen. Trial Tr. 89:1–11,
94:9–15, 112:6–11, Nov. 12, 2015 (Mayor Fung); see
also Trial Tr. 25:25–26:11, Nov. 13, 2015 (Mr. Strom).
With the assistance of consultants from Buck
Consulting, the City examined prudent measures to

App. 83
achieve a more sustainable City pension system. Trial
Tr. 25:25–26:11, Nov. 13, 2015 (Mr. Strom). Raising the
employee contributions was not seriously considered
because of the relatively small number of current
employees and the large size of the unfunded liability.
Trial Tr. 77:25–78:13. Nov. 12, 2015 (Mayor Fung).
Funds in the rainy day fund were also not considered
in resolving the pension crisis, as Mayor Fung thought
it unwise to use those funds for a systemic problem. Id.
at 120:9–17.
Equally unsuitable to achieve fiscal readiness was
raising taxes. Trial Tr. 18:6–16, Nov. 13, 2015 (Mr.
Strom). The City had recently undergone tax increases
and further tax increases were deemed unsustainable
to taxpayers. Id. In Cranston, the assessed value of real
and tangible property from 2008 to 2015 declined,
whereas the net tax levy increased. Id. at 18:25–21:11,
22:2–12; see also Exs. YYY, ZZZ, AAAA, BBBB, CCCC,
DDDD, EEEE, FFFF. Indeed, the City was listed by
the State as a “[d]istressed [c]ommunity” for at least
two years, indicating a high tax burden. Trial Tr.
22:13–23:4, Nov. 13, 2015. In fact, between 1985 and
2013, there were at least fifteen tax increases in the
City. Trial Tr. 76:13–16, Nov. 12, 2015 (Mayor Fung);
see also Ex. XXX. Cranston residents were paying high
taxes for extremely limited services. Trial Tr. 59:2–5,
Nov. 12, 2015. Any subsequent tax increases to deal
with the crisis were not feasible. Id. at 76:21–23,
80:11–15. Furthermore, a tax increase would defy the
state property tax cap. Trial Tr. 37:10–23, Nov. 13,
2015 (Mr. Strom). The cap prevents any municipality
from raising the tax levy by more than 4% in any fiscal
year. Id.

App. 84
It was clear that to avert disaster the City had to
act. The primary reason that the suspension of the 3%
compounded COLA for ten years appeared fruitful was
to rescue the pension plan from extinction. Trial Tr.
121:20–23, Nov. 12, 2015 (Mayor Fung). The
suspension of the 3% compounded COLA suspension
was a measure of last resort. Trial Tr. 27:15–23, Nov.
13, 2015 (Mayor Fung). In the end, it was concluded
that the 3% compounded COLA suspension would
reduce the City’s unfunded pension liability and
ultimately reverse the Moody’s Investors Service’s
negative outlook on the City’s bonds. Trial Tr.
28:14–29:16, Nov. 13, 2015; see also Exs. X, PPP, QQQ.
The Mayor created an alternative funding
improvement plan and presented it to stakeholders
through a series of meetings. Trial Tr. 59:10–15,
81:20–24, Nov. 12, 2015; see also Exs. HH, KK. The
Mayor attempted to openly and transparently resolve
the crisis. Trial Tr. 61:21–62:12, Nov. 12, 2015. Over
one hundred police officers, firefighters, and/or retirees
attended a meeting on September 13, 2012 with Mayor
Fung to discuss what could be done. Id. at 63:19–64:13;
see also Ex. JJ. At this meeting, Mayor Fung presented
a PowerPoint slideshow that provided information as
to the City’s past and present financial situation,
RIRSA’s requirements, and a proposed funding
improvement plan. Trial Tr. 64:24–70:13, Nov. 12,
2015; Ex. JJ. The slideshow attempted to explain to
pension plan participants and beneficiaries why the
City needed to act now, how precarious the City’s
financial situation was, and how the compounded
COLAs impacted the pension fund. Trial Tr.
81:5–83:24, Nov. 12, 2015; see also Ex. JJ. The

App. 85
suspension of the 3% compounded COLA was proposed.
Trial Tr. 84:19–85:15, Nov. 12, 2015; see also Ex. JJ. It
was explained by Mayor Fung that the proposal would
accomplish the goal of removing the City pension
system from critical status within twenty years. Trial
Tr. 86:9–14, Nov. 12, 2015. The presentation included
a suggestion that retirees engage legal counsel to
negotiate; Mayor Fung insisted that, although he had
proposed a solution, he was open to considering
additional alternatives. Id. at 88:21–89:11; see also Ex.
JJ. Mayor Fung had a similar meeting on September
25, 2012. Trial Tr. 90:11–19, Nov. 12, 2015.
Mayor Fung proposed two ordinances at a special
meeting of the Cranston City Council Finance
Committee on October 25, 2012. Trial Tr. 90:14–92:2,
Nov. 12, 2015; see also Ex. NN. The ordinances would
implement a ten-year suspension of the 3%
compounded COLA. Trial Tr. 90:14–92:2, Nov. 12,
2015; see also Ex. NN. During this meeting, Mayor
Fung made a presentation that contained much of the
same information from the slideshow presented on
September 13, 2012. Trial Tr. 93:19–94:24, Nov. 12,
2015; see also Ex. MM. By this time, the City and its
actuaries had considered over twenty-five different
alternatives and had narrowed the alternatives to four
options for consideration. Trial Tr. 93:19–94:24, Nov.
12, 2015; see also Ex. MM. These options compared the
effect of suspending the 3% compounded COLA with
various amortization periods on ARC contributions to
determine the year in which the City was expected to
emerge from critical status. Trial Tr. 94:9–98:5, Nov.
12, 2015; see also Ex. MM. If the status quo was to
remain, the City would be required to infuse an

App. 86
additional $100 million over twenty years to emerge
from critical status in a timely fashion. Trial Tr.
95:11–97:7, Nov. 12, 2015; see also Ex. MM. By
suspending the 3% compounded COLA for ten years,
the City would emerge from critical status by 2032,
within the Pension Study Commission’s twenty-year
requirement. Trial Tr. 97:8–22, Nov. 12, 2105; see also
Ex. MM.
On November 11, 2012, Mayor Fung sent a letter to
the Pension Study Commission containing the four
potential scenarios for emerging from critical status.
Trial Tr. 98:9–19, Nov. 12, 2015; see also Ex. QQ. The
four options included a ten-year suspension of the 3%
compounded COLA, a fifteen-year suspension of the 3%
compounded COLA, a permanent suspension of the 3%
compounded COLA with large ARC in fiscal years 2013
and 2014, and a permanent suspension of the 3%
compounded COLA with different ARC in fiscal years
2013 and 2014. Trial Tr. 99:2–100:11, Nov. 12, 2015;
see also Ex. QQ.
During this timeframe, Mayor Fung was
approached by retirees as well as union representatives
from the IBPO and the IAFF seeking to resolve the
crisis. Trial Tr. 103:4–25, Nov. 12, 2015. In an attempt
to negotiate in good faith, Mayor Fung suspended his
efforts to seek passage of the ordinances. Trial Tr.
104:1–12, Nov. 12, 2015. He commenced a dialogue
with the City pension system participants and
beneficiaries. Id. Starting in January of 2013, Mayor
Fung met with Mr. Paul Valletta, president of the
IAFF; Mr. Ken Rouleau, vice president of the IAFF;
Mr. Stephen Antonucci, president of the IBPO; police

App. 87
retiree representatives, and others. Trial Tr.
106:17–107:20, Nov. 12, 2015. Meetings between Mayor
Fung and interested parties occurred on January 11,
2013; January 29, 2013; February 14, 2013; February
26, 2013; March 4, 2013; and March 8, 2013. Id. at
108:17–109:11; see also Ex. TT. Mayor Fung testified
that all of these meetings were designed to provide
information to retirees and engage in an open dialogue.
Trial Tr. 109:9–21, 110:4–18, Nov. 12, 2015. At the
meetings, over twenty different scenarios were
discussed with retirees, including alternative
compounded COLA suspension scenarios. Id. at
112:6–11; see also Exs. XX, ZZ, AAA, DDD, III.
Ironically, one goal of holding these meetings was to
avoid a court challenge. Trial Tr. 110:11–18, Nov. 12,
2015. Ultimately, the stakeholders reached an
agreement. Id. at 115:11–14.
The agreement resulted in the passage of two
ordinances by the Cranston City Council on April 23,
2013 amending the Cranston City Code that governed
police and firefighter retiree pensions to suspend the
3% compounded COLA for a period of ten years (2013
Ordinances).9 Id. at 101:1–7, 116:17–117:1, Nov. 12,

9

Ordinance 2013-5, concerning the police officer pension funds,
states, in pertinent part:
“22. Notwithstanding any language in Chapter 2.20
entitled Policeman’s Pension fund or any other law or
statute or ordinance or memorandum of agreement or
settlement agreement or binding arbitration award or
collective bargaining agreement provision or any other
statutory or contractual provision or legislative enactment
to the contrary, for any officer or member of the
permanent police department who was hired prior to July

App. 88

1, 1995 and in said plan who is still an active employee
and for any such member so retired and for any
beneficiaries receiving any retirement, disability or
widow/widower benefit or any other benefit of any kind in
said plan, any automatic annual escalation or pension costof-living adjustment (COLA) of the pension payment of the
member or beneficiary in accordance with these sections
shall be suspended for a period of ten (10) years beginning
July 1, 2013.
“23. Notwithstanding any language in Chapter 2.20
entitled Policeman’s Pension fund or any other law or
statute or ordinance or memorandum of agreement or
settlement agreement or binding arbitration award or
collective bargaining agreement provision or any other
statutory or contractual provision or legislative enactment
to the contrary, upon the expiration of the ten year period
provided for above, for any officer or member of the
permanent police department who was hired prior to July
1, 1995 and in said plan who is still an active employee
and for any such member so retired and for any
beneficiaries receiving any retirement, disability or
widow/widower benefit or any other benefit of any kind in
said plan the automatic annual escalation or pension costof-living adjustment (COLA) of the pension payment of the
member or beneficiary shall automatically escalate in an
amount fixed at three percent per annum, compounded,
without any further escalation based on raises granted to
active employees.” Ex. HHHH.
Ordinance 2013-6, dealing with the firefighter pension funds,
states, in pertinent part:
“7. Notwithstanding any language in Chapter 2.28 entitled
Fireman’s Pension fund or any other law or statute or
ordinance or memorandum of agreement or settlement
agreement or binding arbitration award or collective
bargaining agreement provision or any other statutory or
contractual provision or legislative enactment to the
contrary, for any officer or member of the permanent police

App. 89
2015; see also Exs. HHHH, IIII. In year eleven, the
COLA is reinstated at a fixed 3% compounded amount.
Trial Tr. 22:12–16, Nov. 13, 2015 (Mayor Fung); see
also Exs. HHHH, IIII.
The implementation of these changes led the
Cranston Police Department Retirees Association, Inc.
and the Local 1363 Retirees Association to bring suit in
department who was hired prior to July 1, 1995 and in
said plan who is still an active employee and for any such
member so retired and for any beneficiaries receiving any
retirement, disability or widow/widower benefit or any
other benefit of any kind in said plan, any automatic
annual escalation or pension cost-of-living adjustment
(COLA) of the pension payment of the member or
beneficiary in accordance with these sections shall be
suspended for a period of ten (10) years beginning July 1,
2013.
“8. Notwithstanding any language in Chapter 2.28 entitled
Fireman’s Pension fund or any other law or statute or
ordinance or memorandum of agreement or settlement
agreement or binding arbitration award or collective
bargaining agreement provision or any other statutory or
contractual provision or legislative enactment to the
contrary, upon the expiration of the ten year period
provided for above, for any officer or member of the
permanent fire department who was hired prior to July 1,
1995 and in said plan who is still an active employee and
for any such member so retired and for any beneficiaries
receiving any retirement, disability or widow/widower
benefit or any other benefit of any kind in said plan the
automatic annual escalation or pension cost-of-living
adjustment (COLA) of the pension payment of the member
or beneficiary shall automatically escalate in an amount
fixed at three percent per annum, compounded, without
any further escalation based on raises granted to active
employees.” Ex. IIII.

App. 90
April 2013 against the City, alleging that the 2013
Ordinances violated, inter alia, the contract clauses of
the Rhode Island and United States Constitutions. See
Joint Statement of Undisputed Facts at ¶ 31; see also
Local 1363 Retirees Ass’n v. City of Cranston, PC-20131899. The parties negotiated and reached an agreement
in the summer of 2013 (Settlement Agreement). Id. at
¶ 32. Paul Valletta Jr., President of the local IAFF, was
the lead negotiator for the union. Trial Tr. 2:10–3:2,
Nov. 17, 2015 (Mr. Valletta). Mr. Valletta was gravely
concerned with the passage of RIRSA in 2011. Id. at
6:12–21. The purpose of the Settlement Agreement was
to save the pension. Id. at 12:12–17. Prior to the
Settlement Agreement, other options were explored,
including increasing taxes, lay-offs, reductions in pay,
and selling City assets. Id. at 13:4–15:17. It was
concluded that these were not feasible or reasonable.
Id.
The terms of the Settlement Agreement included a
suspension of the 3% compounded COLA on alternating
years for a period of ten years; in years eleven and
twelve a compounded COLA is set at one and a half
percent; and for years thirteen and forward the COLA
returns to 3% compounded. See Trial Tr. 115:15–116:3,
Nov. 12, 2015 (Mayor Fung); Trial Tr. 23:11–19, Nov.
13, 2015 (Mayor Fung); see also Ex. JJJJ. During a
fairness hearing, the Court found the Settlement
Agreement fair and reasonable and approved it on
December 13, 2013. Joint Statement of Undisputed
Facts at ¶ 41.
Those dissatisfied with the Settlement Agreement
were afforded the opportunity to elect to exclude

App. 91
themselves from the Settlement Agreement. Id. at
¶¶ 36, 40. Those individuals retained the right to sue
the City. Id. CPRAC is comprised of those individuals
who opted out of the Settlement Agreement. Trial Tr.
51:17–52:22, Nov. 9, 2015 (Mr. Gilkenson).
A non-jury trial was held over the course of six days,
during which sixteen witnesses testified. At the close of
CPRAC’s evidence, the City moved for judgment as a
matter of law pursuant to Super. R. Civ. P. 52(c). Trial
Tr. 117:25–122:24, Nov. 17, 2015. The Court reserved
on the City’s motion. Id. at 127:19.
II
Standard of Review
Rule 52(a) of the Superior Court Rules of Civil
Procedure (Rule 52(a)) provides that “[i]n all actions
tried upon the facts without a jury . . . the court shall
find the facts specially and state separately its
conclusions of law . . . .” Super. R. Civ. P. 52(a).
Accordingly, in a non-jury trial, “‘[t]he trial justice sits
as a trier of fact as well as of law.’” Parella v.
Montalbano, 899 A.2d 1226, 1239 (R.I. 2006) (quoting
Hood v. Hawkins, 478 A.2d 181, 184 (R.I. 1984)). In so
doing, she “‘weighs and considers the evidence, passes
upon the credibility of the witnesses, and draws proper
inferences.’” Id. (quoting Hood, 478 A.2d at 184).
Additionally, “it is permissible for the trial justice to
‘draw inferences from the testimony of witnesses, and
such inferences, if reasonable, are entitled on review to
the same weight as other factual determinations.’”
Cahill v. Morrow, 11 A.3d 82, 86 (R.I. 2011) (quoting

App. 92
DeSimone Elec., Inc. v. CMG, Inc., 901 A.2d 613, 621
(R.I. 2006)).
However, “‘extensive analysis’” is not required of the
trial justice. Wilby v. Savoie, 86 A.3d 362, 372 (R.I.
2014) (quoting Connor v. Schlemmer, 996 A.2d 98, 109
(R.I. 2010)). Indeed, the “‘trial justice’s analysis of the
evidence and findings in the bench trial context need
not be exhaustive . . . if the decision reasonably
indicates that [he or she] exercised [his or her]
independent judgment in passing on the weight of the
testimony and credibility of the witnesses . . . .’” Id.
(quoting Notarantonio v. Notarantonio, 941 A.2d 138,
144–45 (R.I. 2008)). Brief findings of fact and
conclusions of law are sufficient as long as they
squarely address and resolve controlling factual and
legal issues.10 See Broadley v. State, 939 A.2d 1016,

10

Rule 52(c) of the Rhode Island Superior Court Rules of Civil
Procedure (Rule 52(c)) permits a Court, in a non-jury trial, to enter
judgment as a matter of law after a party has been fully heard on
an issue. Rule 52(c) provides, in pertinent part, as follows:
“If during a trial without a jury a party has been fully
heard on an issue and the court finds against the party on
that issue, the court may enter judgment as a matter of
law against that party with respect to a claim or defense
that cannot under the controlling law be maintained or
defeated without a favorable finding on that issue, or the
court may decline to render any judgment until the close
of all the evidence. Such a judgment shall be supported by
findings of fact and conclusions of law as required by
subdivision (a) of this rule.” Super. R. Civ. P. 52(c).

Importantly, the Court must adhere to the same standard of
review exercised under Rule 52(a). See Cathay Cathay, Inc. v.
Vindalu, LLC, 962 A.2d 740, 745 (R.I. 2009); see also Broadley, 939

App. 93
1021 (R.I. 2008).
This Court, sitting without a jury, also possesses
discretion “to grant or deny declaratory relief pursuant
to the [Uniform Declaratory Judgments Act]” as well as
discretion “to grant or deny injunctive relief as a court
of general equitable jurisdiction.” R.I. Republican Party
v. Daluz, 961 A.2d 287, 295 (R.I. 2008); see also §§ 9-301 to 9-30-16; see also § 8-2-13. The Uniform Declaratory
Judgments Act grants the Superior Court “power to
declare rights, status, and other legal relations
whether or not further relief is or could be claimed . . .
and such declarations shall have the force and effect of
a final judgment or decree.” Sec. 9-30-1. Furthermore,
“[a] decision to grant or deny declaratory or injunctive
relief is addressed to the sound discretion of the trial
justice . . . .” Foster Glocester Reg’l Sch. Bldg. Comm.
v. Sette, 996 A.2d 1120, 1124 (R.I. 2010).
III
Analysis
A
Contract Clause
The contract clause of the United States
Constitution as well as the Rhode Island Constitution
A.2d at 1021 (“[A] finding on a Rule 52(c) motion must comport
with the requirements in Rule 52(a), which does not require
extensive analysis and discussion of all the evidence presented in
a bench trial.”). The trial justice must therefore “assess the
credibility of witnesses and weigh the evidence presented by the
nonmoving party.” Cathay Cathay, Inc., 962 A.2d at 745 (citing
Broadley, 939 A.2d at 1020).

App. 94
serves to limit the power of the state to modify and
regulate contracts. See Brennan v. Kirby, 529 A.2d 633,
638 n.7 (R.I. 1987) (holding that Rhode Island courts
“will rely on federal case authority in this area”); R.I.
Const. art. I, § 12; U.S. Const. art. I, § 10. Although the
contract clause appears to be an absolute bar to
impairment of public and private contracts, the United
States Supreme Court has not interpreted it as such.
U.S. Trust Co. of N.Y. v. N.J., 431 U.S. 1, 20 (1977)
(holding that the contract clause “‘is not to be read with
literal exactness like a mathematical formula.’”)
(quoting Home Bldg. & Loan Ass’n v. Blaisdell, 290
U.S. 398, 428 (1934)); see also Energy Reserves Grp.,
Inc. v. Kan. Power and Light Co., 459 U.S. 400, 410
(1983).
The apparent absolute prohibition of the contract
clause has been “accommodated to the inherent police
power of the State ‘to safeguard the vital interests of its
people.’” Energy Reserves Grp., Inc., 459 U.S. at 410
(quoting Blaisdell, 290 U.S. at 434). Central to the
interpretation of the contract clause is the careful
balance struck between retaining “any meaning at all”
from the words of the text and “the exercise of [a
state’s] otherwise legitimate police power.” Allied
Structural Steel Co. v. Spannaus, 438 U.S. 234, 242
(1978); see also Patrick J. Rohan, 1 Zoning and Land
Use Controls § 5.05[3] (1997) (noting the tension from
the “conflict between the contracts clause of the United
States Constitution and the necessary powers inherent
in a sovereign state”). This balance furthers the
“principle of harmonizing the constitutional prohibition
with the necessary residuum of state power . . . .” City
of El Paso v. Simmons, 379 U.S. 497, 508 (1965).

App. 95
Therefore, “state laws that impair an obligation under
a contract do not necessarily give rise to a viable
Contracts Clause claim.” Buffalo Teachers Fed’n v.
Tobe, 464 F.3d 362, 368 (2d Cir. 2006) (citing U.S.
Trust Co., 431 U.S. at 16).
Determining whether a state law unconstitutionally
impairs the obligations of contract requires this Court
to conduct a three-prong analysis. See Energy Reserves
Grp., 459 U.S. at 411–13; see also In re Advisory Op. to
the Governor (DEPCO), 593 A.2d 943, 949 (R.I. 1991).
The Court must consider the following:
“[1] A court first must determine whether a
contract exists. [2] If a contract exists, the court
then must determine whether the modification
results in an impairment of that contract and, if
so, whether this impairment can be
characterized as substantial. [3] Finally, if it is
determined that the impairment is substantial,
the court then must inquire whether the
impairment, nonetheless, is reasonable and
necessary to fulfill an important public purpose.”
Nonnenmacher v. City of Warwick, 722 A.2d
1199, 1202 (R.I. 1999) (internal citations
omitted); see also Retired Adjunct Professors v.
Almond, 690 A.2d 1342 (R.I. 1997) (applying the
same three-part analysis).
Plaintiff bears the burden of production in
establishing beyond a reasonable doubt that the
ordinances in question constitute a substantial
impairment of a contract. See Retired Adjunct
Professors, 690 A.2d at 1344–45; see also Parella, 899
A.2d at 1233; see also Nonnenmacher, 722 A.2d at

App. 96
1203–04. In the event that plaintiff fails to meet its
burden, the case ends. Otherwise, the burden of
production shifts to the City to provide sufficient
credible evidence that the ordinances were reasonable
and necessary to fulfill a “significant and legitimate . . .
purpose[.]” Toledo Area AFL-CIO Council v. Pizza, 154
F.3d 307, 323 (6th Cir. 1998); see also Energy Reserves
Grp., 459 U.S. at 411; see also “Credible Evidence,”
Black’s Law Dictionary (10th ed. 2014) (“[e]vidence
that is worthy of belief; trustworthy evidence.”).
Thereafter, plaintiff may rebut defendant’s credible
evidence on factor three, but it must do so beyond a
reasonable doubt. See Donohue v. Mangano, 886 F.
Supp. 2d 126, 160 (E.D.N.Y. 2012) (“A lack of
reasonableness or necessity is an element of a Contract
Clause claim which the Plaintiffs bear the burden of
establishing.”) (citations omitted). Although the burden
of production shifts, plaintiff bears the burden of
persuasion throughout. see also Dowd v. Rayner, 655
A.2d 679, 681 (R.I. 1995) (“[T]he party challenging the
constitutional validity of a statute carries the burden of
persuading the court beyond a reasonable doubt . . . .”);
see also Parella, 899 A.2d at 1232–33 (“[E]very statute
enacted by the Legislature is presumed constitutional
and will not be invalidated by this Court unless the
party challenging the statute proves beyond a
reasonable doubt that the legislative enactment is
unconstitutional.”) (emphasis in original).
1
Existence of a Contractual Obligation
As a threshold matter, it must be determined
whether a contract exists between the parties. See

App. 97
Nonnenmacher, 722 A.2d at 1202; see also Baltimore
Teachers Union v. Mayor and City Council of
Baltimore, 6 F.3d 1012, 1015 (4th Cir. 1993). This
analysis “goes not just to whether there is any
contractual relationship between the parties, but to
whether there is a ‘contractual agreement regarding
the specific . . . terms allegedly at issue.’” Cycle City,
Ltd. v. Harley-Davidson Motor Co., Inc., 81 F. Supp. 3d
993, 1004 (D. Haw. 2014) (quoting Gen. Motors Corp.
v. Romein, 503 U.S. 181, 187 (1992)). Plaintiff must
prove the existence of a contractual obligation beyond
a reasonable doubt. See Dowd, 655 A.2d at 681.
Here, CPRAC established through credible
testimony beyond a reasonable doubt that its members
made contributions to the City pension system through
payroll deductions and that all its members retired
under various CBAs that provided a 3% compounded
COLA. See Trial Tr. 3:20–4:1, 9:16–17, 40:5–20 (Mr.
Gilkenson), 104:9–12, 105:2–106:6, 107:16–23,
111:22–23 (Mr. Matrumalo), 153:22–154:14, 156:16–22,
157:9–24, 159:12–14 (Mr. Walsh), 175:9–176:10 (Mr.
Lynch); 185:12–186:14, 191:23–192:5 (Mr. Greene),
Nov. 9, 2015; see also Trial Tr. 3:10–19, 5:15––6:8 (Mr.
Davies), 16:3–19, 20:14–21:3, 21:23–22:3, 22:24–23:12
(Mr. Galligan), 31:23–32:16, 36:9–21 (Mr. Evans),
45:5–46:6, 46:14–23, 47:14–16 (Mr. Maccarone), Nov.
10, 2015; see also Exs. 18, 35, 36, 37, 38. The evidence
provided by CPRAC established that for firefighter
retirees, Section 24(A)(3) of the 1997–1998 CBA,
1998–2001 CBA, 2001–2004 CBA, 2006–2007 CBA,
2007–2010 CBA, 2008–2011 CBA, and 2011–2013 CBA
provide: “All retired employees’ pension payments will
automatically escalate based on any and all contractual

App. 98
increases received by active duty employees . . . . [T]he
retired employee’s escalation of pension payments will
automatically increase by three (3%) percent
compounded on July 1 of that year.” Exs. 14, 15, 16, 17,
18, 19, 22. The plain and unambiguous language of the
firefighter CBAs confers a 3% compounded COLA to
the retired firefighter. See Local 369 Util. Workers v.
NSTAR Elec. and Gas Corp., 317 F. Supp. 2d 69, 75–76
(D. Mass 2004) (“It is certainly possible for an employer
to ‘oblige itself contractually to maintain benefits at a
certain level . . . .’”) (quoting Vasseur v. Halliburton
Co., 950 F.2d 1002, 1006 (5th Cir. 1992)).
In addition, it was demonstrated that for police
officer retirees, Section 24-1 of the 1997–1999 CBA,
1999–2002 CBA, and 2002–2005 CBA, and Section 23-1
of the 2006–2008 CBA and 2009–2012 CBA specifically
incorporate the 1996 Ordinances.11 See Rotelli v.
Catanzaro, 686 A.2d 91, 94 (R.I. 1996) (“[I]nstruments
referred to in a written contract may be regarded as
incorporated by reference and thus may be considered
11

Section 24-1 of the 1997–1999 CBA, 1999–2002 CBA, and
2002–2005 CBA and Section 23-1 of the 2006–2008 CBA and
2009–2012 CBA provides:
“All City ordinances, state statutes and current benefits
now in existence as evidenced by a memorandum of
understanding signed by [the] city and IBPO, providing
the various forms of retirement benefits in existence upon
the execution of the Agreement for members of the
bargaining unit are hereby incorporated by reference as if
fully stated herein and shall inure to all members of the
bargaining unit for the duration of this Agreement. No
changes shall be made to said benefits without the written
agreement between the City and the I.B.P.O.” Exs. 34, 35,
36, 37, 38.

App. 99
in the construction of the contract.”) (citing 17A Am.
Jur. 2d Contracts § 400 (1991)). Our Supreme Court
considered a related issue in Arena v. City of
Providence, 919 A.2d 379, 392 (R.I. 2007). There, the
City of Providence applied new, less generous COLA
calculations to police and fire department employees
who had retired before the effective dates of the
ordinances providing the new calculations. Id. at 384.
The Arena Court held that the plaintiff had a vested
interest in the COLA provided by the ordinance, noting
that it was “a municipality’s duty to carefully craft an
ordinance granting a pension benefit so that it is clear
whether the benefit is gratuitous or vested . . . .” Id. at
394. A determination of whether the COLA benefits are
vested thus requires a “look to the applicable pension
ordinance.” Id. at 393.
Here, the plain language of the 1996 Ordinances
provides a 3% compounded COLA with an escalator
clause: “Retired members pension payments will
automatically escalate in an amount equal to all
contractual increases received by active duty members
. . . . [If there is no increase for active members] retired
members shall receive a three (3%) percent escalation
of said pension payment on June 30 of that year.” Ex.
88A, Sec. 2-24-23(A)(20); see also Arena, 919 A.2d at
394 (finding an ordinance conferred a vested
compounded COLA to retirees based on the “plain
language” of the ordinance).12 Additionally, the

12

For police officers who retired under the 2006–2008 CBA or the
2009–2012 CBA, the compounded COLA was fixed at 3% annually,
without an escalator clause: “the pension cost-of-living
adjustments (COLAs) will be fixed at 3.0% per annum,

App. 100
collective bargaining origins of the 3% compounded
COLA weigh in favor of vesting. See Arena, 919 A.2d at
394 (“[W]e are further persuaded that this is the
correct interpretation because the COLA provisions in
question were negotiated during the collective
bargaining process . . . .”). The Court therefore finds
that the plain and unambiguous language of the 1996
Ordinances, as referenced by the police officer CBAs,
confers a 3% compounded COLA to the retired police
officers.
As such, the Court is satisfied that CPRAC has
shown beyond a reasonable doubt that members of
CPRAC have a vested right to a 3% compounded COLA
in accordance with the respective CBAs under which
they retired. Accordingly, the 3% compounded COLAs
are contractual obligations, the impairment of which is
subject to contract clause scrutiny. See Buffalo
Teachers Fed’n, 464 F.3d at 368 (analyzing impairment
of union labor contracts under the contract clause).
2
Substantial Impairment
The contract clause is only invoked if the state law’s
impairment of the contractual obligation is sufficiently
“substantial.” See Nonnenmacher, 722 A.2d at 1202;
see also Liberty Mut. Ins. Co. v. Whitehouse, 868 F.
Supp. 425, 431 (D.R.I. 1994). Underlying this analysis
is a respect for the important role of contract:

compounded . . . .” Exs. 37, Sec. 23-1; 38, Sec. 23-1 (emphasis
added).

App. 101
“The severity of an impairment of contractual
obligations can be measured by the factors that
reflect the high value the Framers placed on the
protection of private contracts. Contracts enable
individuals to order their personal and business
affairs according to their particular needs and
interests. Once arranged, those rights and
obligations are binding under the law, and the
parties are entitled to rely on them.” Spannaus,
438 U.S. at 245.
The United States Supreme Court has not specifically
indicated what constitutes a “substantial” contractual
impairment. The Supreme Court has indicated that not
all impairments are substantial for contract clause
purposes. For example, “technical” impairments are
unlikely substantial. See Spannaus, 438 U.S. at 245
(“Minimal alteration of contractual obligations may end
the inquiry at its first stage.”); see also U.S. Trust Co.,
431 U.S. at 21 (“[A] finding that there has been a
technical impairment is merely a preliminary step in
resolving the more difficult question whether that
impairment is permitted under the Constitution.”).
However, “[t]otal destruction of contractual
expectations is not necessary for a finding of
substantial impairment.” Energy Reserves Grp. Inc.,
459 U.S. at 411; see also U.S. Trust Co., 431 U.S. at 26.
As the Fourth Circuit has noted, “[t]he ground between
these spectral ends, though, has yet to be charted with
any precision.” Baltimore Teachers Union, 6 F.3d at
1017.
It is clear, however, that two key factors are to be
examined: (1) whether the impaired right was the one

App. 102
that “substantially induced” the parties to contract in
the first place, City of El Paso, 379 U.S. at 514, and
(2) whether the abridged right is one that was
reasonably and especially relied on by the complaining
party. Spannaus, 438 U.S. at 246. Either factor may be
independently sufficient for a finding of substantial
impairment. See Buffalo Teachers Fed’n, 464 F.3d at
368 (finding substantial impairment based on
reasonable reliance alone).
In examining inducement, it has been concluded
that no substantial impairment exists where the
abridged right “was not the central undertaking of the
seller nor the primary consideration for the buyer’s
undertaking.” City of El Paso, 379 U.S. at 514. Only
rights that are “important,” “basic,” or “central” to the
underlying contract are sufficient to find a substantial
impairment based on inducement. See U.S. Trust Co.,
431 U.S. at 19; see also Spannaus, 438 U.S. at 246; see
also Baltimore Teachers Union, 6 F.3d at 1018; see also
City of Charleston v. Pub. Serv. Comm’n of W. Va., 57
F.3d 385, 394 (4th Cir. 1995).
Reliance on the contractual expectation requires
that the complaining party “relied heavily, and
reasonably, on th[e] legitimate contractual expectation
. . . .” Spannaus, 438 U.S. at 246; see also U.S. Trust
Co., 431 U.S. at 31 (noting that in City of El Paso, a
statute impairing contracts was upheld where it
“‘restrict[ed] a party to those gains reasonably to be
expected from the contract[.]’”) (quoting City of El Paso,
379 U.S. at 515). Thus, a plaintiff must demonstrate
reasonable reliance on the impaired contractual
provision to prove substantial impairment. See

App. 103
Baltimore Teachers Union, 6 F.3d at 1018 (noting that
a finding of substantial impairment requires evidence
of especial reliance); see also Buffalo Teachers Fed’n,
464 F.3d at 368 (“[T]he wage freeze so disrupts the
reasonable expectations of Buffalo’s municipal school
district workers that the freeze substantially impairs
the workers’ contracts with the City.”).
It is clear that, “at the very least, where the
contract right or obligation impaired was one that
induced the parties to enter into the contract and upon
the continued existence of which they have especially
relied, the impairment must be considered ‘substantial’
for purposes of the Contract Clause.” Baltimore
Teachers Union, 6 F.3d at 1018 (emphasis in original).
Plaintiff must prove these factors beyond a reasonable
doubt. See Dowd, 655 A.2d at 681; see also Parella, 899
A.2d at 1232–33.
Here, despite the fact that the compounded COLA
suspension is temporary and not a complete
repudiation, the length of the suspension of the COLA
is not so sufficiently minimal as to be a technical
deprivation. See Energy Reserves Grp. Inc., 459 U.S. at
411, (“Total destruction of contractual expectations is
not necessary for a finding of substantial
impairment.”); cf. Spannaus, 438 U.S. at 245 (“Minimal
alteration of contractual obligations may end the
inquiry at its first stage.”). A more searching look at
the inducement and reliance of CPRAC on the 3%
compounded COLA is therefore warranted. See
Baltimore Teachers Union, 6 F.3d at 1018.
Testimony from members of CPRAC lacks any
description of what, precisely, induced them to enter

App. 104
the police force or fire department in the first place.
See generally, Trial Tr. Nov. 9–10, 2015. Indeed, not
one member of CPRAC testified that the 3%
compounded COLA induced him or her to enter into a
contract with the City. See id. This is almost certainly
due to the fact that all members of CPRAC who
testified were hired prior to the enactment of the 1996
Ordinances, which first introduced the 3% compounded
COLA. See Exs. 88A, 89A; see also Trial Tr. 89:6–90:6,
Nov. 10, 2015 (Mayor Traficante). Nevertheless, based
on the testimony presented, the Court must conclude
that the 3% compounded COLA was not a “central
undertaking” of the employment contract. See City of
El Paso, 379 U.S. at 514. With no testimony as to the
inducement of the employment contract presented,
CPRAC has not done the necessary lifting required to
prove its burden beyond a reasonable doubt. See Dowd,
655 A.2d at 681; see also Parella, 899 A.2d at 1233.
Notwithstanding, CPRAC has presented credible
evidence beyond a reasonable doubt that its members
especially and reasonably relied on the 3% compounded
COLA. Members of CPRAC testified that the
compounded COLA suspension’s impact was
substantial. See Trial Tr. 135:6–9, 136:8–14 (Mr.
Matrumalo), 161:2–162:18 (Mr. Walsh), 180:12–19 (Mr.
Lynch), 189:11–23 (Mr. Greene), Nov. 9, 2015; see also
Trial Tr. 9:17–23 (Mr. Davies), 40:4–8 (Mr. Evans),
47:23–48:20 (Mr. Maccarone), Nov. 10, 2015. Members
of CPRAC testified almost uniformly, and credibly, that
if they had known of the forthcoming changes to the
compounded COLA, they would not have retired when
they did. See Trial Tr. 48:25–49:7 (Mr. Gilkenson),
132:21–24, 134:20–135:5 (Mr. Matrumalo), 160:9–16

App. 105
(Mr. Walsh), 175:9–19 (Mr. Lynch), Nov. 9, 2015; see
also Trial Tr. 8:12–14 (Mr. Davies), 24:2–15 (Mr.
Galligan), 39:24–40:13 (Mr. Evans), 48:21–49:3 (Mr.
Maccarone), Nov. 10, 2015. Indeed, many members of
CPRAC testified that they based their financial plans
on the continued indefinite availability of the 3%
compounded COLA. See Trial Tr. 132:20–133:11 (Mr.
Matrumalo), 161:2–162:18 (Mr. Walsh), Nov. 9, 2015.
Many cited to the fact that there was an impact on
their family, including an inability to assist family
members as well as the need to rearrange retirement
plans. See, e.g., Trial Tr. 135:6–9, 136:8–14 (Mr.
Matrumalo), 161:2–162:18 (Mr. Walsh), 180:12–19 (Mr.
Lynch), Nov. 9, 2015. For example, Mr. Greene credibly
testified that the suspension of the COLA had an
immediate financial impact on his family. See Trial Tr.
189:9–190:23, Nov. 9, 2015. Mr. Lynch testified that
the compounded COLA suspension impacted his ability
to pay for his children’s college education. See id. at
179:5–180:2. Although most testified that the annual
loss amount was nominal, the Court finds that the
evidence credibly demonstrated that the cumulative
impact to the individual was substantial. See id. at
137:20–138:7 (Mr. Matrumalo), 164:21–23 (Mr. Walsh),
180:12–19 (Mr. Lynch); see also Trial Tr. 27:25–28:3
(Mr. Galligan), 52:15–22 (Mr. Maccarone), Nov. 10,
2015; see also Cahill, 11 A.3d at 86 (holding that
reasonable inferences are entitled to the same weight
as factual determinations).
Buttressing the position that the loss was
substantial was the testimony of CPRAC’s expert,
William Fornia. Mr. Fornia rendered an opinion to a
reasonable degree of actuarial certainty that the loss to

App. 106
the retiree was material. See Trial Tr. 38:20–39:12,
42:17–43:4, Nov. 13, 2015 (Mr. Fornia); see also Exs.
91, 93. His testimony on the issue of impairment was
given weight.13
Therefore, CPRAC has established an especial
reliance on the 3% compounded COLA. See Spannaus,
438 U.S. at 246 (finding substantial impairment where
a party “relied heavily, and reasonably, on this
legitimate contractual expectation”); see also Welch v.
Brown, 551 F. App’x. 804, 810 (6th Cir. 2014) (finding
substantial impairment where “most of the Plaintiffs
live on fixed incomes, and the proposed changes are
material”). This reliance is considered by the Court to
be reasonable. See Arena, 919 A.2d at 395 (“[P]lantiffs
had a reasonable expectation at the time they retired
that they would receive a . . . compounded COLA that
would vest upon their retirement.”).
Accordingly, the Court finds that CPRAC has
demonstrated beyond a reasonable doubt that members
of CPRAC especially and reasonably relied on the 3%
compounded COLA. See Baltimore Teachers Union, 6
F.3d at 1018; see also Dowd, 655 A.2d at 681. As such,
the Court finds that the 2013 Ordinances constitute a
substantial impairment of the contract between

13

Mr. Fornia calculated the actual loss per retiree resulting from
the suspension of the compounded COLA to be $210,000. See Trial
Tr. 40:22–42:2, 42:17–43:4, 55:15–21, Nov. 13, 2015 (Mr. Fornia);
see also Ex. 91. However, this specific number was given little
weight because it was based upon assumptions related to the
consumer price index (CPI). See id. at 59:13–60:8. For instance, the
CPI is currently lower than 3%, and a lower CPI would affect the
outcome of the calculation. See id. at 60:9–61:4.

App. 107
members of CPRAC and the City. See, e.g., Buffalo
Teachers Fed’n, 464 F.3d at 368 (“Contract provisions
that set forth the levels at which union employees are
to be compensated are the most important elements of
a labor contract.”); see also Baltimore Teachers Union,
6 F.3d at 1018 n.8 (“[B]ecause individuals plan their
lives based upon their salaries, we would be reluctant
to hold that any decrease in an annual salary beyond
one that could fairly be termed de minimis could be
considered insubstantial.”).
3
Significant and Legitimate Public Purpose
Notwithstanding a finding of substantial
impairment, a contract modification remains
constitutionally valid if the City produces sufficient
credible evidence that the modification was done to
further a significant and legitimate public purpose and
if doing so was reasonable and necessary. See Buffalo
Teachers Fed’n, 464 F.3d at 368; see also
Nonnenmacher, 722 A.2d at 1202. CPRAC may rebut
the credible evidence by establishing beyond a
reasonable doubt that there was no significant and
legitimate public purpose behind the City’s actions. See
Donohue, 886 F. Supp. 2d at 160.
A significant and legitimate public purpose is “one
‘aimed at remedying an important general social or
economic problem rather than providing a benefit to
special interests.’” Buffalo Teachers Fed’n, 464 F.3d at
368 (quoting Sanitation and Recycling Indus. v. City of
N.Y., 107 F.3d 985, 993 (2d Cir. 1997)). It may not be
one “for the mere advantage of particular individuals

App. 108
. . . .” Blaisdell, 290 U.S. at 445. “‘[A]dressing a fiscal
emergency is a legitimate public interest’ however, ‘the
purpose may not be simply the financial benefit of the
sovereign.’” Kent v. N.Y., No. 1:11-CV-1533, 2012 WL
6024998, at *21 (N.D.N.Y. Dec. 4, 2012) (quoting
Buffalo Teachers Fed’n, 464 F.3d at 368). “Although
economic concerns can give rise to the City’s legitimate
use of the police power, such concerns must be related
to ‘unprecedented emergencies . . . .’” Am. Fed’n of
State, Cnty., and Mun. Emps. v. City of Benton, Ark.,
513 F.3d 874, 882 (8th Cir. 2008) (quoting Spannaus,
438 U.S. at 242).
Since the 3% compounded COLA was added in 1996,
the City pension system has faced a significant
unfunded liability. See Trial Tr. 100:13–101:4, Nov. 10,
2015 (Mayor Traficante). By 1999, the total unfunded
liability reached $169 million. See id. at 100:13–15.
Mayor Michael Traficante and Mayor John O’Leary
credibly testified that their respective administrations
were unable to address this crisis. See id. at 101:11–25
(Mayor Traficante), 120:8–21, 122:24–123:12 (Mayor
O’Leary).
The imposition of the compounded COLA alone did
not create the severe economic issues resulting in the
passage of the 2013 Ordinances. Rather, the City
pension system’s unfunded liability problems were
compounded by the Great Recession. The Great
Recession had far reaching and devastating economic
and general social consequences that affected the entire
City. Mayor Fung, as well as Mr. Strom, credibly
testified as to the seriousness of this fiscal emergency.
See Trial Tr. 10:23–12:1, 13:9–17, 19:25–20:3, 27:7–10,

App. 109
Nov. 12, 2015 (Mayor Fung); see also Trial Tr. 9:4–8,
10:3–10, 11:1–8, Nov. 13, 2015 (Mr. Strom). Their
testimony is given great weight. The Great Recession
resulted in profound devastation, including the
devaluation of the assessed values of property. See
Trial Tr. 13:9–17, 17:10–20, Nov. 12, 2015 (Mayor
Fung); see also Exs. YYY, ZZZ. The uncontroverted
evidence demonstrates that in Cranston the
devaluation amounted to more than one billion dollars
between 2008 and 2009. See Trial Tr. 13:9–17,
17:10–20, Nov. 12, 2015 (Mayor Fung); see also Exs.
YYY, ZZZ; see also William C. Burnham, Public
Pension Reform and the Contract Clause: A
Constitutional Protection for Rhode Island’s Sacrificial
Economic Lamb, 20 Roger Williams U. L. Rev. 523, 526
(2015) (“While every state felt the ripple effect of the
[Great Recession] . . . few were as dramatically
impacted as Rhode Island.”). In addition, two natural
disasters in March of 2010 cost the City in excess of
$1.4 million. See Trial Tr. 24:17–25:5, Nov. 12, 2015.
Moreover, state aid to the City decreased by over $18
million from fiscal year 2007 to fiscal year 2011. See id.
at 27:7–10; see also Exs. H, I, J, K, L. According to the
credible testimony of Mr. Strom, the decrease in state
aid between 2010 and 2011 created a nearly five
percent gap in the City’s budget. See Trial Tr. 14:5–12,
Nov. 13, 2015. As a result, the City’s general
obligations bonds were downgraded to a negative
outlook in 2010 and 2012 by Moody’s Investors
Services. See Trial Tr. 23:20–24:14, 27:25–28:14, Nov.
12, 2015 (Mayor Fung); see also Exs. R, X.
These events resulted in the unfunded accrued
liability of the City’s pension system increasing to $256

App. 110
million. See Trial Tr. 30:6–15, 39:5–21, Nov. 12, 2015
(Mayor Fung); see also Exs. U, Y. In addition, there
was only $35 million in assets. See Trial Tr. 30:6–15,
39:5–21, Nov. 12, 2015; see also Exs. U, Y. The
unfunded liability was estimated to increase to
approximately $271 million. See Trial Tr. 46:11–21,
Nov. 12, 2015; see also Ex. Y. The City pension system
was 16.9% funded. See Trial Tr. 61:16–20, Nov. 12,
2015.
Compounding that were the requirements imposed
upon the City pursuant to RIRSA. See id. at 5:22–6:5,
35:22–36:19, 85:16–86:8; see also Trial Tr. 17:13–18:5,
Nov. 13, 2015 (Mr. Strom); see also Ex. VVV. RIRSA’s
provisions were clear: any municipality designated as
being in critical status had to rectify the funding of its
pension system to at least sixty percent funded or that
municipality would face severe cuts in state aid. See
Trial Tr. 5:22–6:5, 35:22–36:19, 85:16–86:8, Nov. 12,
2015 (Mayor Fung); see also Ex. VVV. Plaintiff
characterized the twenty-year guideline for emerging
from critical status created by the Pension Study
Commission as “toothless.” This interpretation ignores
the clear language in the statute that threatens to
withhold funds for non-complying municipalities. See
Trial Tr. 85:16–86:8, 95:4–6, 102:17–25, Nov. 12, 2015
(Mayor Fung); see also Ex. VVV. The Pension Study
Commission produced the twenty-year guideline, and
the Pension Study Commission was also responsible for
reviewing and certifying that critical status
municipalities had created a “reasonable alternative
funding improvement plan to emerge from critical
status.” Sec. 45-65-6(2), Ex. VVV. It was reasonable for
the City to have believed that the twenty-year timeline

App. 111
was an important target. Indeed, City officials credibly
testified that they believed that the twenty-year
deadline was controlling. See Trial Tr. 85:16–86:8, Nov.
12, 2015 (Mayor Fung); see also Trial Tr. 17:13–18:5,
23:13–25, Nov. 13, 2015 (Mr. Strom); see also Ex. LL.
Furthermore, CPRAC President Mr. Gilkenson agreed
that it was in the best interest for the City to develop
a reasonable alternative funding improvement plan to
emerge from critical status. See Trial Tr. 61:2–18, Nov.
9, 2015 (Mr. Gilkenson). Mr. Gilkenson also agreed
that it is equally important to comply with state law.
See id. at 61:10–18; see also Ex. HHHH. With 16.9% of
its pension plan funded, the City was required to
undertake significant and painstaking actions to
comply with state law. See Trial Tr. 61:16–20,
85:16–86:8, Nov. 12, 2015 (Mayor Fung). The failure of
the City to do so would result in dire consequences.
CPRAC presented William Fornia in rebuttal to
discuss the issue of a significant and legitimate public
purpose. Mr. Fornia opined that the pension funding
problem was in large part the City’s own creation. See
Trial Tr. 46:9–47:19, Nov. 13, 2015 (Mr. Fornia); see
also Ex. 93. Mr. Fornia also opined that the City was
given clear information years ago that there was a
funding problem that needed to be addressed. See Trial
Tr. 25:2–11, 28:11–19, Nov. 17, 2015 (Mr. Fornia); see
also Ex. 93. Mr. Fornia’s testimony is given little
weight, and as a result, CPRAC has not established
beyond a reasonable doubt that the modification failed
to further a significant and legitimate purpose. Mr.
Fornia noted that the City’s historical underfunding of
the pension since 1999 created a $96 million
accumulated shortfall; however, he admitted that his

App. 112
calculations did not include fiscal years 2004 and 2007.
See Trial Tr. 81:1–82:2, Nov. 13, 2015 (Mr. Fornia); see
also Ex. 93. Furthermore, he conceded that by
excluding those two fiscal years, his calculations may
have double counted figures to some extent. See Trial
Tr. 85:10–88:14, Nov. 13, 2015. Indeed, the City’s
expert, Daniel Sherman, credibly testified and refuted
Mr. Fornia on the issue of the calculation of the
shortfall. See Trial Tr. 25:21–27:11, Nov. 17, 2015 (Mr.
Sherman); see also Exs. UUUU, VVVV. Mr. Sherman
opined that the shortfall was a much smaller
figure—$37.9 million. See Trial Tr. 25:21–27:11, Nov.
17, 2015 (Mr. Sherman); see also Exs. UUUU, VVVV.
In addition, Mr. Fornia acknowledged that his expert
opinion did not take into account the decline in state
aid or the decline in the City’s taxable property values
or levy, and therefore, he had no opinion as to whether
alternate courses of action would comply with RIRSA.
See Trial Tr. 68:10–25, 69:23–70:5, 95:22–25,
96:21–97:8, Nov. 17, 2015 (Mr. Fornia). These two
items were significant in the fiscal issues confronting
the City. Accordingly, the Court finds that CPRAC has
not rebutted the City’s credible evidence beyond a
reasonable doubt. See Donohue, 886 F. Supp. 2d at 160.
Rather, the Court is satisfied that the City has
produced sufficient credible evidence through the
testimony of Mayor Fung, Mr. Strom, and Mr. Sherman
that the Great Recession, the decline in state aid, and
RIRSA’s requirements created an unprecedented fiscal
emergency neither created nor anticipated by the City.
See Exs. HHHH, IIII; see also Buffalo Teachers Fed’n,
464 F.3d at 368 (finding a legitimate public purpose in
actions attempting to remedy a fiscal crisis); see also

App. 113
Donohue v. Paterson, 715 F. Supp. 2d 306, 320
(N.D.N.Y. 2010) (“Broadly speaking, a [] government’s
interest in addressing a fiscal emergency constitutes a
legitimate public interest.”). Additionally, there is no
indication that the 2013 Ordinances sought to benefit
one particular group or individual over others. See
Blaisdell, 290 U.S. at 445. Rather, the 2013 Ordinances
sought to remedy the fiscal emergency and keep at bay
threatened cuts in state aid which would inexorably
worsen the fiscal situation. See Buffalo Teachers Fed’n,
464 F.3d at 369 (“[T]he legislature passed the law ‘for
the protection of a basic interest of society.’”) (quoting
Blaisdell, 290 U.S. at 445). As such, the Court finds
that the City presented sufficient credible evidence
that the 2013 Ordinances were passed for a significant
and legitimate public purpose.
4
Reasonable and Necessary
The Court’s inquiry continues to ensure that the
2013 Ordinances are “specifically tailored to ‘meet the
societal ill [they are] supposedly designed to
ameliorate.’” Kent, 2012 WL 6024998, at *21 (quoting
Spannaus, 438 U.S. at 243). Essentially, this next step
“reads like a form of intermediate scrutiny.” Jack M.
Beermann, The Public Pension Crisis, 70 Wash. & Lee
L. Rev. 3, 48 (2013). The “reasonable and necessary”
analysis “involves a consideration of whether the
adjustment of the rights and responsibilities of
contracting parties is based upon reasonable conditions
and is of a character appropriate to the public purpose
justifying the legislation’s adoption.” Id.

App. 114
Crucial to this analysis is the level of judicial
deference afforded to a state, and thus a municipality,
in establishing that the statute was reasonable and
necessary. See Buffalo Teachers Fed’n, 464 F.3d at 369.
When a state law impairs a private contract, the state
is accorded substantial deference. See Baltimore
Teachers Union, 6 F.3d at 1018. Notwithstanding,
public contracts are scrutinized by a heightened level
of judicial inquiry. See id. Indeed, “complete deference
to a legislative assessment of reasonableness and
necessity is not appropriate because the State’s selfinterest is at stake.” U.S. Trust Co., 431 U.S. at 26.
Providing complete deference to a state on a public
contract would eviscerate the meaning of the contract
clause. See Spannaus, 438 U.S. at 242 (“If the Contract
Clause is to retain any meaning at all, however, it must
be understood to impose some limits upon the power of
a State to abridge existing contractual relationships
. . . .”). Municipalities, as subdivisions of the state, are
treated as states in contract clause jurisprudence. See
Nonnenmacher, 722 A.2d at 1202 (citing N. Pac. Ry.
Co. v. Minn. ex rel. Duluth, 208 U.S. 583, 590 (1908)).
This case involves a public contract, and therefore, the
Court will afford the City less deference.
However, “less deference does not imply no
deference.” Buffalo Teachers Fed’n, 464 F.3d at 370.
The discerning lens applicable here “does not require
courts to reexamine all of the factors underlying the
legislation at issue and to make a de novo
determination whether another alternative would have
constituted a better statutory solution to a given
problem.” Id. Surely, this Court will not revert to the
strict scrutiny employed during the Lochner era. See

App. 115
Lochner v. N.Y., 198 U.S. 45 (1905), overruled; see DayBrite Lighting, Inc. v. State of Mo., 342 U.S. 421 (1952);
see also Laurence H. Tribe, Constitutional Choices 182
(1985) (arguing that heightened scrutiny under the
contract clause is a reversion to Lochner-era ideology).
Rather, this Court will use “less deference scrutiny”
in evaluating the City’s position that the legislation
was reasonable and necessary. See Buffalo Teachers
Fed’n, 464 F.3d at 371 (utilizing “less deference
scrutiny” to assess whether the state’s impairment of
the contract was reasonable and necessary). To prove
that the legislation was reasonable and necessary, the
City must make a sufficient showing of credible
evidence on three criteria: that it “did not (1) ‘consider
impairing the . . . contracts on par with other policy
alternatives’ or (2) ‘impose a drastic impairment when
an evident and more moderate course would serve its
purpose equally well,’ nor (3) act unreasonably ‘in light
of the surrounding circumstances.’” Buffalo Teachers
Fed’n, 464 F.3d at 371 (quoting U.S. Trust Co., 431
U.S. at 30–31).
a
Other Policy Alternatives
The Fourth Circuit noted:
“[i]t is not enough to reason . . . that [t]he
City could have shifted the burden from
another governmental program or that it
could have raised taxes . . . [w]ere these
the proper criteria, no impairment of a
governmental contract could ever survive
constitutional scrutiny . . . .” Baltimore

App. 116
Teachers Union, 6 F.3d at 1019–20
(internal quotations omitted) (emphasis
in original).
Indeed, as a means of determining reasonableness of a
government action, the subject action must have been
imposed “only after other alternatives had been
considered and tried.” Buffalo Teachers Fed’n, 464 F.3d
at 371. Such efforts must be genuine and not merely for
“political expediency.” Ass’n of Surrogates & Supreme
Court Reporters v. State of N.Y., 940 F.2d 766, 773 (2d
Cir. 1991).
Here, the City presented sufficient credible evidence
that it adequately considered and tried other policy
alternatives. Mayor Fung credibly testified to the
significant cuts in City spending he pursued before
enacting the 2013 Ordinances. See Trial Tr. 12:8–19,
70:20–73:15, Nov. 12, 2015 (Mayor Fung); see also Ex.
JJ. In 2009, Mayor Fung implemented cuts to
personnel in his own office, a multi-year pay freeze for
City employees, and a plan to reduce energy costs. See
Trial Tr. 12:8–19, 70:20–73:15, Nov. 12, 2015. In
addition, he credibly testified to the effect on the City
in the event that there was an elimination of City
services to fill the $14 million shortfall in ARC funding.
See id. at 57:3–58:15. The result was described as
decimating City services. See id. If $14 million were
cut, parks and recreation services, emergency services,
library services, and trash services would be
eliminated. See id. The impact to the citizens of the
City would encompass not only the elimination of the
services but also a substantial reduction in federal aid.

App. 117
See id. These services are critical for a livable and safe
City.
The Court gives great weight to Mayor Fung and
Mr. Strom’s repeated statements that City residents
were already overtaxed and overburdened. See id. at
59:2–5, 76:13–23, 80:11–15 (Mayor Fung); see Trial Tr.
18:6–16, Nov. 13, 2015 (Mr. Strom). Increased taxation,
as CPRAC suggests, was not a feasible option. See
Buffalo Teachers Fed’n, 464 F.3d at 372 (“[I]t is always
the case that to meet a fiscal emergency taxes
conceivably may be raised. It cannot be the case,
however, that a legislature’s only response to a fiscal
emergency is to raise taxes.”). Indeed, the City raised
taxes at least fifteen times between 1985 and 2013,
with tax increases every year between 2009 and 2012.
See Trial Tr. 74:13–25, 76:13–16, 130:9–14, Nov. 12,
2015 (Mayor Fung); see also Ex. XXX. Moreover, with
the property tax cap imposed on municipalities, the
City could not look only to taxpayers to increase
revenue. See Trial Tr. 37:10–23, Nov. 13, 2015 (Mr.
Strom); see also Buffalo Teachers Fed’n, 464 F.3d at
372 (“[D]efendant ha[s] shown that [the City] had
already increased City taxes to meet its fiscal needs,
and it is reasonable to believe that any additional
increase would have further exacerbated [the City’s]
financial condition.”).
Furthermore, numerous credible witnesses testified
to the other alternatives considered by the City. See
Trial Tr. 89:1–11, 94:9–15, 112:6–11, Nov. 12, 2015
(Mayor Fung); see also Trial Tr. 14:19–15:17, Nov. 17,
2015 (Mr. Valletta); see also Trial Tr. 25:25–26:11, Nov.
13, 2015 (Mr. Strom); see also Exs. MM, QQ, XX, ZZ,

App. 118
AAA, DDD. Specifically, Mayor Fung presented four
options for consideration at a meeting of the Cranston
City Council Finance Committee on October 25, 2012.
See Trial Tr. 93:19–94:24, Nov. 12, 2015 (Mayor Fung);
see also Ex. MM. On November 11, 2012, Mayor Fung
sent a letter to the Pension Study Commission
containing four options for emerging from critical
status. See Trial Tr. 98:9–19, Nov. 12, 2015 (Mayor
Fung); see also Ex. QQ. Over twenty different scenarios
were shared with retirees at open meetings on
September 13, 2012; January 11, 2013; January 29,
2013; February 14, 2013; February 26, 2013; March 4,
2013; and March 8, 2013. See Trial Tr. 108:17–109:11,
Nov. 12, 2015 (Mayor Fung); see also Exs. TT, XX, ZZ,
AAA, DDD, III. Paul Valletta Jr., President of the local
IAFF, discussed numerous options with the City,
including further tax increases, a pay freeze, selling
buildings, and closing fire stations. See Trial Tr.
13:4–15:17, Nov. 17, 2015 (Mr. Valletta). Mr. Strom
considered over thirty scenarios with consultants from
Buck Consulting to more sustainably fund the City
pension system. See Trial Tr. 25:25–26:11, Nov. 13,
2015 (Mr. Strom). Indeed, the fact that the 2013
Ordinances were not considered until 2012—years
after the fiscal crisis brought on by the Great
Recession, after the City was designed as critical status
under RIRSA, and after Mayor Fung pulled his initial
proposed ordinances to negotiate with the City pension
system’s participants and beneficiaries—demonstrates
that the 3% compounded COLA suspension was
genuinely a last resort measure. See Trial Tr. 104:1–12,
Nov. 12, 2015 (Mayor Fung); see also Trial Tr.
27:15–23, Nov. 13, 2015 (Mayor Fung); see also Buffalo
Teachers Fed’n, 464 F.3d at 371 (finding the

App. 119
government’s actions reasonable and necessary in part
because it was “a last resort measure”). The Court
therefore finds that the City presented sufficient
credible evidence that it did consider other policy
alternatives on par with the chosen course of action.
b
More Moderate Course Available
The government action is also examined to
determine whether or not a more moderate course was
available. See, e.g., Buffalo Teachers Fed’n, 464 F.3d at
371. In analyzing this factor, courts have looked to
whether the government action was “no greater than []
necessary” to remedy the problem, impaired only a
portion of the contractual obligation, or was less drastic
than at least one alternative. See Baltimore Teachers
Union, 6 F.3d at 1020.
The City presented sufficient credible evidence that
a more moderate course was not available. First, the
government action was narrowly tailored to remedy the
problem. Id. The City’s expert, Mr. Sherman, credibly
testified that lowering the 3% compounded COLA to
one percent compounded or two percent compounded,
as opposed to suspending it, would not have complied
with RIRSA. See Trial Tr. 28:19–30:3, 30:8–31:3, Nov.
17, 2015 (Mr. Sherman); see also Exs. WWWW, XXXX.
Additionally, there is no indication that by suspending
the 3% compounded COLA for ten years, the 2013
Ordinances over-remedied the situation; Mr. Sherman
testified that the plan ultimately pursued by the City
does not actually get the City out of critical status until
2038, several years after the twenty-year deadline. See

App. 120
Trial Tr. 42:4–9, 45:18–20, Nov. 17, 2015 (Mr.
Sherman); see also Ex. JJJJ.
Furthermore, the 2013 Ordinances impaired only a
portion of the contractual obligation. See Baltimore
Teachers Union, 6 F.3d at 1020. Without minimizing
the impact the 2013 Ordinances have on members of
CPRAC, the Court notes that the 2013 Ordinances did
not modify the pension base payment, the health
benefits, or other aspects of the pension, only affecting
the 3% compounded COLA for a temporary period. See
Trial Tr. 115:17–116:3, Nov. 12, 2015 (Mayor Fung);
see also Baltimore Teachers Union, 6 F.3d at 1020
(finding only a portion of the contractual obligation
modified where “the plan did not alter pay-dependent
benefits, overtime pay, hourly rates of pay, or the
orientation of pay scales”) (citing U.S. Trust Co., 431
U.S. at 27).
Moreover, the ten-year suspension of the 3%
compounded COLA was less drastic than numerous
alternatives. See Baltimore Teachers Union, 6 F.3d at
1020. Other more drastic alternatives—such as cutting
the pension base payments or suspending the 3%
compounded COLA indefinitely—were not pursued. See
Trial Tr. 28:19–30:3, 30:20–31:3, Nov. 17, 2015 (Mr.
Sherman); see also Baltimore Teachers Union, 6 F.3d
at 1020 (“Indeed, the plan was less drastic than at least
one alternative, additional layoffs, which could have
been more detrimental to appellees.”).
CPRAC’s expert, Mr. Fornia, opined that the City
did not choose the least drastic alternative in
suspending the 3% compounded COLA for ten years.
See Trial Tr. 42:8–43:12, Nov. 17, 2015 (Mr. Fornia);

App. 121
see also Ex. 93. Without calculating the impact of any
plausible alternatives, Mr. Fornia opined that the City
could have done something different in its spending to
achieve the required savings. See Trial Tr. 42:15–24,
94:13–95:21, 97:9–22, 107:15–108:6, Nov. 17, 2015; see
also Ex. 93. The Court does not give this testimony
weight. Mr. Fornia’s opinion did not consider the
feasibility of raising taxes, the decline in state aid, or
RIRSA’s requirements. See Trial Tr. 70:6–22, 68:1–25,
95:22–25, 96:21–97:8, Nov. 17, 2015. As such, this
opinion is unsupported. See Baltimore Teachers Union,
6 F.3d at 1019 (“It is not enough to reason . . . that [t]he
City could have shifted the burden from another
governmental program . . . .”) (internal quotations
omitted) (emphasis in original). Rather, the Court finds
credible the corroborated testimony of Mayor Fung, Mr.
Strom, and Mr. Sherman that a more moderate course
was not available given the unprecedented fiscal
emergency and RIRSA’s requirements. See Trial Tr.
27:15–23, Nov. 13, 2015 (Mayor Fung); see also Trial
Tr. 18:6–16, Nov. 13, 2015 (Mr. Strom); see also Trial
Tr. 28:19–30:3, 30:20–31:3, Nov. 17, 2015 (Mr.
Sherman).
Therefore, the Court finds that the City presented
sufficient credible evidence that “the City clearly
sought to tailor the plan as narrowly as possible” to
address the City’s fiscal crises. Baltimore Teachers
Union, 6 F.3d at 1020. The Court is satisfied that the
City did not “‘impose a drastic impairment when an
evident and more moderate course would serve its
purpose equally well . . . .’” Buffalo Teachers Fed’n, 464
F.3d at 371 (quoting U.S. Trust Co., 431 U.S. at 30–31).

App. 122
c
Acting Reasonably in Light of Surrounding
Circumstances
The last consideration in determining whether the
challenged government action was reasonable and
necessary is whether the government acted reasonably
in light of surrounding circumstances. Buffalo Teachers
Fed’n, 464 F.3d at 371 (quoting U.S. Trust Co., 431
U.S. at 30–31). The Supreme Court has noted that
“[t]he extent of impairment is certainly a relevant
factor in determining its reasonableness.” U.S. Trust
Co., 431 U.S. at 27. Additionally, “the existence of an
emergency and the limited duration of a relief measure
are factors to be assessed in determining the
reasonableness of an impairment . . . .” Id. at 22 n.19;
see also Energy Reserves Grp., Inc., 459 U.S. at 418–19
(finding contractual impairment justified where
regulation is temporary). Courts have also found
impairments reasonable if they operate prospectively.
See Buffalo Teachers Fed’n, 464 F.3d at 371–72.
Here, the City demonstrated through credible
evidence that the 2013 Ordinances were circumscribed,
temporary, precipitated by a fiscal emergency, and
prospective. See U.S. Trust Co., 431 U.S. at 22 n.19, 27,
30–31; see also Buffalo Teachers Fed’n, 464 F.3d at
371–72. As noted, the 2013 Ordinances affect only the
3% compounded COLA and leave intact all other
components of the pension. See Trial Tr. 115:17–116:3,
Nov. 12, 2015 (Mayor Fung); see also Exs. HHHH, IIII;
see also U.S. Trust Co., 431 U.S. at 27. The 2013
Ordinances are also a temporary ten-year suspension.
See Trial Tr. 101:1–7, 116:17–117:1, Nov. 12, 2015

App. 123
(Mayor Fung); see also Exs. HHHH, IIII; see also U.S.
Trust Co., 431 U.S. at 23 n.19. The Court has already
noted that the City acted in response to an
unprecedented fiscal emergency. See Trial Tr. 13:9–17,
27:7–10, 85:16–86:8, 95:4–6, Nov. 12, 2015 (Mayor
Fung); see also Trial Tr. 9:4–8, 10:3–10, 11:1–4, Nov.
13, 2015 (Mr. Strom). Additionally, the 2013
Ordinances operate prospectively, only impairing
future compounded COLAs. See Trial Tr. 101:1–7,
116:17–117:1, Nov. 12, 2015 (Mayor Fung); see also
Exs. HHHH, IIII; see also Buffalo Teachers Fed’n, 464
F.3d at 372 (finding impairment reasonable where
“[t]he impairment [] does not affect past salary due for
labor already rendered or money invested. It only
suspends temporarily the two percent increase in
salary for services to be rendered.”).
CPRAC, in its post-trial memorandum, relies
heavily on the recent Rhode Island Superior Court
case, Hebert, to argue that the 2013 Ordinances were
not reasonable in light of the surrounding
circumstances.14 See Hebert v. City of Woonsocket, No.
PC-2013-3287, 2016 WL 493215, at *1 (R.I. Super. Feb.
4, 2016). The Court is mindful that the quantum of
proof necessary to prove or disprove a violation of the
contract clause is considerable. As a result, cases
involving contract clause claims are fact-intensive and
fact-specific. See Stephen F. Belfort, Unilateral
Alteration of Public Sector Collective Bargaining
Agreements and the Contract Clause, 59 Buff. J. Int’l
L. 1 (2011) (“Contract clause analysis under the United
14

As a Superior Court case, Hebert does not operate as binding
authority on this Court.

App. 124
States Trust [Co.] standard is a fact-intensive
endeavor.”).
CPRAC’s reliance on Hebert is misplaced. Hebert
concerned the City of Woonsocket’s unilateral
alteration of health insurance for retired police officers.
Hebert, 2016 WL 493215, at *1–5. The Hebert Court
found that the extreme modification of the health
insurance of retired police officers was likely a violation
of the contract clause of the Rhode Island Constitution.
See id. at *15. Unlike the instant matter, Hebert was
decided at the preliminary injunction stage, a
procedural posture that requires a different, and more
relaxed, standard of review than a decision following a
bench trial. See id. at *1; see also Iggy’s Doughboys,
Inc. v. Giroux, 729 A.2d 701, 705 (R.I. 1999) (holding
that a preliminary injunction requires a “reasonable
likelihood of success on the merits”); cf. Parella, 899
A.2d at 1239 (holding that after a bench trial the trial
justice sits as the trier of fact as well as of law).
Additionally, Hebert concerned the City of
Woonsocket’s “indefinite” unilateral alteration of health
insurance for retired police officers, distinguishable
from the temporary 3% compounded COLA suspension
here. See Hebert, 2016 WL 493215, at *9. Furthermore,
the City of Woonsocket based its authority to act on the
Fiscal Stability Act, § 45-9-1. The Court in Hebert
found that the Fiscal Stability Act did not “provide the
authority for . . . the City of Woonsocket to avoid the[ir]
binding contractual obligations.” Id. at *15. Here, the
Fiscal Stability Act is not at issue, and the City does
not base its authority to act solely on RIRSA. As such,
the instant matter is not analogous to Hebert.

App. 125
The Court is satisfied—”[i]n light of the magnitude
and timing of the [] cuts in state funding that prompted
the City’s [2013 Ordinances], . . . the City’s concerted
efforts to exhaust numerous alternative courses of cost
reduction before resorting to the challenged reductions,
[and] the circumscribed nature of the [] plan . . .”—that
the 2013 Ordinances were reasonable under the
circumstances. Baltimore Teachers Union, 6 F.3d at
1022. Indeed, CPRAC concedes that it is in the best
interest of the residents, employees, and retirees of the
City to maintain a viable and sustainable pension
system. See Trial Tr. 61:2–18, Nov. 9, 2015 (Mr.
Gilkenson); see also Ex. HHHH. The Court “find[s] no
need to second-guess the wisdom of picking the [tenyear compounded COLA suspension] over other policy
alternatives . . . .” Buffalo Teachers Fed’n, 464 F.3d at
372 (citing Blaisdell, 290 U.S. at 447–48 (“Whether the
legislation is wise or unwise as a matter of policy is a
question with which we are not concerned.”)).
Accordingly, the Court finds that the City presented
sufficient credible evidence that the 2013 Ordinances
were reasonable and necessary. See Buffalo Teachers
Fed’n, 464 F.3d at 371; see also U.S. Trust Co., 431
U.S. at 22. The Court also finds that CPRAC has not
rebutted this credible evidence beyond a reasonable
doubt. See Donohue, 886 F. Supp. 2d at 160. The
Court’s conclusion comports with federal case law. See
Ronald D. Rotunda, John E. Nowak, Treatise of
Constitutional Law: Substance and Procedure (5th ed.
2012) § 15.8 (“Within the last 100 years, however, the
[Supreme] Court rarely has relied on the [Contract]
Clause as a reason to invalidate state legislation which
retroactively affected contractual rights or

App. 126
obligations.”). As such, the 2013 Ordinances do not
violate the contract clauses of either the Rhode Island
or United States Constitutions.15
B
Breach of Contract
Having ruled on CPRAC’s contract clause claim, the
Court now turns to CPRAC’s breach of contract claim.
Even assuming, arguendo, that the Court did not find
the 2013 Ordinances justified, CPRAC’s breach of
contract claim fails because CPRAC lacks
organizational standing to bring the claim.
The City raised CPRAC’s lack of standing as an
affirmative defense in its answer. See Answer at 9. The
City notes that the CPRAC itself did not have any
contract with the City and that CPRAC failed to
present sufficient evidence setting forth the identity of
the CPRAC’s members or whether each of CPRAC’s
members has a contract with the City. CPRAC
maintains that it has standing to bring its breach of
contract claim. Because the question of whether the
CPRAC had a contract with the City is “a threshold
inquiry into whether the party seeking relief is entitled
to bring suit[,]” the Court will treat the argument as a

15

Following the non-jury trial of this case, the Court elects to make
its findings of fact and conclusions of law and render judgment
under Rule 52(a). It would reach the same conclusion were it to
decide the case as a matter of law pursuant to Rule 52(c). See
Broadley, 939 A.2d at 1021 (noting that Rule 52(c) and Rule 52(a)
motions require the same standard of review).

App. 127
standing inquiry. Narragansett Indian Tribe v. State,
81 A.3d 1106, 1110 (R.I. 2014).16
“Standing is an access barrier that calls for the
assessment of one’s credentials to bring suit.”
Blackstone Valley Chamber of Commerce v. Pub. Utils.
Comm’n, 452 A.2d 931, 932 (R.I. 1982). Accordingly,
standing is a threshold inquiry that this Court must
consider before reaching the merits of the claim. See id.
at 933. As the Rhode Island Supreme Court has noted,
“[t]he essence of the question of standing is whether
the party seeking relief has alleged such a personal
stake in the outcome of the controversy as to ensure
concrete adverseness that sharpens the presentation of
the issues upon which the court depends for an
illumination of the questions presented.” Id. (citing
Baker v. Carr, 369 U.S. 186, 204 (1962)). A party must
demonstrate an invasion of a legally protected interest
which is (1) concrete and particularized and (2) actual
or imminent, not hypothetical or conjectural. See
Pontbriand v. Sundlun, 699 A.2d 856, 862 (R.I. 1997).

16

In its January 27, 2014 Bench Decision, the Court previously
addressed the issue of organizational standing with respect to
CPRAC’s constitutional claims, civil rights claim, and breach of
fiduciary duty claim. See Cranston Police Rets. Action Comm. v.
The City of Cranston, et al., KC-2013-1059, Bench Decision, Jan.
27, 2014. There, the Court found that CPRAC had organizational
standing to pursue its contract clause, takings clause, and facially
unconstitutional claims but lacked organizational standing to
pursue its civil rights and breach of fiduciary duty claims. See
Trial Tr. 7:18–19; 13:14–20; 15:7–16:12, Jan. 27, 2014. The Court
did not address CPRAC’s standing to bring its breach of contract
claim. See id.

App. 128
This requirement of a personalized injury does not
act as a wholesale bar to organizations bringing claims
on behalf of their members; organizational standing
may be found where three factors are met: (1) “‘when
[the organization’s] members would otherwise have
standing to sue in their own right[;]’” (2) when “‘the
interests at stake are germane to the organization’s
purpose[;]’” and (3) when “‘neither the claim asserted
nor the relief requested require the participation of
individual members in the lawsuit.’” In re Town of New
Shoreham Project, 19 A.3d 1226, 1227 (R.I. 2011)
(mem.) (quoting Friends of the Earth, Inc. v. Laidlaw
Envtl. Servs. (TOC), Inc., 528 U.S. 167, 181 (2000)); see
also Hunt v. Wash. State Apple Adver. Comm’n, 432
U.S. 333, 343 (1977) (articulating identical test for
federal organizational standing).17 Importantly, a party
must demonstrate standing for each claim sought. See
Blackstone Valley Chamber of Commerce, 452 A.2d at
932–33; see also Baur v. Veneman, 352 F.3d 625, 641
n.15 (2d Cir. 2003).
17

Although the state and federal tests for organizational standing
employ identical language, they differ in premise in that the
federal test stems from Article III of the United States
Constitution. See Lujan v. Defenders of Wildlife, 504 U.S. 555,
559–60 (1992). However, given that the language of the two tests
is identical, “[w]hen our own . . . case law [is] silent on a particular
issue, ‘[i]t makes eminent good sense to consider the experience
and the reasoning of the judges in other jurisdictions . . . .’” Kedy
v. A.W. Chesterton Co., 946 A.2d 1171, 1182 (R.I. 2008) (quoting
Ciunci, Inc. v. Logan, 652 A.2d 961, 962 (R.I. 1995)). The Court
also notes that the Rhode Island Supreme Court articulated the
state organizational standing test by quoting federal case law. See
In re Town of New Shoreham Project, 19 A.3d at 1227 (quoting
Friends of the Earth, Inc., 528 U.S. at 181). As such, the Court will
look to federal case law for guidance.

App. 129
The first prong of the organizational standing
test—whether the organization’s members have
standing to sue in their own right—is evaluated by
examining the injury in fact to the individual members
of the organization. See 13A Fed. Prac. & Proc. Juris.
§ 3531.9.5 Rights of Others–Organizational Standing
(3d ed. 2016) (“Standing is regularly recognized once
member injury is shown.”). Importantly, “‘[t]he line is
not between a substantial injury and an insubstantial
injury. The line is between injury and no injury.’”
Pontbriand, 699 A.2d at 862 (quoting Matunuck Beach
Hotel, Inc. v. Sheldon, 121 R.I. 386, 396, 399 A.2d 489,
494 (1979)).
Here, members of CPRAC have presented evidence
of a current, concrete, and particularized injury. See id.
Members of CPRAC testified that the passage of the
2013 Ordinances suspended their 3% compounded
COLAs for a period of ten years. See Trial Tr. at
9:24–10:19. 11:5–6, 12:7–13:1, Nov. 9, 2015 (Mr.
Gilkenson). For example, Mr. Matrumalo testified that
the loss of his 3% compounded COLA was
approximately $2200 in 2013. See id. at 137:20–138:7
(Mr. Matrumalo). The Court therefore finds that
members of CPRAC have established injury in fact and
thus have standing to sue in their own right.
Accordingly, CPRAC has met the first prong of the
organizational standing test. See In re Town of New
Shoreham Project, 19 A.3d at 1227.
The second prong of the organizational standing
test—whether the suit is germane to the organization’s
purpose—“addresses the basic justification for
organizational standing to represent members’

App. 130
interests.” 13A Fed. Prac. & Proc. Juris. § 3531.9.5
Rights of Others–Organizational Standing (3d ed.
2016). Courts have noted that “[t]oo restrictive a
reading of the [germane] requirement would undercut
the interest of members who join an organization in
order to effectuate ‘an effective vehicle for vindicating
interests that they share with others.’” Humane Soc’y
of the U.S. v. Hodel, 840 F.2d 45, 56 (D.C. Cir. 1988)
(quoting Int’l Union, United Auto., Aerospace, and
Agric. Implement Workers of Am. v. Brock, 477 U.S.
274, 275–76 (1986)). Indeed, “[g]ermaness is often
found without difficulty.” 13A Fed. Prac. & Proc. Juris.
§ 3531.9.5 Rights of Others–Organizational Standing
(3d ed. 2016). The Court must only find that the
“lawsuit would, if successful, reasonably tend to further
the general interests that individual members sought
to vindicate in joining the association and whether the
lawsuit bears a reasonable connection to the
association’s knowledge and experience.” Bldg. and
Constr. Trades Council of Buffalo, N.Y. and Vicinity v.
Downtown Dev., Inc., 448 F.3d 138, 149 (2d Cir. 2006).
The Court has little trouble concluding that the
present lawsuit is germane to the CPRAC’s purpose.
All members of CPRAC opted out of the Settlement
Agreement and did so because they believed that the
City had an obligation to pay the 3% compounded
COLA. See Trial Tr. 9:24–10:19, 11:5–6, 12:7–13:1,
Nov. 9, 2015 (Mr. Gilkenson). The CPRAC was
specifically formed to fight the 2013 Ordinances. See id.
at 9:24–10:19. The present lawsuit thus clearly
furthers the organization’s purpose. See Bldg. and
Constr. Trades Council of Buffalo, N.Y. and Vicinity,
448 F.3d at 149. As such, the Court finds that CPRAC

App. 131
has met the second prong of the organizational
standing test. In re Town of New Shoreham Project, 19
A.3d at 1227.
The third prong of the organizational standing test
“asks whether individual participation is required by
the nature of the underlying claim[.]” 13A Fed. Prac. &
Proc. Juris. § 3531.9.5 Rights of Others–Organizational
Standing (3d ed. 2016). The United States Supreme
Court has held that “so long as the nature of the claim
. . . does not make the individual participation of each
injured party indispensable to proper resolution of the
cause, the association may be an appropriate
representative of its members, entitled to invoke the
court’s jurisdiction.” Warth v. Seldin, 422 U.S. 490, 511
(1975); see also Hunt, 432 U.S. at 343; see also Brock,
477 U.S. at 275–76. This prong is not met in “situations
in which it is necessary to establish ‘individualized
proof[.]’” Retired Chicago Police Ass’n v. City of
Chicago, 7 F.3d 584, 602 (7th Cir. 1993) (quoting Hunt,
432 U.S. at 344); see also Mid-Hudson Catskill Rural
Migrant Ministry, Inc. v. Fine Host Corp., 418 F.3d
168, 174 (2d Cir. 2005) (“[A] plaintiff normally lacks
associational standing to sue on behalf of its members
where ‘the fact and extent of injury would require
individualized proof.’”) (quoting Bano v. Union Carbide
Corp., 361 F.3d 696, 714 (2d Cir. 2004)). Such
individualized proof is commonly found in cases
seeking damages. See Warth, 422 U.S. at 515 (finding
no organizational standing where “damages claims are
not common to the entire membership, nor shared by
all in equal degree” and where “whatever injury may
have been suffered is peculiar to the individual member
concerned[.]”). Additionally, “[s]ome substantive claims

App. 132
may seem inherently so personal that individual
participation should be required simply because of the
nature of the claim.” 13A Fed. Prac. & Proc. Juris.
§ 3531.9.5 Rights of Others–Organizational Standing
(3d ed. 2016).
The Court must therefore consider the nature of
CPRAC’s breach of contract claim. See In re Town of
New Shoreham Project, 19 A.3d at 1227. A breach of
contract claim is distinct from a constitutional contract
clause claim in that a breach of contract claim requires
“‘the availability of a remedy in damages.’” See TM
Park Ave. Assocs. v. Pataki, 214 F.3d 344, 349 (2d Cir.
2000) (quoting E&E Hauling, Inc. v. Forest Preserve
Dist. of Du Page Cnty., III, 613 F.2d 675, 679 (7th Cir.
1980)); see also Horwitz-Matthews, Inc. v. City of
Chicago, 78 F.3d 1248, 1251 (7th Cir. 1996) (“The
essence . . . of a breach of contract is that it triggers a
duty to pay damages . . . .”). A breach of contract claim
requires CPRAC to prove the following elements: “a
valid contract between the parties; the plaintiffs’
performance under the contract; the defendant’s
nonperformance; and resulting damages.” See 17B
C.J.S. Contracts § 824; see also Petrarca v. Fidelity and
Cas. Ins. Co., 884 A.2d 406, 410 (R.I. 2005).
Importantly, CPRAC must prove the damages “‘with a
reasonable degree of certainty, and [] [CPRAC] must
establish reasonably precise figures and cannot rely
upon speculation.’” Guzman v. Jan-Pro Cleaning Sys.,
Inc., 839 A.2d 504, 508 (R.I. 2003) (quoting Mktg.
Design Source, Inc. v. Pranda N. Am., Inc., 799 A.2d
267, 273 (R.I. 2002)).

App. 133
Therefore, the nature of CPRAC’s breach of contract
claim requires individualized proof of damages. See
Guzman, 839 A.2d at 508; see also Sanner v. Bd. of
Trade of City of Chicago, 62 F.3d 918, 923 (7th Cir.
1995) (“Such a suit would apparently require the
calculation of damages for each of the individual
[members of CPRAC].”); see also 13A Fed. Prac. & Proc.
Juris. § 3531.9.5 Rights of Others–Organizational
Standing (3d ed. 2016) (“[The] calculation of damages
requires proof of the extent of individual injuries.”).
The ten-year suspension of the 3% compounded COLA
impacted every member of CPRAC differently. See
Trial Tr. 137:20–138:7 (Mr. Matrumalo) (estimating
yearly loss of the 3% compounded COLA to be $2200),
164:21–23 (Mr. Walsh) ($1500), Nov. 9, 2015; see also
Trial Tr. 27:25–28:3 (Mr. Galligan) ($1000), 52:15–22
(Mr. Maccarone) ($1200), Nov. 10, 2015. Thus, the
damages sustained from the breach of contract are “not
common to the entire membership, nor shared by all in
equal degree . . . .” Warth, 422 U.S. at 515. Indeed,
“whatever injury may have been suffered is peculiar to
the individual member concerned, and both the fact
and extent of injury would require individualized
proof.” Id. at 515–16.
As such, CPRAC’s breach of contract claim “make[s]
the individual participation of each injured party
indispensable to proper resolution of the cause[.]” Id. at
511. Therefore, CPRAC cannot satisfy the third prong
of the organizational standing test for its breach of
contract claim. See In re Town of New Shoreham
Project, 19 A.3d at 1227. Accordingly, the Court finds
that CPRAC lacks standing to bring its breach of
contract claim, and therefore, the Court need not reach

App. 134
the merits of CPRAC’s breach of contract claim. See
Blackstone Valley Chamber of Commerce, 452 A.2d at
934 (“As we conclude that [] [CPRAC] lacks standing to
maintain this action, we do not reach any other
questions raised by the petition.”).
C
Injunction
The decision to grant or deny injunctive relief rests
within the sound discretion of the trial justice. See
Cullen v. Tarini, 15 A.3d 968, 981 (R.I. 2011). The
moving party must “‘demonstrate that it stands to
suffer some irreparable harm that is presently
threatened or imminent and for which no adequate
legal remedy exists to restore that plaintiff to its
rightful position.’” Nye v. Brousseau, 992 A.2d 1002,
1010 (R.I. 2010) (quoting Nat’l Lumber & Bldg.
Materials Co. v. Langevin, 798 A.2d 429, 434 (R.I.
2002)). To grant a permanent injunction, the Court
must find that (1) the plaintiff demonstrates success on
the merits; (2) the plaintiff will suffer irreparable harm
if the injunction is not granted; and (3) a balance of the
equities and hardships, including the public interest,
weighs in favor of the plaintiff. See Nat’l Lumber &
Bldg. Materials Co., 798 A.2d at 434; see also Nye, 992
A.2d at 1010; see also Winter v. Natural Res. Def.
Council, Inc., 555 U.S. 7, 32 (2008) (noting that
permanent injunctions require a showing of actual
success on the merits).
Having found that CPRAC’s contract clause claim
fails as a matter of law and that CPRAC lacks standing
to bring its breach of contract claim, the Court finds

App. 135
that CPRAC has not demonstrated actual success on
the merits of any claim. See Nat’l Lumber & Bldg.
Materials Co., 798 A.2d at 434 (“A party seeking an
injunction must also demonstrate likely success on the
merits . . . .”). Accordingly, CPRAC’s request for a
permanent injunction is denied.
IV
Conclusion
After due consideration of all the evidence and
arguments advanced by counsel before the Court and
in their memoranda, the Court finds that CPRAC failed
to meet its burden of demonstrating its claims. Thus,
this Court denies and dismisses Counts I, III, and V in
CPRAC’s Complaint. Counsel shall confer and present
to this Court forthwith for entry an agreed upon form
of Order and Judgment that is reflective of this
Decision.

App. 136

APPENDIX C
STATE OF RHODE ISLAND AND
PROVIDENCE PLANTATIONS
KENT, Sc.
SUPERIOR COURT
CASE NO: KC/2013-1059
[Filed November 2, 2015]
___________________________________
CRANSTON POLICE RETIREES
)
ACTION COMMITTEE
)
)
VS.
)
)
THE CITY OF CRANSTON, ET ALS )
___________________________________ )
HEARD BEFORE THE HONORABLE JUSTICE
SARAH TAFT-CARTER
ON MONDAY, NOVEMBER 2, 2015
MOTIONS AND DECISIONS
APPEARANCES:
PATRICK SULLIVAN, ESQUIRE . . . . . . . . . . . . . . .
FOR THE PLAINTIFF
WILLIAM DOLAN, ESQUIRE and
WILLIAM WRAY, ESQUIRE . . . . . . . . . . . . . . . . . . .
FOR THE DEFENDANTS

App. 137
MARY M. GUGLIETTI, RPR
CERTIFIED COURT REPORTER
CERTIFICATION
I, Mary M. Guglietti, hereby certify that the
succeeding pages, 1 through 74, inclusive, are a true
and accurate transcript of my stenographic notes.
/s/Mary M. Guglietti
MARY M. GUGLIETTI, RPR
Certified Court Reporter
[p.1]
MONDAY, NOVEMBER 2, 2015
MORNING SESSION
THE CLERK: The matter before the Court is
Cranston Police Retirees v. The City of Cranston,
KC/2013-1059.
Could counsels identify for the record, please.
MR. SULLIVAN: Patrick Sullivan for the plaintiff.
MR. WRAY: Good morning, Your Honor. William
Wray for the defendants.
MR. DOLAN: Good morning, Your Honor. William
Dolan for the defendants.
THE CLERK: Thank you.
THE COURT: There’s several motions before the
Court this morning. I’ve read everything, but we’ll
begin with the motion in limine regarding burden of
proof.

App. 138
Would you like to place anything else on the record
other than what is in your memo?
MR. DOLAN: Well, I would.
THE COURT: Okay.
MR. DOLAN: If the Court would indulge me for just
a few minutes. I think that based upon my reading of
the papers, it appears that both the plaintiff and the
defendant are in agreement that plaintiff bears the
burden of proof on all three elements of the test in
question, contract impairment, that is, the existence of
a contract, the substantiality of the impairment, and
[p.2]
whether the impairment was effectuated for a
reasonable and necessary public purpose.
But the Court has ruled previously in the state
pension case -- and I don’t want to presume that the
Court is ruling this way in this case.
THE COURT: Right.
MR. DOLAN: But that the City here, the
governmental actor, would bear the burden of
production of going forward with evidence to establish
the third element or -- well, to justify the third element.
Let me just say that.
THE COURT: That’s the word I prefer.
MR. DOLAN: Because the burden of proof remains
on the plaintiff to prove all of those elements or the
lack thereof beyond a reasonable doubt.

App. 139
But I want to address my remarks to that part of
the motion in limine that seeks instruction and
guidance from the Court as to what it exactly is that
the governmental actor here, the City of Cranston,
needs to do to satisfy that burden of production.
And to be -- to be really plain here -- and let me just
for one moment, just for purposes of the record, we
respectfully disagree with the Court’s decision in the
state pension case that imposes the burden of
production on us. We’ve argued against it in our
papers. I’m not
[p.3]
going to rehash those arguments because the Court
ruled in response to those arguments, not only in the
state pension case but early on in this case when we
filed a motion for order of proof and the Court said no,
no, the presumption of constitutionality doesn’t mean
that you don’t have a burden of production. So I
assume the Court’s going to rule the same way.
But for purposes of the record, I want to just
reiterate that we disagree with the Court that we
should have the burden of production but -THE COURT: Finish.
MR. DOLAN: And should I -THE COURT: You can finish your sentence.
MR. DOLAN: Should I continue on that issue?
THE COURT: Well, I want to ask you one question
about the issue of justification.

App. 140
MR. DOLAN: Yes.
THE COURT: Is there any -- well, I don’t know if
the word disagreement -- you don’t disagree with
courts. But do you take issue with the fact that the City
has a burden or the burden with respect to
justification?
MR. DOLAN: We do.
THE COURT: Okay.
MR. DOLAN: And I -- it’s the argument we made
before before the Court. It’s the argument that was
made
[p.4]
in the state pension case that the Court’s imposition of
the burden of production on the City violates the
presumption that the law is constitutional. And I know
the Court has struggled with this. I have too, frankly,
Your Honor. It’s not an easy issue to overlay the
beyond a reasonable doubt standard onto a contract
impairment analysis where the courts say, listen, the
state’s got to come up with some kind of showing.
Right? And so, again, I respectfully disagree with the
Court’s decision there. I don’t want to just focus my
remarks on that. We’ve argued it in the papers. I’ve
preserved it now here on the record if there’s an appeal.
I want to focus on the question of, assuming the
Court imposes a burden of production on us, what does
it mean? And I want to take you back, if I could, to your
March 18, 2015, decision. I have a copy here. I don’t

App. 141
know if the Court has it handy, but I’d like to hand it
to the Court.
THE COURT: Sure.
MR. DOLAN: Because I want to -- I want to be
specific about what I want to focus the Court’s
attention on.
THE COURT: I think I know but -MR. DOLAN: So I think, to start, the operative
passage for me or for my client appears on page 8. This
[p.5]
is where Your Honor quite rightfully, I think, looked at
those jurisdictions that have a beyond a reasonable
doubt standard for overturning a law based on the
constitutionality and also considered that in the
context of the contract impairment claim. And you used
the word “justification,” which is exactly the words that
those courts use. On page 8 there’s several cases,
among them, the County v. State, the State of
Washington case from 2006, stating that a party
challenging a state’s constitutionality bears the heavy
burden of proving that there is no reasonable doubt
that the statute violates the constitution while stating
in its Contract Clause analysis that the justifications
for the reasonableness and necessity of the challenged
statute must first be offered by those defendants, the
state’s constitutionality.
And I think that’s where the Court came down, and
I understand why the Court did that. Again, we
respectfully disagree. But assuming that the burden of

App. 142
production is going to be imposed upon us, the question
then becomes, what is that?
If you turn to page 11 of your decision, Your Honor,
it’s there that you talk about what the State must
establish. And you say, “Consequently” -- reading from
the first full paragraph, “Consequently, the Contract
[p.6]
Clause allows for the state to establish that the
legislation is both reasonable and necessary for an
important public purpose. In doing so, the state need
not establish reasonableness and necessity beyond a
reasonable doubt. Rather, the state must only show
that . . .” and then you cite off the three elements.
Those three elements are the test. That’s the test
for determining whether or not it’s reasonable and
necessary for an important and legitimate public
purpose. And the plaintiff bears the burden of
persuasion on that. There’s no question about that.
They have to prove the absence of those things, right,
beyond a reasonable doubt. That’s what the Rhode
Island Supreme Court case law imposes.
And so when you say in your decision “Rather, the
state must only show that . . .” these three things, I
would suggest to the Court that -- and in relying upon
the Court’s own decision in this case, in the state
pension case -- the burden of production is only -- the
presenter need only present facts sufficient for the
question to go to the finder of fact rather than
presenting facts that would peremptorily decide it, i.e.
by summary judgment or otherwise.

App. 143
So the burden of production on this question that
the State has is not to prove these things at all beyond
[p.7]
a reasonable doubt or even a preponderance of the
evidence. All that we have to show is a justification.
I go back to page 8 of Your Honor’s decision and the
State of Washington and the other cases that say yes,
if we’re going to impose the burden of production on the
state, there’s some modicum of proof that’s necessary.
What I would suggest to the Court, given what the
burden of production is, it’s only a showing of facts
sufficient to present the question to the trier of fact. If
-- if I couldn’t advance enough facts to avoid summary
judgment, I’d lose. But if I advance enough facts to get
the fact question to the trier of fact, I’ve satisfied my
burden of production. I’ve done it.
And so -- and that makes sense for several reasons.
First of all, you’re talking about a standard here that
the plaintiff must establish beyond a reasonable doubt.
And if -- I went back because I was curious. I hadn’t
looked at my criminal law in a long time, but that’s the
same standard. And McCormick on Evidence -- this is
Section 341, it’s on page 576 -- talks about this. And
one of the most famous early statements on the -- on
what that standard means was Chief Justice Shaw in
the Massachusetts Supreme Judicial Court in the
famous trial of the murder of Dr. Parkman, Professor
Webster. And here’s what Shaw said about this: It is -it is that

App. 144
[p.8]
state of the case -- and again, this is a criminal
standard so -- it is that state of the case, which, after
entire comparison and consideration of all the evidence,
leaves the minds of jurors in that condition that they
cannot say they feel an abiding conviction, to a moral
certainty, of the truth of the charge. He goes on:
Whether, if so requested, it is the judge’s duty to define
the term is a matter of dispute. But the wiser view
seems to be that it lies in the court’s discretion, which
should ordinarily be exercised by declining to define
unless the jury itself asked for a fuller explanation.
But what he talks about is that that standard
requires the jury to find to a moral certainty. That’s the
reasonable doubt standard, to a moral certainty.
And I also pulled a decision of Judge Gale, actually,
it’s a Supreme Court decision, State v. Imbruglia. And
these are not in our papers because I only -- when I was
reading stuff this weekend, as I’m sure Your Honor
was, I said we have to -- we have to inform the Court
about what this standard means because it does have
an impact on what it is that we’re going to need to go
forward on.
But State v. Imbruglia, 913 A.2d 1022, it’s a 2007
decision of the Supreme Court in which Judge Gale had
[p.9]
charged the jury on what reasonable doubt means. And
I’ll hand this up to the Court in a moment.

App. 145
THE COURT: I might have that. I was just looking
for my charges in criminal cases.
MR. DOLAN: Well, I did too and -THE COURT: Why don’t you -- if you do have it
handy, that would be great.
MR. DOLAN: May I read this to the Court first?
THE COURT: Sure.
MR. DOLAN: And then I’ll do so. I’m reading from
the Supreme Court decision. “In this case, the trial
justice instructed the jury regarding reasonable doubt
as follows.”
And again, this is not a Jury trial, but the standard
would be the same.
THE COURT: Correct.
MR. DOLAN: “Always bear in mind that a
defendant does not have to prove or disprove anything.
It is the State that has the burden of proving beyond a
reasonable doubt each and every element of any offense
under consideration and that the defendant did, in fact,
commit that offense.”
“The term beyond a reasonable doubt does not
easily lend itself to definition. Let me begin by telling
you what a reasonable doubt does not encompass.
Obviously
[p.10]
the State’s obligation to prove guilt beyond a
reasonable doubt does not mean that it must do so

App. 146
beyond all possible doubt or beyond a shadow of a
doubt. Reasonable doubt is not a whimsical or fanciful
doubt, nor is it a doubt which is prompted by
sympathy.”
I can see the jurors struggling as I read this. I
mean, it’s a hard standard to get.
“On the other hand, you may not convict a
defendant merely because of suspicion, conjecture or
surmise.”
I know Your Honor has a murder trial coming up as
well so -THE COURT: No, that’s my charge.
MR. DOLAN: “The State must present evidence
which, upon examination, is found to be so convincing
and compelling as to leave in your minds no reasonable
doubt about the defendant’s guilt.”
“We know from experience what a doubt is, just as
we know when something is reasonable or
unreasonable. Reasonable doubt by definition is a
doubt based upon reason and not conjecture or
speculation. A reasonable doubt is doubt based upon
evidence or lack of evidence.”
Here’s the important part, and it mimics
McCormick. “Proof beyond a reasonable doubt exists
when, after you have thoroughly considered and
examined all of the evidence that is before you, you
have a firm belief that

App. 147
[p.11]
the defendant is guilty as charged.”
Moral certainty. It’s a moral certainty standard, I
think, or close to it. And when you think about that as
being the burden on this plaintiff in this civil case
challenging the constitutionality of the statute, it
cannot be it -- cannot be given that burden that the
governmental actor here, the State, has anything more
than an obligation to present evidence sufficient to get
to the fact finder. That’s it. That’s -- I think that’s the
burden of production. Because that burden of
persuasion is so high, it can’t be on the State to have to
prove, as Your Honor indicated on page 11 of her
decision, the elements necessary to sustain a challenge
to the constitutionality of a law based on the contract
impairment clause.
So I think the burden on us is -- is not even a
preponderance of the evidence. It’s simply come
forward with sufficient -- with a justification, which is
the language that appears on page 11 -- page 8 of Your
Honor’s March, 2015, decision in the state pension
case. Come forward with evidence that provides some
justification. The burden then shifts to the plaintiff to
prove these things beyond a reasonable doubt or to a
moral certainty.
That also makes sense not only because in the
[p.12]
context of the burden of persuasion, but it also makes
sense given the other constitutional principles that are
in play here, the presumption of constitutionality.

App. 148
In order to give effect to the presumption of
constitutionality, the Court has to maintain the burden
of persuasion on the plaintiff, which it’s done, but I
think that informs as well the burden of production.
How can it be that the State would have to prove the
constitutionality of the statute, would have to prove the
elements that are set forth on page 11 in its -- in
satisfying its burden of production? It can’t by
definition because the statute is presumed to be
constitutional.
So to sum up on this argument, Your Honor, we
think that the burden of persuasion informs and gives
body to the burden of production. We think that the
other constitutional principles that adhere here, such
as the presumption of constitutionality, inform and
give body to what the burden of production is.
And I’d like to suggest to the Court one final thing,
which is that the -- the ordinance here in question -and the Court may not have this, so I’m going to
provide it, the ordinance. Just give me a moment, Your
Honor. I have a copy for counsel.
THE COURT: Can I ask you a question?
[p.13]
MR. DOLAN: Of course, Your Honor.
THE COURT: The standard you’re asking the Court
to apply -MR. DOLAN: Yes.

App. 149
THE COURT: -- would allow the defendants to
present basically any evidence as sufficient, just the
minimal amount of evidence?
MR. DOLAN: Yes.
THE COURT: How do you square that with the
whole issue of deference?
MR. DOLAN: Yes. Yeah, that’s a tough question.
THE COURT: There you go.
MR. DOLAN: I -- so the standard is that the Court
doesn’t give complete deference.
THE COURT: Correct.
MR. DOLAN: It gives some deference.
THE COURT: Right.
MR. DOLAN: So you’re required to scrutinize this
at some level. And this -THE COURT: Not high scrutiny.
MR. DOLAN: No. This leads to my -THE COURT: Low scrutiny.
MR. DOLAN: Yes. This leads to the point I was
about to make when the Court asked the question, so
we’re on the same page.
[p.14]
So how much deference do you afford? What does
that mean? And the only place that I could find some
instructive guidance on this is in statutes or ordinances

App. 150
that have legislative findings. Same thing. Same thing.
And I -- although I don’t -- I’m sorry for this, Your
Honor. I didn’t cite these in our papers because I was
struggling with this over the weekend, and it came to
me -- it came to me that this is where this is where it
lies. And unfortunately, although the issue is the same,
there’s still not a whole lot of guidance.
But what our -- what our U.S. Supreme Court and
what our Rhode Island Supreme Court have said on
this, although legislative findings are subject to review,
the determination of those, whether they’re correct or
not, is entitled to great deference by the judiciary.
Berman v. Parker, 348 U.S. 26 (1954). Narragansett
Electric -THE COURT: I’m sorry.
MR. DOLAN: I’m sorry.
THE COURT: Excuse me. 348 U.S.?
MR. DOLAN: Yes. 26 (1954). Narragansett Electric
Lighting Company v. Sabre, 50 R.I. 288 (1929). And
then there’s -- there’s also another more recent
decision. It’s the Advisory Opinion to the Governor, 113
R.I. 586 (1474) [sic]. I mention all of that -- I’m sorry,
Your Honor.
[p.15]
THE COURT: 1974?
MR. DOLAN: In re Advisory Opinion. It’s 113 R. I.
586 (1974). I mention all of that because in this case we
have legislative findings. Now, this has not been
presented to the Court -- the Court’s attention yet, but

App. 151
I’ve handed counsel a copy of the original ordinance
that was -- that is at issue in the case, the one that
suspended the COLA for ten years. I’d like to present
that to the Court, if I might.
THE COURT: You can. I have that.
MR. DOLAN: And also I have -- I have, Judge, oh,
the Supreme Court decision in the charge case as well.
THE COURT: Yes. I’ve read the ordinances and did
take note of the legislative findings.
MR. DOLAN: So there are legislative findings. I
would suggest to the Court that if we simply present
those and they detail why it is the City is doing what
it’s doing, we’ve established the public purpose.
THE COURT: You mean no testimony, just -MR. DOLAN: Well, no, no, no. I’m not going to let
the -- leave the record cold. I’m just -- I’m just
addressing what is -- what’s necessary for us to
establish our burden of production. Because I don’t
think the plaintiffs are going to be able to show in
[p.16]
their case beyond a reasonable doubt that this was not
reasonable and necessary. I think that that’s -- to a
moral certainty, I don’t see it at all.
So I’m just addressing what it is the Court’s going
to require of us. We’re going to put on a full case. I
mean, I -- it’s not going to change the modicum of
evidence, but it is going to change how the trial goes
because if the plaintiff puts on its case and doesn’t

App. 152
satisfy its burden, I’ve got a Rule 52 motion right then.
And I think that if we simply introduce this, this
legislation with the legislative findings, we’ve satisfied
our burden of production. If the plaintiff then can’t
establish in its case beyond a reasonable doubt the
elements of Contract Clause analysis, the case is over.
The case is over. Now, the Court might reserve on my
motion. I would then go forward with additional
evidence, which I’m -- I’m fully prepared to do
obviously.
But I think this is an important point, and it’s an
important point to determine in this case. This is not
the only case where these issues are going to be
presented. You have the City of Providence case. You
potentially have another state pension case depending
upon what the Cranston Police and Fire do in that
case. So I believe it’s an issue that needs to be resolved.
I
[p.17]
think we’re on the right track with it for the reasons
I’ve articulated today, and that’s the -- the guts of the
motion.
THE COURT: Thank you. Objections?
MR. SULLIVAN: Judge, I’ll be brief. I ‘m going to
rest on my -- on my pleadings. The City discusses the
burden of proof to a moral certainty. Obviously he’s
citing some criminal -- the burden with McCormick.
Simply introducing the first two pages of this
ordinance, to suggest that that satisfies their burden
under your decision on page 11, I mean, the State must

App. 153
show that it did not -- you’d have to prove the negative
-- did not consider -- I’m sorry -- yeah, consider
impairing the contracts on par with other policy
alternatives, impose a drastic impairment when an
evident and more moderate course would serve its
purpose equally well and prove that it did not act
unreasonably in light of the surrounding
circumstances.
There’s a ladder up against the wall. They want to
stay on the ground as far as their burden. Then there’s
a default position. Let’s get on the first rung. let’s
introduce a piece of paper, and that will satisfy our
burden. Judge, we disagree. We agree with the decision
that this Court made, and we believe that proof of a
fact is proof of a fact, no matter how the City wants to
[p.18]
describe how not to prove a fact. The elements of proof
are the elements of proof.
THE COURT: I think what the defendant said was
you’re going to present your case. Then before they
present their case, for the purposes of Rule 52, at the
very basic level all they have to do is present a certified
copy of the ordinance with the findings of fact and then,
with respect to the justification phase, proceed with
testimony afterwards. Is that what I heard?
MR. DOLAN: Well, I think so, Your Honor.
THE COURT: I mean very simply -MR. DOLAN: Yes.

App. 154
THE COURT: -- in a diagram sentence -- I mean in
a diagram, plaintiff goes first, then this is what has to
be done, the lowest of low burden. That’s what their
position is, is the findings of fact based on the cases,
which I haven’t read, regarding great deference to
legislative findings. That’s all they have to do.
MR. DOLAN: I think at a threshold level, that’s our
position.
THE COURT: Yes.
MR. DOLAN: If the Court -- if the Court didn’t
grant a Rule 52 motion, I’d obviously put on more
evidence.
THE COURT: No, I get that. But I think what
[p.19]
Mr. Sullivan was saying was different than what the
defendants were saying.
MR. DOLAN: Yes.
THE COURT: What you were saying, Mr. Sullivan,
what the defendants were saying, this is all they had to
do, and that’s not what I heard from the defendants. I
heard that just, I guess -MR. SULLIVAN: Right.
THE COURT: -- as Mr. Dolan said, from a threshold
point of view, this is all that has to be done.
MR. SULLIVAN: And that’s my metaphor, that they
have to stand on the ground where the ladder is,

App. 155
getting up -- you know, climbing the rungs as their
burden increases as this Court rules.
THE COURT: They don’t have much of a burden.
MR. SULLIVAN: I understand that.
THE COURT: What we’re trying to figure out -what I’m trying to figure out is what exactly what
words to describe it. You’re the one with the burden.
MR. SULLIVAN: I understand. But, I mean,
according to your decision, they have to prove those
three -THE COURT: They don’t have to prove anything.
They have to justify.
MR. SULLIVAN: Justify. That’s what I mean,
Judge. But certain facts justify a burden. Okay. They
don’t
[p.20]
have to -- they have to prove a fact. They don’t have to
prove the element, but facts tend to prove elements. A
piece of paper with legislative findings -- and it’s the
first I heard of these cases too. Obviously I’m going to
review them as well.
But we -- we respectfully disagree, Judge. I mean,
especially when the State’s a party to the contract, it
just provides such a convenient way of just avoiding
their responsibilities and their -THE COURT: What’s the issue with deference?
What do you have to say about that?

App. 156
MR. SULLIVAN: Judge, I would agree with the
Court. I mean, deference -- there is deference and I
believe -- well, I believe that -- that their burden is
more than the piece of paper. Thank you.
MR. DOLAN: Can I just briefly reply, Your Honor?
THE COURT: Yes.
MR. DOLAN: I think -- and I’m trying to assist the
Court in this on this question of deference. So we’re
entitled to some deference, not complete deference.
THE COURT: Correct.
MR. DOLAN: I think that means -- and, you know,
if I were in your -- sitting in your chair, if I ever had
the honor of doing that, I probably would have ruled
the same way. Because how do you square contract
impairment
[p.21]
with beyond a reasonable doubt? Some deference. I
think some deference can only mean -- given the high
burden of persuasion that the plaintiff carries here, can
only mean present enough to get to the finder of fact.
So we had a reason for doing this. We did. There’s
no question we had a reason for doing it. The pension
system, as you’ll hear next week, was in complete
disarray. It had to be fixed. We fixed it. Now, these
plaintiffs don’t agree with that. Four hundred of their
brethren did, but these plaintiffs don’t. So they have
the burden of proving that our fix was violative beyond
a reasonable doubt. All we have to show is that there
was a reason for fixing it. I think that’s some deference.

App. 157
Now, if the Court determines at the close of the
plaintiff’s case that they’ve made enough of a case that
they can obviate or get by a Rule 52 motion, I’ve got to
present more evidence, I think. I think I do at that
point. But if they don’t, I think we’ve made our showing
in the case.
THE COURT: Anything else?
MR. SULLIVAN: That’s it, Judge. Thank you.
THE COURT: All right. You’ll hear from me on this.
Now, we have Takings Clause motion for summary
judgment, defendants’ motion for summary judgment,
Takings Clause. Did I receive an objection from you on
[p.22]
that?
MR. SULLIVAN: I believe you did.
MR. WRAY: I know that we have one in our
possession. I don’ t know -MR. DOLAN: Does Your Honor want that?
THE COURT: What was that?
MR. DOLAN: I can give the Court that objection if
you don’t have it.
THE COURT: We don’t have that objection.
MR. SULLIVAN: That was filed by Marisa, my cocounsel, Judge.
THE COURT: When was it filed; do you know?

App. 158
THE CLERK: I have it on the 30th, Judge.
MR. SULLIVAN: I believe we filed it -MR. WRAY: Friday at 1:15 p.m.
MR. SULLIVAN: I hand-delivered it.
MR. DOLAN: Would the Court -THE COURT: You know what, let me just look. Do
we have one? Wait a minute. I do have it. Yes. It was
filed on Friday. Yes. We do have that. Okay. Thank
you.
MR. WRAY: Good morning, Your Honor. The
Takings Clause analysis here involves essentially three
questions. The first one is whether there’s a protectable
property interest at issue here. The second
[p.23]
one is, if there is, what sort of Takings Clause analysis
should the Court undertake? And the third question is,
that Takings Clause analysis, can the plaintiffs meet
their burden of proof based on facts that are not in
dispute?
As to that third element, the actual application of
the Penn Central test, we’re simply going to rest on our
papers today. However, we would like to reply to what
the plaintiff has submitted concerning whether there is
a protectable property interest and also what test
should apply if there is a protectable property interest.
Now, the answer to this first question essentially
boils down to whether the plaintiff’s members have a
contractual right as against the City to a yearly 3

App. 159
percent COLA that must be paid for the entirety of
their lifetime.
Now, the question of whether there’s a contract
right depends on the well-established test that there
must be competent parties, subject matter, a legal
consideration, mutuality of agreement and mutuality
of obligation. And those elements are from Rhode
Island Five v. Medical Associates of Bristol County, 668
A. 2d 1250.
This case really comes down to mutuality of
agreement here, whether in fact both parties agree to
pay
[p.24]
a COLA that must be paid every year and that must be
paid for the duration of their lifetime.
Now, in the City’s initial motion we pointed out that
the documents upon which the plaintiff relies do not in
fact establish such a COLA. Those documents are very
clear that the base pension payment to the retirees
must be made every year for the duration of their
lifetime. The language is “he or she shall be paid
annually for the remainder of his or her life.” But no
such words of duration or frequency are used with
respect to the COLA. Instead, with respect to the
COLA, the language is “Notwithstanding the foregoing,
the pension cost-of-living adjustment paid to such
officer or member shall be fixed at 3 percent per annum
compounded without any escalation based on the raises
granted” -- “granted to active employees.”

App. 160
Now, this case says the interest is 3 percent per
annum as opposed to 3 percent per diem or per month.
It doesn’t state that this should be paid every year for
the retirees for their entire lifetime.
The City also noted in its motion that the source of
the retirees’ belief that they were entitled to a COLA
that must be paid every year didn’t come from the text
of the documents.
The question was: Do you see any language in here
[p.25]
that states that the COLA would be lifetime?
And this is the 30(b)(6) deponent for the plaintiff.
He replied: No. It says upon retiring, you will
receive 3 percent per year. I suspect that it would be
until you die. I suspected it is until you die and that
has been the case.
Question: So it was an assumption that you made
rather than anything that is actually written in this
contract, correct?
Answer: It’s a fact, yes.
And there were some other sources for their belief
that it must be paid every year for their lifetime, and
that was based on what they were told by the president
of their union.
Question: So earlier you testified that even though
it might not be written here, it was your understanding
or the police union’s understanding this would be a
lifetime benefit, right?

App. 161
He said right.
And were you told that by members of, for instance,
the police union?
Answer: Yes.
Question: Like the president?
Answer: Yes.
And Mr. Sullivan at his deposition, to be fair,
[p.26]
doesn’t recall saying this at the time. But neither the
statements of the police union’s president or the
unilateral expectations of the retirees are sufficient to
create a contractual right which, as we were speaking
about before, requires mutuality of agreement. It has
to be what the City also expected and intended.
And plaintiff’s memorandum in fact seems to
acknowledge that the City did not expect that this was
the case. On page 3 of their memorandum, they say
that the City used the word annual in its ordinance
supports the plaintiff’s expectations, not the
defendants’ expectations, suggesting that there was a
breach between the two.
Plaintiff doesn’t necessarily rely on the text of the
documents concerning the COLA provision. Rather, it
asks some questions, hypothetical questions about the
ordinance, like if there was no lifetime COLA, why does
the ordinance contemplate the death of the police and
firefighter? I’m not sure how the answer to that
question really resolves whether a COLA must be paid

App. 162
each year. And the other question is, if the City
thought there was no lifetime expectation of a COLA,
why did they delete that COLA for only ten years?
Wouldn’t they simply have deleted it with no reference
to a number of years? I don’t understand how the
answer to this
[p.27]
question has to do with whether there was supposed to
be payments of a COLA each year either.
In any event, for the City to undertake an action, it
can’t just decide internally, it’s not a natural person,
and then act on that. If it wants to be able to pay
COLAs after a ten-year suspension period, it has to
have authorization to do so in the ordinance. Same
with paying widows.
But we don’t need to resort to these questions that
concern kind of the periphery of the effect and the
logical consequences because we have the words in
front of us. And the legislature did not need to say that
this COLA will be fixed at 3 percent per annum and
will not necessarily be paid each year because just the
absence of those words does that work. And the fact
that there’s this stunning contrast between that
language where it just says the amount of the COLA
and the base pension payment where it does state that
it will be given every year suggests that the COLA does
not -- will not be given every year.
Most of plaintiff’s arguments concerning whether
there’s a contractual tern actually sound in promissory
estoppel. They frequently talk about the members’
expectations that they would receive the 3 percent

App. 163
right -- 3 percent COLA, rather. And we don’t have a
count for
[p.28]
promissory estoppel in this case. So that’s not before
the Court. However, it is instructive that the Rhode
Island Supreme Court in Retired Adjunct Professors v.
Almond, which is 690 A.2d 1342, held that notions of
promissory estoppel that are routinely applied in
private contractual contexts are ill-suited to public
contract rights analysis.
In doing so, they held that they relied upon a whole
line of cases from federal and state courts
demonstrating that it’s -- the promissory estoppel
doctrine is not applicable in the context of governments
because, again, it’s a different actor. It’s like your brain
changes every four to six years.
That’s the question of whether there’s a protectable
property interest. And for the reasons expressed, we
believe that there’s not.
The second question is, if there is some protectable
property interest, what test should apply? And the
defendants have offered that the Penn Central test
should apply while defendant has demurred -- plaintiff,
I’m sorry, the plaintiff has demurred. And the plaintiff
has cited to a portion of Penn Central where the Court
addressed “direct overflights” -- and they mean by
airplanes -- “above the claimant’s land, that destroyed
the present use of the land as a chicken farm,” and

App. 164
[p.29]
plaintiff then said that the above-quoted language
applies directly to the facts of this case.
We respectfully disagree, and we think that the
closest case to the present case doesn’t involve chickens
or airplanes, and it’s Buffalo Teachers Federation v.
Tobe or Tobe, I’m not sure if I’m pronouncing that
correctly, but that’s at 464 F.3d 362. And in that case
the Court addressed legislation which touched on the
fiscal crisis of the City of Buffalo which had passed a
wage freeze legislation. Various unions sued the state
alleging that the wage freeze violated the Takings
Clause. And then assuming that the plaintiffs had a
protectable property interest but without deciding it,
the Second Circuit actually overturned the trial court,
which had analyzed this under a physical takings
analysis, and instead ruled that the regulatory takings
test under Penn Central applied. It held that the wage
freeze does not present the classic taking in which a
government directly appropriates private property for
its own use. Rather, the interference with appellants’
contractual right to a wage increase arises from a
public program adjusting the benefits and burdens of
economic life to promote the common good. And then it
proceeded to adopt and apply the Penn Central test.
We think that the facts of that case are startlingly
[p.30]
similar to those that are present here because the
legislative enactments here don’t take money out of a
bank account. They don’t affect the use of land. They
simply say that this alleged contractual right, this

App. 165
abstract alleged contractual right that would give you
more payments in the future, is -- is suspended for ten
years, Your Honor, and that the Penn Central test
applies to that.
And as I mentioned before, concerning the actual
application of the Penn Central test to this matter, we
rest on our papers. Thank you.
THE COURT: Thank you. Objections?
MR. SULLIVAN: Judge, I can assure you the
plaintiff will put evidence on through its members that
there has been money taken from them since the
enactment of these ordinances.
The defendants’ argument begs the question, “Why
not just delete the COLA forever? Why not -- why take
any legislative action at all? It’s -- it’s a significant
amount of a property interest, in the six figures for
some of the members of the plaintiff, and it lasts for
their lifetime, the taking. There’s a -- I’ll rest on my
pleadings for the argument that was referenced by my
brother.
However, there’s a -- there’s an issue about a total
[p.31]
loss that was brought up in the Penn Central case and
in the defendants’ pleadings. The loss of a sum certain
is total. It does get reinstated at a rate -- a lower rate
in ten years, but the loss is permanent and it’s -- it’s
calculable and it’s permanent and it’s not -- and it’s not
a temporary loss. It is total taking of that amount.

App. 166
THE COURT: How can a ten-year suspension be a
total loss?
MR. SULLIVAN: The amount that would have been
paid otherwise, that 3 percent per year, is gone forever,
and then the base at the end of the ten years of which -THE COURT: It’s a temporary suspension, similar
to Buffalo Teachers.
MR. SULLIVAN: Right. It’s a suspension of a
benefit, but it’s a taking of money.
THE COURT: Okay.
MR. SULLIVAN: Never to be returned.
THE COURT: Thank you.
MR. WRAY: May I reply on that point, Your Honor?
THE COURT: Yes.
MR. WRAY: What plaintiff is attempting to do here
is to zoom in completely on the one thing that has been
affected by the government and to say that that’s the
entire thing.
So if you -- we actually attached the entire
[p.32]
collective bargaining agreement to our motion papers
here, and it’s quite comprehensive. It deals with
matters such as uniforms, overtime, sick pay. And we
went through with each of these plaintiffs and we said,
apart from this alleged COLA, do you claim that any of
this has been breached? And the answer was no. And

App. 167
in fact, I believe in the complaint itself the plaintiff
admits that the City has always undertaken its
obligations under the CBA.
So if you look only at Section 24, which concerns
pensions in most of these, and then within that section,
which also deals with the base pension, I mean, you
only look at the COLA paragraph, and within that
paragraph you have to imagine a term that has to be
paid every year, that’s the only thing that has been
affected by this ordinance here, Your Honor. The fact
that it’s only been suspended for ten years rather than
for the entirety, that -- the rhetorical question, the
premise of this question is that the City is out there to
harm their retirees and to give them as little as
possible. The answer to that is that that’s of course not
the case. The COLA is suspended for ten years because
that’s the least that we could do to effect a fiscal crisis
that affected the City.
THE COURT: With respect to your argument
concerning
[p.33]
whether the 3 percent COLA benefit constitutes a
property right afforded protection, how do you square
your conclusion with the Arena case?
MR. WRAY: In the Arena case it actually did come
down to the wording of the contracts. In Arena you had
the Providence CBAs. I don’t have them in front of me,
and I won’t until February so -- but right now I’m just
looking at the contract wording in the Cranston case,
which is really what this case comes down to. What in
that document was promised to the police union

App. 168
members? And in Providence it might have said 3
percent per annum paid each year for the rest of your
lifetime. All we have here is that the COLA amount is
going to be fixed at 3 percent and it doesn’t say “and it’s
going to be paid every year for your lifetime.”
THE COURT: Thank you. Respond?
MR. SULLIVAN: No. Thank you, Judge.
THE COURT: We’ll move on to defendants’ motion
for summary judgment for non-City defendants.
MR. WRAY: We’ll rest on our pleadings except to
reply to what the plaintiff has vetted here. The plaintiff
in its objection claims that the acts of the legislature in
passing a piece of legislation were not legislative under
the doctrine of legislative immunity.
Laying aside the merits, I actually believe that
[p.34]
they are collaterally estopped from making this
argument because earlier the Court adjudicated
whether the plaintiff would be permitted to take the
deposition of John Lanni, who was City Council
President of the Cranston City Council, and in that
case determined that all of the peripheral activities
surrounding this legislation were themselves protected
by legislative immunity, relying on the precedent that
was before the Court at the time.
At that time the plaintiff did not make any
argument that this legislation itself was not within the
scope of legislative immunity, which means that we
satisfy the elements of collateral estoppel: one, that

App. 169
there be an identity of issues; two, that the prior
proceeding was open and a final judgment on the
merits; and three, that the party against whom
collateral estoppel has been asserted be the same as or
in privity with the party in the prior proceeding.
Turning to the merits, their very case law fails to
establish that there’s been any case in which a piece of
legislation passed by the legislature has been deemed
to be an administrative act. The case that they cited,
which was Cutting, dealt with planning board
members, who are not legislators, who imposed
conditions on a permit that came before them. And that
isn’t even really a
[p.35]
legislative act. It’s closer to a quasi-judicial act. And
that very case states that -- the Cutting case says I that
these four other cases they address, they all involve
enacting or vetoing general ordinances, actions that are
clearly legislative activity. So in that very case, Your
Honor, they state that any passage of an ordinance is
clearly legislative activity.
The only other case cited was -- I’m going to mangle
the pronunciation -- Kaczorowski, K-A-C-Z-O-R-O-W-SK-I, v. Town of North Smithfield. And I’m not sure why
this was relied upon in their papers because it says
that the Supreme Court has determined that voting for
legislation, introducing budgets and signing ordinances
into law are “quintessentially legislative” functions.
While employment decisions, however, generally are
administrative in nature, when those decisions are
made in the context of the quintessentially legislative

App. 170
function, such as passing a budget, they become
legislative. That’s 974 F.Supp.2d 110.
And to the extent that this issue is not collaterally
estopped, I think that the failure of the plaintiff to
produce any case in which the passing of legislation
has been deemed administrative is conclusive of the
question.
THE COURT: Thank you. Mr. Sullivan, objections?
[p.36]
MR. SULLIVAN: Judge, I’m going to rest on my
pleadings. These ordinances were targeted at specific
individuals, most of -- all of which received mail from
the City and mail from Mr. Dolan’s office regarding the
settlement of the class action.
THE COURT: Thank you. Before the Court is the
defendants’ motion for summary judgment related to
non-City defendants. The defendants’ motion, in effect,
seeks to strike all non-City defendants from the case
due to the protections of legislative immunity.
Summary judgment standard. Summary judgment
is appropriate when, after viewing the facts and all
reasonable inferences therefrom in the light most
favorable to the nonmoving party, the Court
determines that there are no issues of genuine material
fact in dispute, and the moving party is entitled to
judgment as a matter of law. Delta Airlines, Inc. v.
Neary, 785 A.2d 1123, 1126 (R.I. 2001), citing
Woodland Manor III Associates v. Keeney, 713 A. 2d
802 at 810. The Court is mindful that the remedy

App. 171
should be cautiously applied. Steinberg v. State, 427
A.2d 338.
Rhode Island legislators are granted robust
protection under both the Rhode Island and United
States Constitutions from questioning related -- from
questioning related to their legislative duties. Based
[p.37]
on English common law privileges, legislative
immunity protects the legislature from threats to its
deliberative autonomy. Laurence Tribe, American
Constitutional Law, Section 5-20, Third Edition. See
also National Association of Social Workers v.
Harwood, 69 F. 3d 622, 629 (1st Cir. 1995). It functions
as an important protection of the independence and
integrity of the legislature. United States v. Johnson,
383 U.S. 169 at 178.
In particular, legislative immunity provides
protection to legislators from “any other branch of
government for their acts in carrying out their
legislative duties relating to the legislative process.”
And that’s the Irons case, 973 A.2d at 1131, quoting
Holmes, 475 A.2d at 983. Such immunity includes all
activities that are part of the legislative process. See
the Holmes case. To determine whether the challenged
conduct is legislative, a court must consider the nature
of the acts in question, rather than the motive or intent
of the individuals performing them. See the Maynard
case, 741 A.2d at 870, quoting Bogan v. Scott Harris,
523 U.S. 44 at 54.

App. 172
The Rhode Island Supreme Court has made it clear
that the protections afforded by legislative immunity
apply to municipal legislators. See Maynard v. Beck,
[p.38]
741 A. 2d 866. Our Supreme Court has also made clear
that legislative immunity applies to those outside the
legislative branch when they perform legislative
functions. Specifically, a mayor’s role in both proposing
and signing into law the ordinance is entitled to
absolute legislative immunity. See Maynard, quoting
Bogan.
In this case the alleged violations all stem from
legislative acts of the non-City defendants. The
complaint itself lists counts against the non-City
defendants in terms related to the subject ordinances.
See Complaint Count No. IV specifically. Moreover, the
Court describes -- strike that. Moreover, the complaint
describes the alleged violations as a consequence of
legislative actions. Paragraph 26 of the complaint is
referenced there. There is no genuine issue of material
fact that the very core of the plaintiff’s claims against
the non-City defendants is premised on their
performance of legislative acts.
Accordingly, the robust legislative immunity easily
reaches these defendants. Consequently, the plaintiff’s
assertions that the actions by the non-City defendants
are administrative in nature is not going to -- does not
fly, so to speak. In passing the ordinance, non-City
defendants were clearly carrying out the core of

App. 173
[p.39]
legislative duties. And I quote the Irons case. It is hard
for this Court to imagine something more clearly
legislative in nature than the passage of an ordinance.
Both the City of Cranston members, council members,
and the Mayor were thus acting in their legislative
capacity in passing the ordinance. As such, they are
entitled to be afforded the legislative immunity under
our constitution, our Rhode Island Constitution and the
Federal Constitution.
In holding this, the Court is mindful that the
plaintiffs are not precluded from further pursuing their
case. The plaintiff’s claim against the City remains
intact.
Therefore, based on the non-City defendants’ motion
for summary judgment and in accordance with my
analysis, the motion for summary judgment in this
instance is granted.
We’ll move on now to the plaintiff’s motion for
summary judgment regarding the res judicata issue.
Mr. Sullivan.
MR. SULLIVAN: Good morning, Your Honor.
Judge, as the -- as the Court knows, one of the counts
in the complaint is a count for a declaration of res
judicata.
The pleadings are -- I’ll rely on the pleadings,
Judge, but I believe that the City’s response to the

App. 174
[p.40]
plaintiff’s motion is misplaced. The Mayor called the
wording by Judge Procaccini at the end of the last
paragraph of the case -- of the decision that refers to
non-modification of retiree benefits without collective
bargaining as dicta. It was pretty clear that it was not
dicta. There’s a final order that entered in the case.
And the City cites several cases regarding the ability of
a union to represent retirees. That’s not part of our
motion. It’s not part of our case. If the City wanted to
organize -- or if the retirees wanted to organize, they
could under the State Labor Relations Act. They could
consent to an organization, and that could be
collectively bargained that way. I know there was -someone had reached out to me over the years to see if
there would be a consideration of organizing the
retirees in an attempt to modify the COLAs. I think it’s
clear that -- although the case was about an
arbitrator’s decision, it’s clear that the resulting
holding in the decision by Judge Procaccini would have
rendered the City in contempt of that case. Therefore,
I ask the Court enter judgment.
THE COURT: Well, counsel, you’ll agree, won’t you,
that in Torrado Architects the Rhode Island Supreme
Court adopted the so-called transactional rule? Will
you agree with that?
[p.41]
MR. SULLIVAN: I will.
THE COURT: And could you please explain to me
how this ordinance, the 2013 ordinance, is within the

App. 175
same transaction as the 2005 decision, the ordinance
effective in the 2005 decision?
MR. SULLIVAN: It’s -- I’m sorry. It’s within the
realm of the transaction between the retiree and the
City. There’s a relationship there. There was an
ordinance in 2005 to cut the COLAs. There’s an
ordinance in 2013 to cut the COLAs. That’s as close as
I can get.
THE COURT: I’m sorry. I didn’t hear what you said.
MR. SULLIVAN: That’s as close as I can get that
between the transaction -- the ordinance that was in
2005 and the ordinance in 2013 were not part of the
same transaction but they accomplish the same result,
cutting the -- cutting the COLA for the retiree.
THE COURT: So you’re saying that anytime there’s
a change in the ordinances, whether it’s COLA or
otherwise, and there’s a decision out there based on a
similar ordinance, then res judicata applies?
MR. SULLIVAN: I’m saying that if the -- if the
language in that decision says that the ordinances the
retirement benefits shall not be changed without
collective bargaining, I’m saying that’s the holding of
the case.
[p.42]
THE COURT: Well, didn’t that case involve
standing? Wasn’t really that case -- wasn’t that really
what that case was about?
MR. SULLIVAN: I don’t think so, Judge.

App. 176
THE COURT: The 2005 decision.
MR. SULLIVAN: I don’t think it was so much
standing as -- I mean, it was about an arbitrator’s -enforcement of an arbitrator’s decision, an appeal of an
award about standing. Okay. The arbitration was
about standing. Yes.
THE COURT: Right. The 2005 decision, really a
large piece of that is centered on whether or not the
unions had standing to represent the retirees. That
was a big piece of that decision. Would you agree with
me?
MR. SULLIVAN: I would say that was a part of it.
Yes.
THE COURT: There’s no standing considerations
here, correct? Would you agree with me on that?
MR. SULLIVAN: I would agree with that. Yes.
THE COURT: Do you have anything else you’d like
to say?
MR. SULLIVAN: No.
THE COURT: Thank you.
MR. DOLAN: Your Honor, since you’re on the
claims, the plaintiff’s motion for summary judgment
dealt with
[p.43]
both res judicata and the Open Meetings Act count. I
want to alert the Court, if it’s not aware, that we crossmoved for summary judgment on both those claims. I

App. 177
am going to address the res judicata question. Mr.
Wray is going to address the Open Meetings Act
violation, with the permission of the Court.
THE COURT: Just one second, please. I failed to
have counsel address that, so I’m going to have him
address the Open Meetings Act.
MR. DOLAN: Very well, Your Honor.
MR. SULLIVAN: Judge, I’ve represented cities and
towns for the last 15 years, and I’ve had experience
with this Open Meetings Act. I actually attended the
council meeting and saw -- looked at the agenda, and I
was surprised that they weren’t going to act on -- on
the ordinances. They weren’t listed on the agenda.
They weren’t anywhere to be found. I searched the
agenda. And to my chagrin, they announced -- the city
clerk announced that these ordinances are being
introduced. She named them and sent them to the
Committee on Finance. I believe clearly the Open
Meetings Act, Title 42, requires a recitation on this -on the City Council’s agenda of the business that it’s
going to conduct, whether collectively by the council or
by any machination thereof, including the city clerk
and what happened.
[p.44]
THE COURT: Address the standing issue.
MR. SULLIVAN: The standing issue is the -- the
complaining witness is the president of the -- I’m sorry,
the complaining witness to the Attorney General’s
Office is the president of the plaintiff.

App. 178
THE COURT: How can the -MR. SULLIVAN: And I also -- I’m sorry. Go ahead.
THE COURT: -- association bring the -- there are no
individual plaintiffs in this case.
MR. SULLIVAN: Right. The individual person, Mr.
Gilkenson, brought the issue, and I believe the burden
is on the City.
THE COURT: Well, how can the committee file the
open meetings -MR. SULLIVAN: They didn’t.
it?

THE COURT: Well, it’s part of the complaint, isn’t

MR. SULLIVAN: The committee -- the president of
the committee filed it individually.
THE COURT: But he’s not a plaintiff. Let me get
the complaint.
MR. SULLIVAN: You’re right.
THE COURT: Excuse me?
MR. SULLIVAN: You’re correct.
THE COURT: I am correct. So address the issue.
[p.45]
He’s not a named plaintiff in this action.
MR. SULLIVAN: Right. But I still believe -THE COURT: How can he bring an action?

App. 179
MR. SULLIVAN: I still believe the authority to -- I
mean the City’s conduct violated the Open Meetings
Act, okay, whether or not -THE COURT: Well, I’m not weighing in on it, so the
City’s conduct may have.
MR. SULLIVAN: Right.
THE COURT: But the appropriate person has to
bring the action. The Attorney General’s passing on it
is what I read.
MR. SULLIVAN: I’m sorry?
THE COURT: And how can the entity bring the
action?
MR. SULLIVAN: But the Attorney General made a
finding that they did violate the Open Meetings Act.
THE COURT: I understand that. But they’re not
bringing a suit to enforce their action.
MR. SULLIVAN: Right.
THE COURT: Correct? That’s what the letter said.
MR. SULLIVAN: Right. Correct.
THE COURT: My question to you is, how can the
Cranston Police Retirees Action Committee bring the
suit? What’s your authority?
MR. SULLIVAN: I believe it’s a nonprofit

App. 180
[p.46]
corporation. And as its president, Mr. Gilkenson, he
could bring the action -- the action.
THE COURT: Okay. How is the entity aggrieved?
MR. SULLIVAN: Well, there’s certain things that
could be argued at trial, Judge, whether or not even -THE COURT: How is it aggrieved? You tell me.
Give me the facts.
MR. SULLIVAN: The facts were that on March
25th, 2013, there was a surreptitious introduction of a
pension ordinance that wasn’t listed on the agenda. I
think the -THE COURT: But how do you relate that to the
entity? It might be related to a citizen, but there’s no
individual plaintiff. So how does this entity, who I don’t
believe was -- which was not even in existence at the
time -- was it?
MR. SULLIVAN: Yes, it was. I believe it was.
THE COURT: When did this exist -- come into
effect?
MR. SULLIVAN: I know there was a 90-day bar on
action. It was at some point prior to that. I -- I don’t
know exactly, Judge, but I organized it, I forget when.
But I’m pretty sure it was at the -- prior to that time of
the complaint.
THE COURT: You’re pretty sure?

App. 181
of

MR. SULLIVAN: Yes. The nexus between the action

[p.47]
the City Council in failing to adequately notify the
public of this particular ordinance affected every
member of the plaintiff. And the complaining party to
the plaintiff -- I mean to the Attorney General’s Office
is admittedly not the plaintiff, but it’s a member of the
plaintiff.
THE COURT: But how was the Action Committee
aggrieved by this legislation?
MR. SULLIVAN: Judge, I don’t believe -THE COURT: The committee itself.
MR. SULLIVAN: Yeah. I don’t believe -- first of all,
it’s my -- the plaintiff’s position that we don’t have to
prove that we’re aggrieved. In fact, I think the statute
says the burden shifts to the City to prove that it was
compliant with the open meetings -THE COURT: As I read 42-46-8, “Any citizen or
entity of the state who is aggrieved as a result of
violations of the provisions of this chapter may file a
complaint with the attorney general.” Would you agree
with me that that is the operative section?
MR. SULLIVAN: I think that lends itself to
standing. Yes. But the aggrieved -THE COURT: But I’m not -- I don’t know how the
Action Committee was aggrieved.

App. 182
MR. SULLIVAN: It was aggrieved because the
action
[p.48]
that was omitted from the agenda started a series of
events that ended up taking their COLAs.
THE COURT: Thank you.
MR. DOLAN: Your Honor, we’re going to present on
the Open Meetings Act violation first.
THE COURT: Okay.
MR. WRAY: Your Honor, so there’s two procedural
steps in an alleged open meetings violation. The first is
a complaint filed with the Attorney General, and
there’s no question that the statute says that an
aggrieved citizen or entity can file a complaint with the
Attorney General.
However, the next section of the ordinance -- I’m
sorry, the statute addresses the ability to file suit, and
the ability to file suit is the one that’s limited to
individuals only.
THE COURT: That’s Subsection (b).
MR. WRAY: That’s correct.
THE COURT: Is that Subsection (b)?
MR. WRAY: Right.
THE COURT: And I was quoting (a).
MR. WRAY: That’s correct. And as the Court noted,
the individual -- no individual is a plaintiff in this

App. 183
matter. It’s a tactical choice that the plaintiff made. We
in fact attempted to join individuals at the outset of
[p.49]
the case, and the plaintiff specifically opposed that
motion.
The second standing issue here is not only that of
the plaintiff, but that they have failed to actually join
the body that’s allegedly in violation of the Open
Meetings Act. The Attorney General complaint and
letter addressed the Cranston City Council, which is a
body that is distinct from the City of Cranston itself,
and the City of Cranston is not subject to the Open
Meetings Act because it’s not a subdivision of a
municipal government. And the definition is included
in 42-46-2, which defines a public body as any
department, agency, commission, committee, board,
council, bureau, or authority or any subdivision thereof
of state or municipal government. And there’s case law
which we’ve cited in our memorandum that makes
clear that this is indeed aimed at divisions rather than
municipal governments itself.
The second question is, even if they had a proper
plaintiff and a proper defendant, they don’t have facts
showing that -- and this is a matter of law -- whether
business was discussed at this March 25th, 2013,
meeting.
Now, bear in mind this is not the meeting in which
these ordinances were passed. That didn’t happen for
almost a month. And this is not the meeting at which
the ordinances were debated and discussed, which was
at the

App. 184
[p.50]
April 11, 2013, meeting of the Finance Committee. All
that happened -- and we had Mr. Sullivan give his
personal recollection -- was that the city clerk read the
name of the ordinance and where they were assigned.
Now, this is the city clerk taking an action at a City
Council meeting, but all the clerk was doing was
providing notice of what would later happen at the
April 11, 2013, meeting.
And the Attorney General in concluding -- I’m sorry,
the Special Assistant Attorney General in concluding
that this may be a violation of the Open Meetings Act
relied on a case that we think is completely
distinguishable on the facts in which the agenda item
that was in that case, Anolik, involved a really
substantive action that was taken. In that case the
zoning board, I believe it was, stated that somebody
can continue construction on a building for two years -for two years more, which to any of the neighbors is an
important substantive action that they wanted to be
heard on. Here, no substantive action was taken. All
that was done was providing additional and entirely
superfluous notice of what would take place at the
April 11, 2013, meeting.
And to point out the -- the significance of this
complaint, an individual that was a retired member of
the Cranston Police Department was there on March
25th, 2013,

App. 185
[p.51]
and spoke at length concerning the issues of this case,
suggesting that if there was error -- and we deny there
was -- it was entirely harmless, which appears also to
have been the conclusion of the Special Assistant
Attorney General. Thank you.
THE COURT: I think that concludes the motions.
MR. DOLAN: I’m sorry, Your Honor?
THE COURT: That concludes the motions.
MR. DOLAN: Well, no, it doesn’t.
THE COURT: The issue with beyond a reasonable
doubt.
MR. DOLAN: Well, the only thing that’s left is the
res judicata argument about the 2005 Procaccini
decision which Mr. Sullivan addressed. I’d like to be
heard on that.
THE COURT: Yes.
MR. DOLAN: Thank you, Your Honor. I have two
points. First, examination of the subsequent precedent
following Justice Procaccini’s decision makes clear that
modification of retiree benefits is most definitely not a
subject of collective bargaining. That’s number one.
And I’ll explain the support for that in a moment.
Number two, the transactional analysis that applies
in a res judicata claim that Your Honor referred to also
makes plain that nothing about that decision is res

App. 186
[p.52]
judicata in this case. And the Court may already be
painfully aware of this, but I need for purposes of the
record to go through it, however briefly.
The decision of Judge Procaccini in the 2005 case
concerned a 2003 -- two 2003 ordinances of the City of
Cranston. Unlike -- unlike the limited remedy that was
effectuated by the ordinance at issue in this case, the
ordinances in those cases completely eliminated the
pension benefits across the board. I say that because I
want to distinguish that case from this case. But the
holding of Judge Procaccini in that case was really
limited. Consequently, the last two sentences of his
decision are the most operative. And there wasn’t a
standing issue in that case. There was in the
subsequent cases that I’ll get to in a minute, and I’ll
elucidate that for the Court.
But the last two sentences he writes,
“Consequently, this Court is constrained to find that
the arbitrator’s decisions, both of which declare the
City’s repeal of retiree benefits violative of the
respective collective bargaining agreements, are
rational and draw their essence from the agreements
between the parties.”
In other words, there was sufficient evidence to
uphold the arbitrator’s decision. That’s all he found.
But he goes on to say at the end -- and we’re human

App. 187
[p.53]
beings. I think we like to complete our thoughts. He
said, “Accordingly, any modification of retirees’ benefits
must be accomplished through collective bargaining.”
Classic dicta, obiter dictum, after the holding.
Assuming, however, that’s the holding of the case,
the subsequent decisions in Arena, which I know the
Court has probably read more than I have, the City of
Newport case, which is not mentioned often, and more
recently the Providence School Board case all make
plain that if that was Judge Procaccini’s holding, that’s
not the law anymore.
Arena. In Arena the Court held -- the Supreme
Court held that the Firefighters’ Arbitration Act does
not apply to a lawsuit brought by retirees in Superior
Court and that the Superior Court, not an arbitrator,
had jurisdiction to decide a case concerning the
modification of retirees’ benefits.
Now, interestingly, in Judge Procaccini’s decision he
relied specifically on the Westerly Lodge case, a prior
Supreme Court decision. Justice Williams in Arena
went to pains to point out that Westerly was completely
different from Arena and didn’t apply. Here’s what he
said and why Westerly, which said yes, you can have an
arbitration that modifies retirees’ benefits, why that
[p.54]
was wrong. He points out that Arena’s totally different.
There, in Westerly, the panel issued a pension escalator
to be awarded to those employees retiring while the
CBA was in effect. It was about current employees, not

App. 188
about retirees. By contrast, he pointed out in Arena the
only issue for an arbitration panel to decide in this case
concerns already retired firefighters.
So in Arena the Court found that the Superior
Court, not the arbitrator, had the authority to deal
with that issue, thus making clear, I think at the
outset, that Judge Procaccini’s decision, though wellfounded on the authority of the arbitrators, was no
longer the law in the State of Rhode Island. So you
don’t even get to a res judicata analysis if you go there.
The next case on this issue, City of Newport, cited at
54 A.3d 976 -- and these are all in our papers, Your
Honor, and we filed an objection on this. I don’t know
if the Court has that. I want to make sure that it does
because I got the impression you were reading from our
pretrial memo, and I want to make sure the Court has
our objection on this. And if not, what we’ll do is we’ll -we’ll submit it again to the Court following the hearing.
But in the City of Newport case, there the City
proposed to change health coverage for both active and
retired firefighters. The Court’s a little familiar with
[p.55]
health care coverage issues.
THE COURT: I do have your objection.
MR. DOLAN: Good.
THE COURT: I might have been looking at -MR. DOLAN: Thank you. The union -- the union in
that case in response to that action by the City of

App. 189
Newport -- we’re going to change your health care
benefits -- filed grievances and sought arbitration. The
City filed a complaint in the Superior Court asking for
a declaration that the grievances were not arbitrable,
that the Superior Court had the exclusive jurisdiction
to deal with modification of retirees’ benefits. The trial
court agreed and so did the Supreme Court on appeal.
And in it Mr. Justice Indeglia really expanded on the
Arena analysis of when it is and how a court versus an
arbitrable panel has the authority to adjudicate
retirees’ benefits. He says there’s two things. In this
case the Firefighters’ Arbitration Act -- and we know
from Arena that a retiree is not embraced by the
Firefighters’ Retirement Act [sic]. He said but also we
get to look to the contract, right, because the CBA,
which draws its authority from the Firefighters’ Act,
could theoretically embrace the ability of the City and
the union to, by contract, agree to subject a retiree to
an arbitrable forum. And he found -- the Court found
[p.56]
there that the contracts didn’t so provide. And there’s
no evidence in this case that any of the collective
bargaining agreements reach the people who are
currently retired.
The other concern which existed in Arena and which
was, in part, the basis for the Court’s decision there
was that the Court was concerned that if the union
could on its own, without the presence of the retirees,
collectively bargain over the retirees’ benefits, they
could sell the retirees out for their own benefit. And
Mr. Justice Williams said that would be completely
inappropriate.

App. 190
If there was any doubt about this question, any
doubt whatsoever, it was conclusively dispatched again
in June of 2013 in the Providence School Board case, 68
A.3d 505. There, the City proposed to make changes in
the way in which retirees’ working rights were
established. The Court may remember from the
Providence Medicare case that what retirees pay is a
function of the calculated working rates for their claim
experience, and it changes from year to year. And it -Providence had determined in this particular case that,
not surprisingly, retirees had a higher use of benefits -they’re older people. They go to the doctor more. I’m
finding that out myself recently -- and proposed to
make unilateral changes in
[p.57]
the working rates. The union sought arbitration. It got
arbitration. The arbitrator ruled that the resulting
grievance was arbitrable and that it was a violation of
the collective bargaining agreement. The trial court
and the Supreme Court both disagreed. The CBA did
not say that retirees’ benefits would be arbitrable, and
we know that the case law, Arena and the prior cases
I’ve mentioned, make clear that the modification of
retirees’ benefits is not the subject of arbitration. It’s
for you to decide.
Even if the 2005 Procaccini decision was still alive,
still had vitality, nobody demanded arbitration. As we
-- as we make clear in our papers, they filed suit, so
we’re here. That argument, if it exists at all -- and I
don’t believe it does for the reasons I’ve articulated -it’s been waived.

App. 191
On the transactional analysis, there are really three
points as to why res judicata does not appear here.
First, res judicata is -- is much misunderstood by
people. It’s got two facets. One is claim preclusion. The
other is issue preclusion, commonly referred to as
collateral estoppel. Claim preclusion relates to
judgments. If there’s a judgment in the first case, you
can’t re-litigate that claim in a second case.
The cause of action in Judge Procaccini’s decision
[p.58]
in 2005 was whether the arbitrator’s ruling had merit.
There’s no arbitration at issue here. There’s no issue of
that, no claim of that that’s been presented. So the
requirement that the cause of action be the same is
completely missing here.
Res judicata also requires mutuality of parties.
There’s no mutuality here. The plaintiff was not even
a party to the 2003 case, and the unions that were are
not a party to this case. So there’s no mutuality of
parties.
Res judicata requires an identity of issues, that is,
the claims and issues presented have to be the same.
The 2003 case was an affirmation of an arbitration
award. Here, the question is one that was not even
presented, frankly has never actually been tried and
decided before a court in a trial, was whether the
contracts were lawfully impaired under the Contract
Clause. That’s an issue and a claim that’s never been
presented, wasn’t presented in 2005 and is only
presented in this case.

App. 192
So on -- setting aside whether Judge Procaccini’s
decision is even valid anymore, the elements required
under a transactional analysis for res judicata are not
present across the board.
THE COURT: Thank you. Response?
in

MR. SULLIVAN: I believe I addressed those issues

[p.59]
my initial argument. Thank you.
THE COURT: I think the final motion is the motion
in limine, Contract Clause.
MR. DOLAN: Actually, Your Honor, my associate
and I had a conversation about this over the weekend.
Because when I read the letter -- when I looked at the
letter that you looked at, and you saw the same thing
I did, which is, is there a motion in limine on the
Contract Clause? We’ve already argued that, which is
the evidentiary standard.
THE COURT: Right. That’s what I was going to say.
MR. DOLAN: That’ s done. In the letter we also said
we moved for summary judgment on the Contracts
Clause analysis, and I think that’s what the Court is
alluding to now. In fact, we did only insofar as the
takings claim is concerned because in the plaintiff’s
complaint they’re kind of melded together.
But we also argued in the takings that there’s no
protectable property interest. That was the argument
that -- that Mr. Wray made I think this morning and

App. 193
which we advanced in our papers. So it does go to what
I think is Count II, which is the breach of contract
claim, because we’re arguing not only is there no
takings because there’s no protectable property
interest, we’re arguing that there’s no breach of
contract because
[p.60]
there’s no protected property interest. So I think the
Court has heard all of that already. I don’t know if the
Court needs additional supplementary argument on
that.
THE COURT: I don’t.
MR. SULLIVAN: Judge, I received the takings
paperwork, the motion for summary judgment. I -- and
I saw the allusion or the alluding to blending. I didn’t
realize there was a summary judgment motion on the
breach of contract claim.
THE COURT: Let me see.
MR. DOLAN: I think, Your Honor, to be fair, to be
fair -MR. SULLIVAN: There was not.
MR. DOLAN: To be fair, there’s no formal motion on
that count. We argued, though, the substance of it in
the takings argument. And if Mr. Sullivan wishes to be
heard, I obviously have no objection to that. I just
wanted to alert the Court that although there was no
formal motion, we argued that legal point in our
takings memorandum.

App. 194
MR. SULLIVAN: So there is no motion for summary
judgment on the breach of contract?
MR. DOLAN: I think that’s correct, Your Honor.
MR. SULLIVAN: Okay.
THE COURT: Do you want to be heard?
[p.61]
MR. SULLIVAN: I’ve already been heard on that,
Judge. Thank you.
THE COURT: Okay. Just give me a minute. I’m
going to take a break. Before I take a break, I’ve heard
all the motions, correct?
MR. DOLAN: Yes, you have, Your Honor.
THE COURT: I thought I had, but I want my record
to be clear. Thank you.
(RECESS)
THE COURT: I am going to read two bench
decisions in this Cranston Police Retirees Action
Committee v. The City of Cranston, KC/2013-1059. I
am reserving until later this week on the plaintiff’s
motion for summary judgment regarding the Open
Meetings Act. I think there was a cross-motion on that.
MR. DOLAN: Yes.
THE COURT: I am going to give the decision on the
issue of res judicata. I’ll give the decision on the
Takings Clause. With respect to the motion in limine,

App. 195
burden of proof, you’ll get that later in the week,
hopefully by Wednesday.
MR. DOLAN: Very well, Your Honor. Thank you.
THE COURT: But we’re not going to put it down for
Wednesday. Brian will let you know.
MR. DOLAN: We won’t give you a deadline, Your
[p.62]
Honor.
THE COURT: But it will be a bench decision.
MR. DOLAN: Very well.
MR. SULLIVAN: Thank you.
THE COURT: First before the Court is the defendants’
motion for summary judgment on the plaintiff’s takings
claim pursuant to Superior Court Rule of Civil
Procedure Rule 56. I’m not going to review the facts of
this case, and I’m also not going to review the standard
of review for a motion of summary judgment. I’ve done
that earlier. I understand it, and I will stand by it.
Article I, Section 16 of the Rhode Island
Constitution provides that “Private property shall not
be taken for public uses, without just compensation.”
Article I, Section 16. Also the United States
Constitution provides for that.
The Rhode Island Supreme Court has described the
Takings Clause’s purpose as follows: “When the
government interferes with an individual’s property
rights, a point may be reached when the governmental

App. 196
interference amounts to a taking and the government
must then compensate the individual for that
interference.” Brunelle v. Town of South Kingstown,
700 A.2d 1075 at 1081 (R.I. 1997).
[p.63]
As a threshold matter, the claimant must have a
property interest protected by the constitution. Such
property interests are created and their dimensions are
defined by existing rules or understandings that stem
from an independent source such as Rhode Island law.
Ruckelshaus v. Monsanto Co., 467 U.S. 986, quoting
Webb’s Fabulous Pharmacies, 449 U.S. 155 (1980).
Accordingly, this Court must determine whether the
3 percent COLA benefit constitutes a property right
afforded protection under the constitution. The Rhode
Island Supreme Court faced a related question in the
Arena case, and the case’s holding is somewhat
applicable here. Arena, 919 A.2d 379.
There, the City of Providence applied new, less
generous COLA calculations to police and fire
department employees who had retired before the
effective dates of the ordinances providing the new
calculations. Our Supreme Court considered whether
the COLA benefits were vested pension benefits or a
gratuitous benefit separate from the pension. In Arena
the Court held that the plaintiff had a vested interest
in the COLA provided by the ordinance. The Supreme
Court adhered to the plain language of the ordinance,
noting that it was a municipality’s duty to carefully
craft an ordinance granting a pension benefit so that it
is clear whether

App. 197
[p.64]
the benefit is gratuitous or vested. In looking at the
applicable ordinance, the Supreme Court found
particularly relevant the definition of pension as an
annual payment for life as well as the language
describing a COLA as due for the lifetime of the retiree
or the beneficiary. Ultimately, based on the federal
case law as well as the language and context of the
ordinance, including the COLA’s collective bargaining
origins, the Court held that “the council did not have
the authority to reduce plaintiffs’ COLA benefit by
subsequent ordinance.” Id., quote at page 395.
The Arena Court’s analysis is instructive in this
case. In order to determine whether the plaintiffs have
a vested property interest in the COLA, the Court must
look to the ordinance and examine whether the 3
percent COLA has vested. The City of Cranston
ordinance that addresses retirement benefits of retired
police officers is 2.20.050, and the ordinance that
addresses retired benefits for the retired firefighters is
2.20.050. The firefighters’ ordinance states that “the
member so retired shall be entitled to the respective
benefits as follows.” The police ordinance specifies that
a retiree “shall be paid annually for the remainder of
his or her life.” This lifetime language reappears
several times in the ordinance at A(9) (b), A(10) (a) and
A(10) (d). The
[p.65]
section of the ordinance dealing with COLAs does not
use the precise lifetime language, instead states “the
pension cost-of-living adjustment (COLA) paid to such

App. 198
offer or member shall be fixed at three percent per
annum.”
Defendants contend that this Court should read the
COLA section of the ordinance as separate from the
base pension payment sections of the ordinance,
essentially arguing that without specific lifetime
language, the COLA sections grant only a gratuitous
benefit.
However, this Court must consider the entire
statute as a whole; individual sections must be
considered in the context of the entire statutory
scheme, not as if each section were independent of the
other. Mendes v. Factor, 41 A.3d 994 at 1002 (R.I.
2012). The Court also recognizes that “the word shall is
ordinarily the language of command.” Alabama v.
Bozeman, 533 U.S. 146, quoting the Anderson case, 329
U.S. 482. The Court also notes that the “pension
statutes must be construed liberally and in favor of the
intended beneficiaries.” Trifari v. Employees’
Retirement System of Providence, 485 A. 2d 100.
Therefore, irrespective of the inclusion or deletion of
lifetime language, when the ordinances are read in
their entirety, it is plain that the ordinances mandate
[p.66]
the payment of COLA every year. The very fact that
the lifetime language is so pervasive in the ordinance
speaks to the retiree or beneficiary’s reasonable
expectation that a COLA benefit is -- that a COLA is a
vested benefit. We refuse to add language to the
ordinance to classify it as gratuitous simply because
such classifications were added to subsequent revisions

App. 199
of the ordinance. See the Arena case. This Court is
therefore satisfied that the subject ordinances confer a
vested benefit to retired employees. Accordingly, the
plaintiff’s COLA benefits, as vested pension benefits,
are property rights for the purpose of the Takings
Clause. See Copeland v. Copeland, 575 P. 2d 99.
The Court’s inquiry will now turn to whether the
government’s actions rose to the level of a compensable
taking. As an initial matter, the Court recognizes two
species of takings: physical takings and regulatory
takings. Buffalo Teachers Union -- strike that. Buffalo
Teachers Federation v. Tobe, 464 F. 3d 362. The Second
Circuit has explained the distinction between these two
types of takings as follows:
Physical takings or takings -- strike that. Physical
takings or physical invasion or appropriation cases
occur when the government physically takes possession
of an interest in property for some public
[p.67]
purpose. The fact of a taking is fairly obvious in
physical takings cases: for example, the government
might occupy or take over a leasehold interest for its
own purpose or the government might take over a part
of a rooftop of an apartment building so that cable
access may be brought to residences within. But when
the government acts in a regulatory capacity, the
question of whether a taking has occurred is more
complex. The gravamen of a regulatory taking is that
a state regulation goes too far and in essence effects a
taking. That’s a quote from Buffalo Teachers.

App. 200
Here, the City’s ordinances do not present the
classic taking in which a government directly
appropriates private property for its own use. Eastern
Enterprises v. Apfel, 524 U.S. 498 at 522. Rather, the
interference with the plaintiffs’ COLA benefits “arises
from a public program adjusting the benefits and
burdens of economic life to promote the common good.”
Buffalo Teachers at 740 -- strike that -- that’s 374,
quoting Penn Central Transportation v. City of New
York, 438 U.S. 104 at 124 (1978). As such, the changes
to the plaintiff’s COLA benefits are regulatory takings
rather than per se takings. See Gavin Reinke, R-E-I-NK-E, When a Promise Isn’t a Promise: Public
Employers’ Ability to Alter Pension Plans of Retired
Employees,
[p.68]
64 Vanderbilt Law Review 1673 at 1693 (2011).
In determining whether a regulatory taking has
occurred, the Court avoids any set formula and instead
conducts an ad hoc inquiry. Alegria v. Keeney, 687 A. 2d
1249 at 1252, quoting Penn Central at 124. The inquiry
consists of three factors: one, the economic impact of
the regulation on the claimant; two, the extent to which
the regulation has interfered with distinct investmentbacked expectations; and three, the character of
governmental action. That’s a quote from Penn Central
at 124.
With respect to the first two factors, the Court is
mindful that in a wide variety of contexts the
government may execute laws or programs that
adversely affect recognized economic values. Penn

App. 201
Central at 124. Indeed, it is well-established that mere
diminution in value of property, however serious, is
insufficient to demonstrate a taking. Concrete Pipe &
Products of Cal., Inc. v. Construction Laborers Pension
Trust for Southern California, 508 U.S. 602 at 645. As
the Rhode Island Supreme Court has recognized, the
mere fact that the plaintiff may not have received the
anticipated return on his investment does not render
null the remaining value of the property.
Here, there is no genuine issue of material fact
[p.69]
that the ordinances affect the COLAs for a period of ten
years and are therefore temporary. Thus, the entirety
of the plaintiff’s vested pension benefits is not affected.
Indeed, plaintiffs shall maintain any COLAs granted
prior to the passage of the 2013 ordinance. Further,
plaintiffs retain any payment of -- payments or health
benefits even after the ordinance. The instant matter
is analogous to the Second Circuit’s decision in the case
of Buffalo Teachers v. Tobe, which I cited earlier.
There, the Court recognized that a wage freeze for
public employees did not constitute an illegal taking
because “the wage freeze is temporary and operates
only during a control period.” At Page 375. The Court
also noted that “this is not a case in which a law
abrogates an entire contract. The freeze affects only a
small increase in wages.” Here too, this Court is
satisfied that the economic impact on the plaintiff as
well as the extent to which the regulation interfered
with distinct investment-backed expectations do not
rise to the level -- or do not constitute an illegal taking.
This finding accords with the United States Supreme

App. 202
Court’s statement that “the fact that legislation
disregards or destroys existing contractual rights does
not always transform the regulation into an illegal
taking.” Connolly v. Pension Benefit Guaranty
Corporation, 475 U.S. at 224.
[p.70]
The Court’s finding is further bolstered by the
character of the government action. Here, the City’s
changes to the COLA benefits are uncharacteristic of a
regulatory taking in that these changes are a “negative
restriction rather than an affirmative exploitation by
the state.” Buffalo Teachers at 375. Furthermore, the
government action was spurred by the genuine interest
in keeping the pension plan sustainable as evidenced
by nine legislative findings that preceded the
ordinance. The findings indicate a large unfunded
pension liability, show that city -- strike that -- show
that Cranston was listed as a “distressed community,”
signifying that the community, and I’m quoting, “has a
high property tax burden relative to the wealth of our
taxpayers” and states that “it is in the best interests of
all residents to maintain a viable and sustainable local
police and fire pension plan.” See the ordinance,
Findings 2, 3 and 9. As the U.S. Supreme Court has
stated, “Given the propriety of the governmental power
to regulate, it cannot be said that the Takings Clause
is violated whenever the legislation requires one person
to use his or her assets for the benefit of another.”
Connolly at 223.
Consequently, this Court finds that the changes to
the plaintiff’s COLA benefits do not constitute an

App. 203
[p.71]
illegal taking. As such, the Court grants the
defendants’ motion for summary judgment on the
plaintiff’s takings claims in Count II of the complaint.
To the extent Count III touches on takings, the Court
is ruling in the defendants’ favor. Because the Court
found that the benefit constitutes a protected property
right, to the extent the issue was argued in the
Contracts Clause claim, that motion for summary
judgment on Contracts Clause is denied. This decision
relates to the Takings Clause claims only.
Counsel please prepare the appropriate order.
MR. DOLAN: We will do so, Your Honor. Thank
you.
THE COURT: You’re welcome. Now with respect to
res judicata. And again, I’m reserving on the Open
Meetings Law, which was included in the same motion.
This motion for summary is brought pursuant to
Rule 56 of the Rhode Island Superior Court Rules of
Civil Procedure. Plaintiffs seek a ruling that res
judicata prevents this Court from re litigating a 2005
Superior Court judgment on similar facts and a ruling
that the City of Cranston violated the Open Meetings
Law. As I said earlier, I’m going to hold off on the Open
Meetings Law. And again, I’m not going to recite the
facts. I am mindful of the standard of review.
The doctrine of res judicata bars the re-litigation

App. 204
[p.72]
of all issues that were tried or might have been tried in
an earlier action. Huntley v. State, 63 A.3d 526. The
preclusion doctrine operates as a bar to a second cause
of action where there exists: one, identity of parties;
two, identity of issues; and three, finality of judgment
in the earlier case. Torrado v. -- strike that. Torrado
Architects v. Rhode Island Department of Human
Services, 102 A.3d 655 at 658. It is unnecessary for me
to at this point consider factors one and three as the
Court finds that factor two, identity of issues, is not
met in this action.
The Rhode Island Supreme Court has adopted the
transactional rule set forth in Section 24 of the
Restatement of Judgments to determine if factor two,
identity of issues, is met. The transactional rule
provides that all rights of plaintiffs to remedies against
the defendant are extinguished with respect to all or
any part of the transaction, or series of connecting
transactions, out of which the original action arose.
Restatement of Judgments, Section 24(1). In
determining whether a claim arose out of the same
transaction, the Court will consider whether the facts
are related in time, space, origin, or motivation,
whether they form a convenient trial unit, and whether
their treatment as a unit conforms to the parties’
[p.73]
expectations or business understanding or usage.
Here, there are no genuine issues of material fact in
existence. The 2005 decision was decided with respect
to a 2003 ordinance. This case involves a 2013

App. 205
ordinance. Clearly, the ordinances are different. The
2005 decision was not based on the same transaction as
the instant case. While the facts of the scenarios and
the contents of the various ordinances may be similar,
there’s no indication that the 2003 and 2013 ordinances
are any way identical. Any similarity between the
ordinances does not change the fact that the 2005
decision was based on 2003 ordinances whereas this
decision involves a 2013 ordinance. The Court is
therefore satisfied that the 2005 decision and the
present case are not related in time or origin. It is
inconceivable that the City would have reasonably
foreseen that the 2005 decision would operate as res
judicata on any subsequent ordinance passed by the
City that bore some relationship to the pension
benefits.
Moreover, the issues decided in the 2005 decision
are not the same issues before the Court today. The
2005 decision centered in large part on whether or not
the unions had standing to represent the retirees.
There’s no standing concerns here. Further, the
ordinances at issue in 2005 repealed a set of earlier
ordinances and
[p.74]
did not provide for generous benefit packages -- strike
that -- did not provide for the generous pension benefits
contained in earlier ordinances. I’m quoting that
decision at 5. Therefore, the present case is easily
distinguishable. The ordinance at -- strike that. The
ordinances at issue here, which were passed a full eight
years after the 2005 decision, did not repeal any earlier
ordinances. There is nothing that connects these two

App. 206
cases. And the Court will also note, with respect to
identity of the parties, which I said I was not going to
rule on, there is absolutely no identity of the parties
that would fulfill the requirements necessary to
establish that element of res judicata in the
transactional sense. Therefore, plaintiffs cannot take
refuge under the doctrine of res judicata.
The plaintiff’s motion for summary judgment is
denied. Defendants’ cross-motion is granted. Thank
you.
MR. DOLAN: Thank you, Your Honor.
MR. SULLIVAN: Thank you, Judge.
(A D J O U R N E D)

App. 207

APPENDIX D
CONSTITUTION
U.S. Const. Art. 1, § 10, cl. 1 Section 10.
No state shall enter into any treaty, alliance, or
confederation; grant letters of marque and reprisal;
coin money; emit bills of credit; make anything but gold
and silver coin a tender in payment of debts; pass any
bill of attainder, ex post facto law, or law impairing the
obligation of contracts, or grant any title of nobility.
U.S. Const. amend. V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in
the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor shall
any person be subject for the same offense to be twice
put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use, without just compensation.

App. 208

APPENDIX E
3-13-04
THE CITY OF CRANSTON
________________
ORDINANCE OF THE CITY COUNCIL
IN AMENDMENT OF TITLE 2.20.050 OF THE
CODE OF THE CITY OF CRANSTON, 2005,
ENTITLED “POLICE PENSION FUND RETIREMENT FROM SERVICE”
(Officers or Members Hired
Prior to July 1, 1995)
No. 2013-5
*Scrivener’s error line 411 Corrected June 30, 2013 to
July 1, 2013
Passed:
April 22, 2013

/s/John Lanni
John Lanni, Council President

Approved:
April 23, 2013

/s/Allan W. Fung
Allan W. Fung, Mayor
Purpose

The purpose of this ordinance is to provide
retirement security to current and retired officers or
members of the city’s permanent police department
who have been in active service with such department
and are members of the local police and fire pension
plan that is severely underfunded by codifying a

App. 209
reasonable alternative funding improvement plan in
accordance with the mandates of Rhode Island General
Laws section 45-65-1 et seq.
Legislative Findings
It is the intention of the City of Cranston, by and
through its City Council, upon the recommendation of
the Mayor, to begin the process of ensuring the
sustainability of the City of Cranston’s locally
administered police and fire pension plan and to
advance and maintain the long-term stability of said
plan. We find and declare that:
1. The City of Cranston administers a local pension
plan for police and fire members who were hired
prior to 1995 (“plan”). As of the city’s actuarial
report of December 2012, there were 483 plan
participants, of which only 48 were active
employees. At that time, the total accrued
liability was $312.9 million and our unfunded
liability was $290.2 million. Our annually
required contribution for FY 2013-2014 will be
$28.5 million. Our plan is only funded at
approximately 16%.
2. For the FY 2012-13 budget year, the City of
Cranston could only afford to fund
approximately $22 million of its $25.7 million
annually required contribution, which is
approximately 85.5% of its obligation. While this
was an increase over prior years, the City of
Cranston has had a long and troubling history of
underfunding its annually required
contributions.

App. 210
3. According to a September 2011 report by the
Office of the Auditor General entitled Pension
and OPEB Plans Administered by Rhode Island
Municipalities (“Auditor General report”): “Many
municipal pension plans are severely
underfunded which presents the risk that
sufficient funds will not be available to meet
promised benefits to retirees. It also undermines
the overall fiscal health of the plan’s sponsor.”
4. The Auditor General report specifically noted as
an example that the “assets available within the
City of Cranston Police and Fire Employees
Retirement System are only sufficient to make
pension benefit payments to retirees for
approximately two years.”
5. In 2012, the State of Rhode Island, pursuant to
Rhode Island General Law section 45-13-12,
designated the City of Cranston a “Distressed
Community” which indicates our community has
a high property tax burden relative to the
wealth of our taxpayers. In 2013, the Governor’s
proposed budget introduced to the General
Assembly continued to designate the City of
Cranston as “Distressed Community.”
6. In accordance with Rhode Island General Law
section 45-65-6, the city hired Buck Consultants,
our actuary, to perform an initial actuarial
experience study (“study”). That study made
several recommendations to our assumptions for
our actuarial valuation of our local police and
fire pension plan. The city’s Board of Investment
Commissioners, which is authorized by our city

App. 211
charter to manage the assets of the pension
fund, accepted those recommendations for use in
the next actuarial valuation of the plan.
7. Based upon the experience study results, our
plan actuary certified in April 2012 that our
plan was in “critical status” as defined by Rhode
Island General Law section 45-65-6.
8. Following said certification, Mayor Fung
provided the mandated notice of “critical status”
determination to all plan participants and
required statutory entities.
9. We find that it is in the best interests of all
residents, individual employees, retirees and
beneficiaries of the City of Cranston to maintain
a viable and sustainable local police and fire
pension plan and to develop a reasonable
alternative funding improvement plan to emerge
from “critical status” as required by Rhode
Island General Laws section 45-65-6.
It is ordained by the City Council of the City of
Cranston as follows:
SECTION 1. Title 2.20.050 of the Code of the City
of Cranston, 2005, entitled “Police Pension Fund -Retirement from Service” Section A only pertaining to
Officers or Members Hired Prior to July 1, 1995 is
hereby amended by adding the following:
2.20.050 - Retirement from service.
Any officer or member of the permanent police
department who has been in active service in such

App. 212
department may retire pursuant to this section upon
his or her written application to either the Cranston
city council if said member is a member of the police
pension fund of the city of Cranston as hereinafter
described in subsection (A) of this section or to the
state of Rhode Island retirement board if said member
is a member of the state of Rhode Island’s optional
twenty (20) year on service allowance Rhode Island
General Laws Section 45-21.2-22, as modified, and
hereafter defined in subsections (B) and (C) of this
section. Upon said member qualifying for a pension
either under subsections (A), (B), or (C) of this section,
the city council by a majority vote or the state of
retirement board shall approve said pension and the
member so retired shall be entitled to the respective
benefits as follows:
A. Police Pension Fund of the City of Cranston
(Officers or Members Hired Prior to July 1, 1995).
1. Any officer or member of the permanent police
department who has been in active service in such
department for twenty (20) years or more may apply in
writing to the city council to be placed on the pension
list and the city council shall thereupon place such
officer or member so applying on the pension list and
such officer or member so retired shall then become
entitled to the following benefits to be paid from the
police pension fund:
a. If such officer or member so retired has
attained the age of fifty-five (55) years, he or she
shall be paid annually for the remainder of his
or her life in equal monthly installments, a sum

App. 213
equal to fifty-five (55) percent of his or her
annual salary, except as noted below.
b. If such officer or member so retired has not
attained the age of fifty-five (55) years, he or she
shall be paid annually until his or her fifty-fifth
(55th) birthday in equal monthly installments a
sum equal to one-half of his or her annual
salary, and upon attaining his or her fifty-fifth
(55th) birthday for the remainder of his or her
life, in equal monthly installments a sum equal
to fifty-five (55) percent of his or her annual
salary, except as noted below.
2. Any officer or member of the permanent police
department who has been in active service in said
department for a period of at least fifteen (15) full
years, but less than twenty (20) full years, may apply
in writing to the city council to be placed on the pension
list; however, said member will not be eligible to
receive any pension benefits until the date which would
represent his or her twentieth (20th) anniversary on
the police department. Such member so retiring shall
receive two percent of his or her annual pay for each
full year of service, such officer shall not be entitled to
the escalator clause nor shall he or she be entitled to an
additional five percent of his or her annual salary upon
attaining the age of fifty-five (55). The pension benefit
paid under this section will always be figured on the
pay the officer was receiving when he or she
terminated and said officer shall receive no other
benefits in addition to the said two percent for each full
year of service.

App. 214
3. With respect to officers or members who retire on
or before August 31, 2006, the term “annual salary”
shall mean the prevailing annual salary of active
officers or members of the permanent police
department at the rank which corresponds to the rank
which such retired officer or member held on the date
of his or her retirement. If no corresponding rank exists
in the permanent police department, the mayor and
finance director shall, with the approval of the city
council, determine an annual salary at the prevailing
salary scale which is equivalent to the rank which such
retired officer or member held on the date of his or her
retirement.
With respect to officers or members who retire on or
after September 1, 2006, the term “annual salary” as
used in this section shall mean the prevailing annual
salary of active officers or members of the permanent
police department at the rank which corresponds to the
rank which such retired officer or member held on the
date of his or her retirement. If no corresponding rank
exists in the permanent police department, the mayor
and finance director shall, with the approval of the city
council, determine an annual salary at the prevailing
salary scale which is equivalent to the rank which such
retired officer or member held on the date of his or her
retirement. Notwithstanding the foregoing, the pension
cost-of-living adjustment (COLA) paid to such offer or
member shall be fixed at three percent per annum,
compounded, without any escalation based on raises
granted to active employees.
4. The provisions of this section with respect to the
definition of “annual salary” and the payment of

App. 215
pension benefits prior and subsequent to the
attainment of fifty-five (55) years of age shall apply to
all officers or members of the permanent police
department who remain in the police pension fund of
the city of Cranston.
5. Any officer or member of the permanent police
department who has been in active service in such
department for more than twenty (20) full years shall
be entitled to receive a pension in an amount equal to
two percent of his or her annual salary for each full
year of service up to and including thirty (30) full
years. No pension credit shall be awarded any member
of the police department for any partial years of service
when computing the pension benefits. All members
who have attained thirty (30) years of service and
choose to continue in service shall not be entitled to
receive an additional two percent for years served
beyond thirty (30) full years of service but shall be
required to continue to make the contributions to the
pension fund required by this section.
6. In addition to the above pension benefits, a
member shall receive the retirees’ longevity benefit as
presently being paid. The foregoing shall not apply to
those employees retiring prior to July 1, 1978.
7. During the period of July 1, 1982 to June 30,
1983, no member who retires shall receive any other
pension benefits other than those set forth in
subsections (A)(1)(a) and (b) of this section.
8 a. Commencing July 1, 1983, any officer or
member with thirty (30) full years of service or
more shall be able to retire with an increased

App. 216
pension benefit of two percent of his or her
annual salary for each full year of service in
excess of twenty (20) years up to and including
thirty (30) full years of service (maximum of an
additional twenty (20) percent).
b. Commencing July 1, 1985, any officer or
member of the police department who shall have
twenty-five (25) full years of service or more
shall receive an additional pension benefit of one
percent of his or her annual salary for every full
year in excess of twenty (20) years.
c. Commencing July 1, 1985, any officer or
member of the police department shall be able to
retire with an increased benefit of two percent
for every full year of service above twenty (20)
full years up to thirty (30) full years of service
(maximum of an additional twenty (20) percent).
d. Benefits paid under this section shall be in
addition to those benefits set forth in
subsections (A)(1)(a) and (b) of this section.
9 a. Whenever an officer or member of the
permanent police department who has not
attained fifty-five (55) years of age shall become
unfit to perform active duty by reason of
physical infirmity or other causes, such officer or
member, upon recommendation in writing of the
mayor, based upon the medical decision of the
board of three physicians, shall be retired from
active service and placed on the pension list by
the city council, and so retired he or she shall be
paid annually from the police pension fund a

App. 217
sum equal to one-half of his or her annual salary
as defined in subsection (A)(3) of this section.
b. Upon attaining fifty-five (55) years of age,
such officer or member so retired shall be paid
annually for the remainder of his or her life in
equal monthly installments, a sum equal to fiftyfive (55) percent of his or her annual salary. No
officer or member of the permanent police
department shall be placed upon the pension list
unless and until that officer or member has been
examined by a board of three physicians
certified in, or specializing in, the area of
medicine that deals with the alleged infirmity
and after said physical examination the officer
or member has obtained a majority vote of the
board of three physicians that the physical
infirmity incapacitates the officer or member
from performing his or her duties as a police
officer. The examining board of physicians shall
consist of one physician selected by the union,
one physician selected by the city and the third
selected by the above-mentioned physicians.
10 a. Whenever an officer or member of the
permanent police department shall become unfit
to perform active duty by reason of age, such
officer or member, upon the recommendation in
writing of the mayor, shall be retired from active
service and placed on the pension list by the city
council, and when so retired he or she shall be
paid annually during the remainder of his or her
life from the police pension fund in equal
monthly payments, a sum equal to fifty-five (55)

App. 218
percent of his or her annual salary as
hereinbefore defined.
b. For the purpose of this section, retirement by
reason of age shall mean the attainment of the
age of fifty-five (55) years by an officer or
member, provided, however, that any such
officer or member who is fifty-five (55) years of
age or older as of the date of the adoption of the
ordinance codified in this chapter, and
thereafter, any other officer or member within
not more than ninety (90) days nor less than
seventy (70) days prior to attaining fifty-five (55)
years of age, may request in writing of the
mayor that he or she be continued in active
service for one year. Any such officer or member
shall be continued in active service upon the
recommendation of the mayor with the advice
and consent of the city council, if prior to the
mayor making such recommendation for
continuation in active service of such on officer
or member, the officer or member shall undergo
and satisfactorily complete a comprehensive
medical examination that includes, but is not
limited to, cardiovascular, neurological,
urinalysis, blood tests, chest x-rays, and
vision/hearing, and in addition thereto, the
officer or member shall pass a physical stress
test which shall be commensurate with his or
her job responsibilities as established by the
chief of police or the personnel director. This
examination must take place not more than
ninety (90) days nor less than seventy (70) days

App. 219
prior to the officer or member attaining the age
of fifty-five (55) years.
c. The results of the examination shall be
forwarded to the mayor and the city council by
the physician or physicians, person or persons,
administering such tests certifying that the
officer or member is capable of performing his or
her prescribed duties.
d. Further annual extensions up to sixty-five
(65) years of age may be granted from year to
year in the same manner as set forth above,
provided, however, that every officer or member
of the permanent police department who has
attained sixty-five (65) years of age as of the
date of the adoption of the ordinance codified in
this chapter, or thereafter, shall be placed on the
pension list by the city council, and such officer
or member so retired shall be paid annually
during the remainder of his or her life from the
police pension fund in equal monthly payments,
a sum equal to fifty-five (55) percent of his or her
annual salary as defined in subsection (A)(3) of
this section.
11. In computing the length of time spent in active
service in the police department there shall be included
any period of time spent in active service (herein called
“nonpermanent service”), as a probationary officer, a
member of the reserve police list, a special police officer
regularly employed. a civilian employee attached to the
department and periods of time served in the Armed
Forces of the United States, subject, however to the
provisions of subsection (A)(15) of this section,

App. 220
subsequent to service in any of the foregoing categories
or service as a member of the police department on
January 28, 1952, unless such person shall on or before
March 1, 1952 file in the office of the city treasurer
written notice that he or she accepts the provisions of
this sentence and either (a) pays therewith to the city
treasurer the amount which would have been
deductible from his or her compensation pursuant to
Section 2.20.020 and the corresponding provisions of
prior ordinances, had he or she been a member of the
police department during the period of his or her
nonpermanent service, or (b) authorizes the city
treasurer to deduct such amounts in equal installments
from the compensation payable to him or her over a
period of one year from the date of filing of such notice,
and provided, further, that in the case of any person
who shall become a member of the police department
after January 28, 1952, there shall be deducted in
equal installments from the compensation payable to
him or her over a period of one year from the effective
date of his or her appointment to the department, the
amount which would have been deductible from his or
her compensation pursuant to Section 2.20.020 had he
or she been a member of the police department during
the period of his or her nonpermanent service. Any
officer or member who shall resign, or who is
discharged from the police department, shall forfeit all
claims upon the police pension fund, except that he or
she shall be entitled to receive, and the custodian is
authorized to pay to him or her from the fund, the total
amount of the deductions made from his or her salary
pursuant to the provisions of this chapter. In the event
of the death of any officer or member of the police
department on or after January 1, 1951, the persons

App. 221
referred to below shall be entitled to receive, and the
custodian is authorized to pay to them from the fund,
as a death benefit an amount equal to the total amount
of the deductions made from the salary of the deceased
pursuant to the provisions of this chapter, provided,
however, that if such deceased officer or member shall
have been placed upon the pension list prior to his or
her death, the amount payable to such persons shall be
limited to the excess, if any, of the total amount of such
deductions over the total amount which the deceased
shall have received as benefits from the pension fund
during his or her lifetime, the persons above referred to
being the widow or widower of the deceased, or if there
is no such widow or widower then the minor child or
children of the deceased in equal shares, or if there is
no such widow or widower or minor child then the
dependent father of the deceased, then the dependent
mother of the deceased, if any.
12. No officer or member of the police department
shall be required to make any payment to the police
pension fund after the date when his or her name was
placed upon the pension list.
13. The benefits payable hereunder to any officer or
member placed upon the police pension list shall not be
transferable nor subject to attachment.
14. Disability Pension: Job-Related.
a. Whenever an officer or member of the
permanent police department shall become unfit
to perform active duty, by reason of a job-related
physical and/or psychological infirmity, such
officer or member upon the recommendation in

App. 222
writing of the mayor, based on the medical
decision of the board of three physicians, shall
be retired from active service and placed on the
disability pension list by the city council, and
when so retired, he or she shall be paid annually
from the police pension fund in equal monthly
payments a sum equal to sixty-six and twothirds (66 2/3) percent of his or her annual
salary as defined in subsection (A)(3) of this
section.
b. No officer or member of the permanent police
department shall be placed upon the pension list
unless and until that officer or member has been
examined by a board of three physicians
certified in, or specializing in, the area of
medicine that deals with the alleged infirmity
and after said physical examination the officer
or member has attained a majority vote of the
board of three physicians that the physical
infirmity is job related and further that the
physical infirmity incapacitates the officer or
member from performing his or her duties as a
police officer. The examining board of physicians
shall consist of one physician selected by the
union, one physician selected by the city and a
third selected by the above-mentioned
physicians.
c. Pension benefits relating to longevity, holiday
pay and medical insurance for retirees as
defined in the collective bargaining agreement
with the city of Cranston shall apply to
employees retiring under this section.

App. 223
d. Any officer who becomes disabled from duty
and retires pursuant to this section shall be paid
an additional two percent of his or her annual
salary per year for each year of service in excess
of twenty-five (25) years, up to a maximum of
seventy (70) percent.
15, Pension Credit for Military and Municipal
Service.
a. As of July, 1986, any officer or member of the
bargaining unit who has served in the armed
forces, a reserve unit, a national guard unit
or has prior municipal city time with the city
of Cranston shall be allowed to buy back said
time from the city of Cranston. Said time
shall be bought back at the rate of ten (10)
percent of his or her annual salary in his or
her first year of service with the city of
Cranston multiplied by the number of years
in said armed forces, reserve unit, guard unit
or prior municipal service up to a maximum
of four years. Upon such payment being
made to the city of Cranston by the officer or
member, the number of years purchased
shall be added to the member’s service time
within the department immediately. The
crediting of said time shall be for pension
purposes only and shall not affect a member’s
seniority or benefits in any other way while
an active member. A member’s seniority,
longevity and vacation entitlements would
not be affected by the purchase of said time
prior to retirement. At the time of retirement

App. 224
a member will receive credit for all years
worked and purchased and will be entitled to
benefits accordingly.
b. Any officer or member who was a member of
the active armed forces shall be allowed to
purchase back the amount of time spent in the
active service up to a maximum of four years.
Any officer or member who was a member of a
reserve unit or guard unit shall be allowed to
purchase back an amount of time equal to the
amount of active duty points accumulated by the
member while serving in the unit. Any officer or
member who has prior full-time municipal time
with the city of Cranston shall be allowed to
purchase back said time up to a maximum of
four years. It is clearly understood that the
maximum amount of time whether military,
municipal, or a combination of both will be four
years maximum.
c. When submitting a request to purchase said
time, proof of said time shall also be submitted.
For example: a DD-214, reserve or guard duty
certificate or prior city records for municipal
time.
16. Widow’s and Widower’s Benefit.
a. Minimum One Year of Service. The city of
Cranston agrees to pay a death benefit to the
widow or widower of an officer or member with
at least one credited year of service in the
department and a death benefit payment of
thirty-three and one-third (33 1/3) percent of the

App. 225
member’s salary which shall be fully escalated
from year to year. This benefit shall be paid to a
widow or widower until his or her death or until
he or she remarries. A credited year of service
for these members will he any year with over six
months completed.
b. Twenty (20) Years or More of Service. The city
of Cranston agrees to pay (per 1989 agreement),
widow or widower of deceased Cranston police
officers the following benefit in addition to any
other benefits to which they have been entitled:
i. Longevity and holiday pay shall be
included in the widow or widower pension
base for those widows or widowers, whose
husbands or wives, were entitled to longevity
and holiday pay in their pensions.
ii. Effective July 1, 1990, each widow or
widower will receive a pension increase
based upon sixty-seven and one-half (67 ½)
percent of what the decedent’s percentage
increase would have been.
iii. In the event the city and union negotiate
across-the-board increase in any given year,
the widows or widowers shall receive sixtyseven and one-half (67 ½) percent of the
percentage increases represented by said
across-the-board increase.
17. Officers or members who have completed over
twenty (20) credited years of service between July 1,
1995 and June 30, 1996, and retire during said period
July 1, 1995 through June 30, 1996 shall have the

App. 226
option of buying additional credited years of service as
defined in subsection (A)(17)(a) of this section or being
paid for said additional credited years of service as
defined in subsection (A)(17)(b), or a combination of
same as defined in subsection (A)(17)(c) as follows:
a. Officers or members who have completed over
twenty (20) credited years of service between
July 1, 1995 and June 30, 1996 and retire during
said period July 1, 1995 through June 30, 1996
can purchase the number of credited years of
service over (20) credited years as of July 1, 1995
and June 30, 1996 up to a maximum of ten (10)
years. A credited year of service for these
members will be any year of service with over
six months completed. The purchase rate for all
credited years of service will be five of the
weekly salary rates in effect for the
corresponding credited years of service. Each
credited year of service purchased will increase
the pension payment received at retirement by
two percent up to a maximum of twenty (20)
percent for ten (10) years. These additional
pension payments will be added to the fifty (50)
percent pension payment after the completion of
twenty (20) credited years of service to a
maximum of seventy (70) percent pension
payment. These members’ pension payments
will be escalated by the same method as found in
the above listed subsection (A)(1)(b) (reaching
age fifty-five (55)) and subsection (A)(20)
(escalation) of this section.

App. 227
b. Officers or members who have completed over
twenty (20) credited years of service between
July 1, 1995 and June 30, 1996, and retire
during said period July 1, 1995 through June 30,
1996, can be paid at retirement for the number
of credited years of service over twenty (20) at
the rate of one thousand two hundred dollars
($1,200.00) per year to a maximum of twelve
thousand dollars ($12,000.00) for all credited
years of service over twenty (20) credited years
to a maximum of thirty (30) credited years of
service. A credited year of service for these
members will be any year of service with over
six months completed.
c. Officers or members who have completed over
twenty (20) credited years of service between
July 1, 1995 and June 30, 1996, and retire
during said period July 1, 1995 through June 30,
1996 shall have the option of either buying
additional credited years of service or being paid
for said additional credited years of service. Said
members shall have the option of buying back all
or a portion of their credited years of service or
being paid for all or a portion of their credited
years of service or receive a combination of both
of the above for said additional credited years of
service over twenty (20). Under no circumstance
shall the number of credited years bought back
by the member, or paid to the member on
retirement, exceed the total number of credited
years of service a member has served over
twenty (20) years as determined between July 1,
1995 and June 30, 1996.

App. 228
18. Officers or members who have or will have
completed twenty (20) credited years of service and
retire between July 1, 1995 through June 30, 1996
shall, upon retirement, receive a severance payment of
five hundred dollars ($500.00) for each credited year of
service up to a maximum of thirty (30) credited years
of service. These members shall retire under the
present pension plan with no additional accrual of
pension payments or benefits. This severance payment
shall be paid at the time of the member’s retirement.
For these members, their credited years of service will
be determined as of July 1, 1995. A credited year of
service for these members will be any year of service
with over six months completed.
19. Officers or members who have completed over
five credited years of service between July 1, 1995 and
June 30, 1996 shall receive upon placement on service
retirement (at least twenty (20) credited years of
service), placement on occupational disability
retirement, placement on non-occupational retirement,
or in case of death, their widow or children (up to age
twenty-one (21) years) a payment of five hundred
dollars ($500.00) per year for each credited year of
service up to a maximum of twenty (20) years effective
June 30, 1997.
20. With respect to officers or members who retire
on or before August 31, 2006 only, retired members’
pension payments will automatically escalate in an
amount equal to all contractual increases received by
active duty members of similar rank or position and
similar credited years with regard to annual salary. In
any contractual year in which the annual salary for

App. 229
active members with over three years of service does
not increase by three percent, then said retired
members shall receive a three percent escalation of
said pension payment on June 30th of that year.
With respect to officers or members who retire on or
after September 1, 2006, retired members’ pension
payments will automatically escalate in an amount
fixed at three percent per annum, compounded, without
any escalation based on raises granted to active
employees.
21. Effective July 1, 1995, all members shall
contribute an amount equal to eight percent of their
annual salary, earned or accruing to said member, to
the pension fund.
22. Notwithstanding any language in Chapter 2.20
entitled Policeman’s Pension fund or any other law or
statute or ordinance or memorandum of agreement or
settlement agreement or binding arbitration award or
collective bargaining agreement provision or any other
statutory or contractual provision or legislative
enactment to the contrary, for any officer or member of
the permanent police department who was hired prior
to July 1, 1995 and in said plan who is still an active
employee and for any such member so retired and for
any beneficiaries receiving any retirement, disability or
widow/widower benefit or any other benefit of any kind
in said plan, any automatic annual escalation or
pension cost-of-living adjustment (COLA) of the
pension payment of the member or beneficiary in
accordance with these sections shall be suspended for
a period of ten (10) years beginning *June 30, 2013,
July 1, 2013

App. 230
23. Notwithstanding any language in Chapter 2.20
entitled Policeman’s Pension fund or any other law or
statute or ordinance or memorandum of agreement or
settlement agreement or binding arbitration award or
collective bargaining agreement provision or any other
statutory or contractual provision or legislative
enactment to the contrary, upon the expiration of the
ten year period provided for above, for any officer or
member of the permanent police department who was
hired prior to July 1, 1995 and in said plan who is still
an active employee and for any such member so retired
and for any beneficiaries receiving any retirement,
disability or widow/widower benefit or any other
benefit of any kind in said plan the automatic annual
escalation or pension cost-of-living adjustment (COLA)
of the pension payment of the member or beneficiary
shall automatically escalate in an amount fixed at
three percent per annum, compounded, without any
further escalation based on raises granted to active
employees.
24. The determination of the employer contribution
rate for fiscal year 2014 and thereafter shall include a
re-amortization of the Unfunded Actuarial Accrued
Liability over a twenty-six (26) year period.
Section 2. This Ordinance shall take effect upon
its final adoption.
Positive Endorsement
/s/Christopher Rawson
4/22/13
Christopher Rawson, City Solicitor
Date

App. 231
Negative Endorsement (attach reasons)
_________________________________________
Christopher Rawson, City Solicitor
Date
Sponsored by: Mayor Fung
Referred to Finance Committee April 11, 2013

U/Ordinance/Police_Retirees_Pension_2013

App. 232

APPENDIX F
3-13-05
THE CITY OF CRANSTON
________________
ORDINANCE OF THE CITY COUNCIL
IN AMENDMENT OF TITLE 2.28.050 OF THE
CODE OF THE CITY OF CRANSTON, 2005,
ENTITLED “FIREMEN’S PENSION FUND RETIREMENT FROM SERVICE”
(Members Hired Prior to July 1, 1995)
No. 2013-6
*Scrivener’s error line 131 Corrected June 30, 2013 to
July 1, 2013
Passed:
April 22, 2013

/s/John Lanni
John Lanni, Jr., Council President

Approved:
/s/Allan W. Fung
April 23, 2013 Allan W. Fung, Mayor
Purpose – The purpose of this ordinance is to
provide retirement security to current and retired
officers or members of the city’s permanent fire
department who have been in active service with such
department and are members of the local police and
fire pension plan that is severely underfunded by
codifying a reasonable alternative funding
improvement plan in accordance with the mandates of
Rhode Island General Laws section 45-65-1 et seq.

App. 233
Legislature Findings – It is the intention of the
City of Cranston, by and through its City Council, upon
the recommendation of the Mayor, to begin the process
of ensuring the sustainability of the City of Cranston’s
locally administered police and fire pension plan and to
advance and maintain the long-term stability of said
plan. We find and declare that:
1. The City of Cranston administers a local pension
plan for police and fire members who were hired
prior to 1995 (“plan”). As of the city’s actuarial
report of December 2012, there were 483 plan
participants, of which only 48 were active
employees. At that time, the total accrued
liability was $312.9 million and our unfunded
liability was $290.2 million. Our annually
required contribution for FY 2013-2014 will be
$28.5 million. Our plan is only funded at
approximately 16%.
2. For the FY 2012-13 budget year, the City of
Cranston could only afford to fund
approximately $22 million of its $25.7 million
annually required contribution, which is
approximately 85.5% of its obligation. While this
is an increase over prior years, the City of
Cranston has had a long and troubling history of
underfunding its annually required
contributions.
3. According to a September 2011 report by the
Office of the Auditor General entitled Pension
and OPEB Plans Administered by Rhode Island
Municipalities (“Auditor General report”): “Many
municipal pension plans are severely

App. 234
underfunded which presents the risk that
sufficient funds will not be available to meet
promised benefits to retirees. It also undermines
the overall fiscal health of the plan’s sponsor.”
4. The Auditor General report specifically noted as
an example that the “assets available within the
City of Cranston Police and Fire Employees
Retirement System are only sufficient to make
pension benefit payments to retirees for
approximately two years.”
5. In 2012, the State of Rhode Island, pursuant to
Rhode Island General Law section 45-13-12,
designated the City of Cranston a “Distressed
Community” which indicates our community has
a high property tax burden relative to the
wealth of our taxpayers.
6. In accordance with Rhode Island General Law
section 45-65-6, the city hired Buck Consultants,
our actuary, to perform an initial actuarial
experience study (“study”). That study made several
recommendations to our assumptions for our
actuarial valuation of our local police and fire
pension plan. The city’s Board of Investment
Commissioners, which is authorized by our city
charter to manage the assets or the pension fund,
accepted those recommendations for use in the next
actuarial valuation of the plan.
7. Based upon the experience study results, our
plan actuary certified in April 2012 that our plan
was in “critical status” as defined by Rhode Island
General Law section 45-65-6.

App. 235
8. Following said certification, Mayor Fung provided
the mandated notice of “critical status”
determination to all plan participants and required
statutory entities.
9. It is in the best interests of residents, individual
employees, retirees and beneficiaries of the City of
Cranston to maintain a viable and sustainable local
police and fire pension plan and to develop a
reasonable alternative funding improvement plan to
emerge from “critical status” as required by Rhode
Island General Laws section 45-65-6.
It is ordained by the City Council of the City of
Cranston as follows:
Section 1. Title 2.28.050 entitled “Firemen’s
Pension Fund – Retirement from Service” Section A
only pertaining to Members Hired Prior to July 1, 1995
is hereby amended by adding thee following:
2.28.050 - Retirement from service.
Any officer or sworn member of the permanent fire
department who has been in active service in such
department may retire pursuant to this section upon
his or her written application to either the Cranston
city council if said member is a member of the city of
Cranston firefighter’s pension as hereinafter defined in
subsection (A) of this section or to the state of Rhode
Island retirement board if said member is a member of
the state of Rhode Island’s optional twenty (20) year on
service allowance Rhode Island General Laws Section
45-21.2-22, as modified, and hereafter defined in
subsections (B) and (C) of this section. Upon said
member qualifying for a pension either under

App. 236
subsections (A), (B) or (C), the city council by a majority
vote or the state of retirement board shall approve said
pension and the member so retired shall be entitled to
the respective benefits as follows:
A. City of Cranston Firefighters’ Pension (Members
Hired Prior to July 1, 1995).
1. The pension contributed to and received by all
members hired prior to July 1, 1995, shall be paid from
the city of Cranston firefighters’ pension. All members
will accrue a pension in an amount equal to two and
one-half percent of their salary per credited year of
service. Upon the completion of twenty (20) credited
years of service a member who has attained the age of
fifty-five (55) years may retire a pension payment of
fifty-five (55) percent of the member’s weekly salary at
the time of the member’s retirement. A member who
has not attained the age of fifty-five (55) years may
retire with a pension payment of fifty (50) percent of
the member’s weekly salary at the time of the
member’s retirement.
2. Members will be able to accrue an additional two
percent per year in pension payments to a maximum of
twenty (20) percent for a maximum of thirty (30)
credited years of service, subject io the provisions of
subsections (A)(3)(a), (b) and (c). These additional
pension payments will be added to the fifty (50) percent
pension payment if the member retires prior to age
fifty-five (55), or the fifty-five (55) percent pension
payment if the member retires after reaching age fiftyfive (55), after the completion of twenty (20) credited
years of service to a maximum pension payment of

App. 237
seventy (70) percent of the member’s weekly salary at
the time of the member’s retirement.
3. Members who have completed over twenty (20)
credited years of service as of July 1, 1995, shall have
the option of buying additional credited years of service
as defined in subsection (A)(3)(a) or being paid for said
additional credited years of service as defined in
subsection (A)(3)(b), or a combination of same as
defined in subsection (A)(3)(c) as follows:
a. Members who have completed over twenty
(20) credited years of service as of July 1, 1995, can
purchase the number of credited years of service
over twenty (20) credited years as of July 1, 1995.
up to a maximum of ten (10) years. The purchase
rate for all credited years of service will be five
percent of the weekly salary rates in effect for the
corresponding credited years of service. Each
credited year of service purchased will increase the
pension payment received at retirement by two
percent up to a maximum of twenty (20) percent for
ten (10) years. These additional pension payments
will be added to the fifty (50) percent pension
payment if the member retires prior to age fifty-five
(55), or the fifty-five (55) percent pension payment
if the member retires after reaching age fifty-five
(55), after the completion of twenty (20) credited
years of service to a maximum pension payment of
seventy (70) percent of the member’s weekly salary
at the time of the member’s retirement.
b. Members who have completed over twenty
(20) credited years of service is or July 1, 1995, can
be paid at retirement for the number of credited

App. 238
years of service, over twenty (20) at the rate of one
thousand two hundred dollars ($1,200.00) for all
credited years of service over twenty (20) credited
years to a maximum of thirty (30) credited years of
service.
c. Members who have completed over twenty (20)
credited years of service as of July 1, 1995, shall
have the option of either buying additional credited
years of service or being paid for said additional
credited years of service. Said members shall have
the option of buying back all or a portion of their
credited years of service or being paid for all or a
portion of their credited years of service or receive
a combination of both of the above for said
additional credited years of service over twenty (20).
Under no circumstance shall the number of credited
years bought back by the member, or paid to the
member on retirement succeed the total number of
credited years of service a member has served over
twenty (20) years, as determined on July 1, 1995.
4. Members who have served in the Armed Forces of
the United States, in an active duty capacity will be
eligible to purchase up to a maximum four years of
military service at the rate of five percent of the weekly
salary of six hundred fifty-four dollars and forty cents
($654.40) effective July 1, 1995. The purchase price for
each credited year purchased shall be one thousand
seven hundred one dollars and forty-four cents
($1,701.44). These purchased active military service
years will be in addition to a member’s credited years
of service for pension payment up to a maximum of
thirty (30) credited years of service. However, these

App. 239
purchased military service years shall only be applied
for pension purposes after the member has completed
twenty (20) years of service. Purchased active military
service years shall only be added after any and all
other optional purchased credited years of service have
been applied.
5. Members who have served in the Armed Forces
Reserve of the United States, will be eligible to
purchase up to a maximum four years of military
service at the rate of five percent of the weekly salary
of six hundred fifty-four dollars and forty cents
($654.40) effective July 1, 1995. The purchase price for
each credited year purchased shall be one thousand
seven hundred one dollars and forty-four cents
($1,701.44). For the purposes of this section, four years
of service as a reservist in the Armed Forces of the
United States shall equal one year of military service
(one credited year). These purchased reserve military
service years will be added to a member’s credited
years of service for a pension payment up to a
maximum of thirty (30) credited years of service.
However, these purchased reserve military service
years shall only be applied for pension purposes after
the member has completed twenty (20) credited years
of service. Purchased reserve military service years
shall be used for pension purposes only. Credit for
military service years shall only be added after any and
all optional purchased credited years of service have
been applied.
6. Effective July 1, 2002, members shall contribute
an amount equal to nine and one-half percent of the
weekly salary, earned or accruing, to said member.

App. 240
Effective July 1, 2003, members shall contribute an
amount equal to ten (10) percent of the weekly salary,
earned or accruing, to said member. Effective July 1,
2004, members shall contribute an amount equal to ten
and one-half (10 ½) percent of the weekly salary,
earned or accruing, to said member.
7. Notwithstanding any language in Chapter 2.28
entitled Fireman’s Pension fund or any other law or
statute or ordinance or memorandum of agreement or
settlement agreement or binding arbitration award or
collective bargaining agreement provision or any other
statutory or contractual provision or legislative
enactment to the contrary, for any officer or member of
the permanent fire department who was hired prior to
July 1, 1995 and in said plan who is still an active
employee and for any such member so retired and for
any beneficiaries receiving any retirement, disability or
widow/widower benefit or any other benefit of any kind
in said plan any automatic annual escalation or
pension cost-of-living adjustment (COLA) of the
pension payment of the member or beneficiary in
accordance with these sections shall be suspended for
a period of ten (10) years beginning *June 30, 2013,
July 1, 2013.
8. Notwithstanding any language in Chapter 2.28
entitled Fireman’s Pension fund or any other law or
statute or ordinance or memorandum of agreement or
settlement agreement or binding arbitration award or
collective bargaining agreement provision or any other
statutory or contractual provision or legislative
enactment to the contrary, upon the expiration of the
ten year period provided for above for any officer or

App. 241
member of the permanent fire department who was
hired prior to July 1, 1995 and in said plan who is still
an active employee and for any such member so retired
and for any beneficiaries receiving any retirement,
disability or widow/widower benefit or any other
benefit of any kind in said plan the automatic annual
escalation or pension cost-of-living adjustment (COLA)
of the pension payment of the member or beneficiary
shall automatically escalate in an amount fixed at
three percent per annum, compounded, without any
further escalation based on raises granted to active
employees.
9. The determination of the employer contribution
rate for fiscal year 2014 and thereafter shall include a
re-amortization of the Unfunded Actuarial Accrued
Liability over a twenty-six (26) year period.
Section 2. This Ordinance shall take effect upon its
final adoption.
Positive Endorsement
/s/Christopher Rawson
4/22/13
Christopher Rawson, City Solicitor
Date
Negative Endorsement (attach reasons)
_________________________________________
Christopher Rawson, City Solicitor
Date
Sponsored by: Mayor Fung

Referred to Finance Committee April 11, 2013
U/Ordinance/Fire_Retirees_Pension_2013

App. 242
Certified TRUE COPY of Original
Record on File in this Office
Date: NOV - 4 2015

Attest: Maria M. Wall
Cranston City Clerk

